<html>
<title> - THE ISSUES AFFECTING RURAL COMMUNITIES IN THE SOUTHWEST: NATIONAL FOREST MANAGEMENT AND THE ENDANGERED SPECIES ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
  THE ISSUES AFFECTING RURAL COMMUNITIES IN THE SOUTHWEST: NATIONAL 
           FOREST MANAGEMENT AND THE ENDANGERED SPECIES ACT

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

            Monday, September 20, 2004, in Thatcher, Arizona

                               __________

                           Serial No. 108-107

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-206                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               Stephanie Herseth, South Dakota
Tom Osborne, Nebraska                George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Dennis R. Rehberg, Montana           Ruben Hinojosa, Texas
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Tom Cole, Oklahoma                   Joe Baca, California
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Scott McInnis, Colorado              Tom Udall, New Mexico
Walter B. Jones, Jr., North          Mark Udall, Colorado
    Carolina                         Anibal Acevedo-Vila, Puerto Rico
John E. Peterson, Pennsylvania       Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Stephanie Herseth, South Dakota
J.D. Hayworth, Arizona               VACANCY
Jeff Flake, Arizona                  VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, September 20, 2004.......................     1

Statement of Members:
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona.................................................     5
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     3
    Renzi, Hon. Rick, a Representative in Congress from the State 
      of Arizona.................................................     3
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Flake, Hon. Jake, Speaker, Arizona House of Representatives..    26
        Prepared statement of....................................    29
    Forsgren, Harv, Regional Forester, Southwestern Region, 
      Forest Service, U.S. Department of Agriculture.............     6
        Prepared statement of....................................     8
    Hall, Dale, Regional Director, Southwest Region, U.S. Fish 
      and Wildlife Service, U.S. Department of the Interior......    11
        Prepared statement of....................................    14
    Herrington, Mark, Member, Graham County Board of Supervisors, 
      representing the National Association of Counties..........    30
        Prepared statement of....................................    32
    Holder, Jan, Program Manager, Gila Watershed Partnership.....    46
        Prepared statement of....................................    47
    Powell, B.E., Associate Director, Steward Observatory, and 
      Director, Mt. Graham International Observatory.............    48
        Prepared statement of....................................    51
    Warshall, Peter, Ph.D., Peter Warshall and Associates, 
      Tucson, Arizona............................................    38
        Prepared statement of....................................    40

Additional materials supplied:
    National Association of Conservation Districts, Statement 
      submitted for the record...................................    72
    Parker, Dennis, Attorney at Law, Patagonia, Arizona, on 
      behalf of Eddie Johnson and the Johnson Ranch, Letter 
      submitted for the record...................................    73
    Pope, Irwin, Peridot, Arizona, News release submitted for the 
      record.....................................................    76
    Schneberger, Laura, Gila Livestock Growers, Winston, New 
      Mexico, Letter submitted for the record....................    77
    Zybach, Bob, Corvallis, Oregon, Letter submitted for the 
      record.....................................................    81


 OVERSIGHT FIELD HEARING ON ISSUES AFFECTING RURAL COMMUNITIES IN THE 
  SOUTHWEST: NATIONAL FOREST MANAGEMENT AND THE ENDANGERED SPECIES ACT

                              ----------                              


                       Monday, September 20, 2004

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                           Thatcher, Arizona

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:00 a.m., at 
Eastern Arizona College, 615 North Stadium Avenue, Thatcher, 
Arizona, Hon. Greg Walden [Chairman of the Subcommittee] 
presiding.
    Present: Representatives Walden, Flake and Renzi.
    Also Present: Representative Pombo.
    Mr. Walden. Thank you, Mr. Mayor. We appreciate your town's 
hospitality as well as that of Eastern Arizona College.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    The Subcommittee is meeting today to hear testimony on 
Issues Affecting Rural Communities in the Southwest--National 
Forest Management and the Endangered Species Act.
    Before we hear from our witnesses I would first like to 
thank Congressman Renzi for requesting this important hearing 
and for hosting it in his district. He is an active member of 
this Committee and this Subcommittee and is an extraordinarily 
important voice for Southwest Arizona on the issues affecting 
this region and certainly our national forest.
    I would also like to thank Chairman Pombo, who is here 
today, for approving this hearing and also for taking time out 
of his very busy schedule to attend the hearing.
    And, of course, it is an honor, too, to have with us 
Congressman Jeff Flake, who I understand attended Eastern 
Arizona College at one point in his collegiate career.
    It is vital that the Committee meet in sessions such as 
this away from Washington, D.C., where we can truly begin to 
understand the implications that Federal laws and policies have 
on rural communities. One law in particular, the Endangered 
Species Act, is of special concern to this Committee. It is a 
30-year-old law that is not only wreaking havoc on the economic 
vitality of rural communities but it is also doing miserably in 
achieving the intent for which it was created, the recovery of 
species.
    Since the Endangered Species Act was enacted, only seven 
domestic species have been recovered--seven. Given the enormous 
public and private costs and foregone revenues that the ESA has 
inflicted, this level of accomplishment is simply unacceptable. 
Today we will hear testimony concerning species such as the 
Mount Graham red squirrel, the Mexican spotted owl, the willow 
flycatcher and others to see how the ESA functions in practice, 
on the ground and in communities.
    In preparing for this hearing, several questions come to 
mind: How does the ESA affect the management of Federal lands? 
How does catastrophic wildfire affect critical habitat? What is 
the ESA's impact on private landowners? How much does it cost 
local governments? How should the Act be reformed to make it 
both less costly and more successful?
    We hope to address these and a number of other questions 
today but not just in relation to the ESA. We also hope to 
learn how other Federal land management laws and policies are 
impacting local landscapes and economies. For example, we want 
to see how Forest Service and BLM policies and decisions are 
affecting forest and range conditions and local jobs. Finally, 
we want to get a measure of the net impact that all these laws 
and policies, laid one on top of the other, are cumulatively 
having on the people that live and work in the rural Southwest 
part of our country.
    To help ensure that we are hearing from as many people as 
possible, we have paper in the back for individuals who are not 
testifying today to give us their thoughts. So please put your 
name and address with your comments, and we will add your input 
into the Committee records.
    [The prepared statement of Mr. Walden follows:]

           Statement of The Honorable Greg Walden, Chairman, 
               Subcommittee on Forests and Forest Health

    I'd first like to thank Congressman Renzi for requesting this 
important hearing and for hosting it in his district. I'd also like to 
thank Chairman Pombo, not only for agreeing to this hearing, but for 
making time in his busy schedule to attend. It is vital that the 
Committee meet in settings such as this, away from the spin of 
Washington D.C., where we can truly begin to understand the 
implications that Federal laws and policies have on rural communities.
    One law in particular, the Endangered Species Act, is of special 
concern to this Committee. This thirty-year-old law is not only 
wreaking havoc on the economic viability of rural communities, but it 
is also doing miserably in achieving the intent for which it was 
created--- the recovery of species. Since the ESA was enacted, only 
seven domestic species have been recovered. Given the enormous public 
and private costs---and foregone revenues---that the ESA has inflicted, 
this level of accomplishment is unacceptable. Today we will hear 
testimony concerning species such as the Mount Graham red squirrel, the 
Mexican spotted owl, the willow flycatcher, and others, to see how the 
ESA functions in practice, on the ground and in communities.
    In preparing for this hearing, several questions have come to my 
mind. How does the ESA affect the management of federal lands? How does 
catastrophic wildfire affect critical habitat? What are the ESA's 
impacts on private landowners? How much does it cost local governments? 
How should the Act be reformed to make it less costly and more 
successful?
    We hope to address these and a number of other questions today, but 
not just in relation to the ESA. We also hope to learn how other 
Federal land management laws and policies are impacting local 
landscapes and economies. For example, we want to see how Forest 
Service and BLM policies and decisions are affecting forest and range 
conditions--and local jobs.
    Finally, we want to get a measure of the net impact that all these 
laws and policies, laid one on top of the other, are cumulatively 
having on the people that live and work in the rural southwest.
                                 ______
                                 
    Mr. Walden. At this point, I would now recognize the 
Chairman of the full Resources Committee, The Honorable Richard 
Pombo of California, for any statement he may have. Mr. 
Chairman.

   STATEMENT OF THE HON. RICHARD POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Well, thank you, Mr. Chairman. It is nice to be 
back in Arizona and to have an opportunity to hear from people 
in this part of the country.
    One of the goals that I set out when I became Chairman of 
the Resources Committee was to get the members of the Committee 
out of D.C. as often as possible and have them go to places 
like this, where people may not have had the opportunity to 
testify before, and they are the ones that are actually at the 
forefront of the implementation of so many different laws. I 
have always thought it was extremely important for Members of 
Congress from different parts of the country to hear from 
people in rural America so that they can understand what the 
impact is and what is working and what is not working. Because 
when you get back in Washington, you get inside the Beltway and 
you have that mentality that everything that is happening is 
important there. And a lot of times it just doesn't work.
    I know in my own district--I represent a district in 
California--and right now every square inch of my district is 
critical habitat for one endangered species or another, and 
that has had an impact on everything that we do in my district. 
I know, in having the opportunity to talk to Congressman Renzi 
about what was happening in his area, I felt it was important 
that we bring the Committee here and have an opportunity to 
hear from local people and those that are responsible for 
implementing the law.
    So I thank Congressman Renzi for inviting us down here, for 
the work that he has done on the Committee. He has--from the 
day he got there, he has been an extremely valuable part of the 
Resources Committee and our efforts to bring a little common 
sense to what some of these Federal laws are doing.
    So, with that, I yield back, Mr. Chairman.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Walden. I am now honored to recognize our colleague, 
Mr. Renzi, for any statements he may have.
    Mr. Renzi. Thank you.
    Mr. Walden. While I know he appreciates the applause, it is 
my job to not let you do that. So from here on out--



STATEMENT OF THE HON. RICK RENZI, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Renzi. Thank you, Mr. Chairman.
    Good morning to everyone, everyone who turned out and took 
time away from their busy schedules and their families and 
their community activities today to engage in the great debate 
and to really show a great show of force as far as this valley 
is concerned. I love being with you down here, and it is a 
pleasure and honor to be with you this morning.
    I would like to thank Chairman Richard Pombo, who has been 
a great friend and mentor; Chairman Greg Walden, who has taken 
time and flew all the way in from Oregon; and Jeff Flake, who 
has been a good friend and coach in the House of 
Representatives. This hearing today is very important to all of 
us. It takes on the Endangered Species Act, and it looks at, 
also, the issues as it relates to our forests and in particular 
Mount Graham.
    I want to thank Mayor Rivera for your kindness and 
hospitality, Dr. Mark Bryce for your hospitality, and thank you 
so much for this wonderful facility and making it available for 
us here today, Jay Lauten for your prayer this morning that you 
offered up to heaven on behalf of our community. You know how 
to pray, and I am grateful to be around you and thank you for 
your prayer this morning.
    We have got with us excellent panels and witnesses today. 
We have got Arizona House Speaker Jake Flake, Mark Herrington, 
two great rural leaders. We have got testimony from some great 
Arizonans in Jan Holder and Buddy Powell, who has been up on 
Mount Graham Observatory for several years. Our Federal 
witnesses today, Harv Forsgren, who is the Forest Service 
regional director in Albuquerque, and Dale Hall with the Fish 
and Wildlife.
    Now we spoke about really focusing in on the Endangered 
Species Act, and the reason we asked to come here and to bring 
and to hear from the people about the Endangered Species Act is 
because the Endangered Species Act has hurt the people of this 
community. It has driven out our sustainable forest industries. 
We live in the largest ponderosa pine forest in the world, and 
we have no lumberjacks, no timber mills. We have got to find a 
way to embrace both the idea of helping to sustain the 
Endangered Species Act but at the same time taking into 
consideration the human impact on our communities and our 
economies.
    It was with best intentions in 1973 that the Endangered 
Species Act was put together. But it now is fraught with 
litigation, to the point where it has bankrupted the Forest--
the Fish and Wildlife and their critical habitat program 
budget. It has bankrupted the very budget that Congress sets 
aside in order to protect the species. So in order to continue 
and find ways to balance and to work in a holistic approach, we 
have got to work to reform the Endangered Species Act.
    We have in Congress--my team and I are proud to have 
sponsored two pieces of legislation, one, H.R. 2933, which was 
introduced by a Democratic Congressman, Dennis Cardoza of 
California, which requires the Fish and Wildlife Service to 
designate critical habitat in concurrent establishment of a 
recovery plan. And then it has also been my honor to cosponsor 
Chairman Greg Walden's legislation, H.R. 1662, which is the 
Sound Science For Endangered Species Plan Act, which requires 
that we set a standard for the scientific and commercial data 
which is used to take action under the Endangered Species Act. 
In other words, common sense. In other words, human impact, 
making sure that we balance with peer science review.
    Greg Walden authored that Act, and it is an honor to have 
him and the Committee here today.
    Again, welcome everyone to the beautiful Gila Valley. Thank 
you all for turning out.
    Thank you, Mr. Chairman, for allowing me the time.
    Mr. Walden. Thank you for your leadership on these and 
other issues.
    Mr. Walden. I am now honored to recognize for an opening 
statement Mr. Jeff Flake.

STATEMENT OF THE HON. JEFF FLAKE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Flake of Arizona. Thank you, and I won't take long. I 
want to get to the witnesses. But the real purpose for me being 
here after 23 years here at school was to check with Mrs. Flam 
and see if I could raise that English grade from a C to 
something else. I am afraid that my time may have run out on 
that.
    But I do appreciate being here. I love everything about 
this area. I love the swimming hole up on Mount Graham, which 
may explain why I got a C in English. But this a great area. It 
is good to be here.
    It is also, as Congressman Renzi mentioned, the Endangered 
Species Act has wreaked havoc on a lot of communities around. 
And it not only affects the rural communities like Thatcher and 
Safford, but it also affects those who live in the cities as 
well, the rate payers, the SRP who are forced now to pay I 
think between 15 and $20 million increased rate so that 
alternative habitat can be found or created for the willow 
flycatcher. We need to determine is there, sound science which 
actually determines whether that will do any good or not or are 
we simply imposing costs on rate payers.
    Also, as Rick mentioned, we--with the forest communities up 
here, we had the Rodeo-Chediski fire 2 years ago, and literally 
no salvage timber has been harvested. The timber is just going 
to waste and actually creating more of a problem, and we still 
can't get in because of cumbersome regulations.
    I think all of us have legislation in that regard. I 
certainly have some that I have introduced, but, boy, we need 
hearings like this where we hear from people outside the 
Beltway about the real effects of the Endangered Species Act. 
So I commend the Chairman--both Chairmen here of the 
Subcommittee and the full Committee for getting this hearing 
done and commend Congressman Renzi for requesting it. Thank 
you.
    Mr. Walden. Thank you. Appreciate your comments.
    Mr. Walden. Indeed, one of the focuses of this Subcommittee 
is to look at what happens after a catastrophic event like a 
fire; and I share your commitment to trying to fix the problems 
there.
    We had the Biscuit fire in southern Oregon and northern 
California. It burned half a million acres. That was three 
summers ago now, and they still haven't been able to get out 
any dead timber, and it makes no sense to me.
    Well, having said that, I would like to introduce our 
witnesses on our first panel. We have Mr. Harv Forsgren, 
Regional Forester, accompanied by Jeanine Derby, the Forest 
Supervisor, Region 3, USDA Forest Service; and Mr. Dale Hall, 
Regional Director, accompanied by Steve Spangle, who is the 
State Supervisor for Ecological Services, Region 2, U.S. Fish 
and Wildlife Service.
    Let me remind the witnesses that under our Committee Rules 
you must limit your oral statements to 5 minutes, but your 
entire statement will appear in the record.
    Mr. Walden. So, with that, I am delighted to recognize Mr. 
Forsgren for his statement.
    Harv, welcome. Thank you for being here.

 STATEMENT OF HARV FORSGREN, REGIONAL FORESTER, REGION 3, USDA 
FOREST SERVICE, ACCOMPANIED BY JEANINE DERBY, FOREST SUPERVISOR

    Mr. Forsgren. Thank you.
    Chairman Walden, Chairman Pombo, members of the 
Subcommittee, thank you for the invitation to be here to 
discuss some of the management challenges we face here in the 
Southwest.
    I am Harv Forsgren, Regional Forester for the Southwestern 
Region; and Jeanine Derby, Forest Supervisor of the Coronado 
National Forest here in your backyard, is accompanying me 
today.
    At the outset, Mr. Chairman, I want to thank you and 
members of the Committee for your leadership and passage of the 
Healthy Forest Restoration Act. That legislation, in 
combination with the stewardship contracting authority that was 
previously provided by Congress, is making a significant 
positive difference on the ground here in addressing our forest 
health issues.
    As Regional Forester, I am focusing our resources and 
efforts on in three areas: first, on the restoration of the 
ecological health of our forest and rangelands; second, on 
helping communities to protect themselves from the risk of 
catastrophic fire; and, third, to contribute to the economic 
vitality of these local communities. Here in the Southwest 
those three objectives are inseparably connected.
    The most significant challenge that we face here in the 
Southwest is captured by one startling statistic: Of the 21 
million acres of national forest system land, more than 80 
percent are at moderate to high risk of catastrophic fire. That 
we also refer to as uncharacteristic wild fire. And I say 
uncharacteristic not because fire hasn't been an important 
component of this landscape. It indeed has. But I say 
uncharacteristic because current forest conditions result in 
fires that burn uncharacteristically hot and large, damaging 
our watersheds, threatening our communities and damaging our 
economies.
    Restoring the health of our forest will require active 
management as well as the careful reintroduction of natural 
fire. The picture that I painted of these challenges may seem 
daunting. Nevertheless, I am very optimistic about the 
opportunity for success.
    One reason for my optimism is the President's Healthy 
Forest Initiative. The administrative, regulatory and 
legislative actions resulting from this effort have given our 
land managers more effective tools. That is borne out in our 
accomplishments. Over 200,000 acres of fuel reduction work was 
accomplished in the region this year. About two-thirds of the 
expenditures and about 40 percent of the acres treated were 
within the wild land urban interface.
    I am also optimistic because of our successful award of the 
Nation's first large-scale stewardship contract. The White 
Mountain Stewardship Contract provides for treatment of 5,000 
to 25,000 acres a year over the next 10 years. The project will 
reduce the risk of catastrophic fires while improving forest 
health, while reducing treatment costs and while providing 
local jobs. Given the scale of the issue here in the Southwest, 
we cannot effectively restore forest health without additional 
private sector involvement.
    Finally, I am optimistic because of the collaborative work 
being accomplished through our State foresters and the 
willingness of communities across the Southwest to help 
themselves and to support our efforts. We are successfully 
taking on this challenge in an environment that is dotted by 
listed species. There are 48 threatened or endangered species 
on national forest system lands in the region.
    I commend Dale Hall, our Regional Director of the Fish and 
Wildlife Service. He has made good on his commitment to me to 
protect listed species without placing communities in harm's 
way. When threatened or endangered species may be affected by 
our fuels reduction work, the Fish and Wildlife Service has 
made consultation a top priority. The Service has also 
consistently adhered to its policy that we complete emergency 
consultation on fire operations only after the risk to human 
life or improved property has been--or has subsided.
    My written testimony highlights several major programmatic 
consultations that we have completed with the Fish and Wildlife 
Service over the past few years that have enabled us to meet 
our responsibilities under the Endangered Species Act in a 
streamlined fashion while meeting our own multiple-use mission. 
For brevity's sake, allow me to highlight just one of those 
examples of this cooperative approach.
    In 2001, we completed the batch consultation to expedite 
hazardous fuel reduction projects in the wild land urban 
interface areas to protect human life and property and natural 
resources, including rare species habitats. This consultation 
covered WUI, 1.9 million acres of WUI, and has enabled very 
streamlined consultation when we get down to specific project 
proposals.
    These outstanding working relationships at the regional 
level extend to our local field offices as well, and I will use 
the nearby Coronado National Forest as an example. This year 
the 30,000 acre Nuttall fire complex threatened summer homes in 
the Mount Graham International Observatory. Throughout the fire 
suppression effort, the forest worked with the Fish and 
Wildlife Service to minimize damage to habitat of the listed 
Mount Graham red squirrel. However, this work did not impede 
fire suppression efforts; and, thankfully, there was no loss of 
human life or significant loss of property.
    The Forest Service has worked with the Service over the 
last decade to conduct numerous field reduction projects. The 
Pinalenos Ecosystem Restoration Project would cover an 
additional 5.5 thousand acres of dense stands of ponderosa pine 
and mixed conifer. Fifteen thousand three hundred acres of 
prescribed burns around the base of Mount Graham to reduce the 
risk of wild fires starting there and running up the mountain 
are currently being planned. Other projects target completion 
of firewise treatments around the Turkey Flats and Columbine 
summer homes, the Bible Camp, the Heliograph Peaks electronic 
site and ongoing maintenance needs that we have to protect the 
Mount Graham International Observatory. We anticipate continued 
outstanding support and cooperation for Fish and Wildlife 
Service.
    In closing, I would like to reiterate my appreciation to 
the Committee and pledge our continued commitment to address 
the health issues of forests here in the Southwestern Region. 
In doing so, we will work with all who have a stake in the 
management of our national forest and grasslands.
    This concludes my prepared remarks, and I would be happy to 
answer any questions that you have may have.
    [The prepared statement of Mr. Forsgren follows:]

            Statement of Harv Forsgren, Regional Forester, 
  Southwestern Region, Forest Service, U.S. Department of Agriculture

    Chairman Walden and Members of the Subcommittee:
    Thank you for the opportunity to be with you today to discuss the 
management challenges of the forests and rangelands in the Southwestern 
Region. I am Harv Forsgren, Regional Forester for the Southwestern 
Region of the Forest Service. With me today is Jeanine Derby, Forest 
Supervisor of the Coronado National Forest.
    At the outset, Mr. Chairman, I want to thank you and other members 
of this Committee for your leadership in passage of the Healthy Forests 
Restoration Act of 2003. This law combined with stewardship contracting 
is having significant positive effects here in the Southwest and 
especially for rural communities that face risk from wildfires.
Regional Overview
    The Southwestern Region encompasses over 21 million acres of 
National Forests and Grasslands in Arizona, New Mexico and the 
panhandles of Texas and Oklahoma. Our statutory mission is to manage 
these lands for multiple-use while sustaining health, diversity, and 
productivity. Here in Arizona, the Forest Service manages about 11 
million acres of forest and rangelands for a multitude of purposes 
including livestock grazing, mining, and utilization of forest 
products, recreation, wildlife, and watershed protection.
    As Southwestern Regional Forester, I am focusing our resources and 
efforts in three areas:
    <bullet>  Restoring the ecological functionality of forests and 
rangelands;
    <bullet>  Helping communities protect themselves from the threats 
of wildfire; and
    <bullet>  Contributing to the economic vitality of local 
communities.
    These three priorities are inseparably connected. In the Southwest, 
the ability to accomplish work in order to improve health of our 
forests is dependent upon the economic vitality of local communities--
specifically the presence of infrastructure to utilize the biomass that 
must be removed from those forests to restore their health.
    The most significant land health challenge we face in the Southwest 
is captured by one startling statistic: Of the 21 million acres of 
National Forest System lands in the Southwestern Region, more than 80 
percent of that acreage is at moderate to high risk of uncharacteristic 
wildfire. I say ``uncharacteristic'' not because fire is an unnatural 
feature of our forests--it is not. Historically, about 85 percent of 
the landscape burned very frequently, but at low intensity.
    Rather, I use the word ``uncharacteristic'' because the current 
condition of our forests results in fires that are unnaturally large 
and intense. These fires can severely damage our watersheds. They can 
alter soils, reducing their ability to capture and hold moisture, 
accelerate erosion and deteriorate water quality. These fires destroy 
important wildlife habitats and remnant old growth stands, and hurt 
visual quality. As we have seen in Arizona and around the nation these 
fires can also destroy lives, property and local economies.
    Due to effective fire suppression for most of the last century, our 
ponderosa pine forests that were once open and park-like, supporting 
between 50 and 200 trees per acre, are today a dense tangle of up to 
2,000 trees per acre. Our forests are literally being choked to death.
    Our long-term drought is making matters worse. Drought-stressed 
trees are unable to fend off attacks from insects. The Southwest's 
landscape is now blanketed by hundreds of thousands of acres of red--
then brown--pinyon and ponderosa pine trees killed by insects, further 
adding to the fire danger.
    Restoring the health of our forests and rangelands, and securing 
the associated benefits for future generations will require both active 
management and naturally occurring wildfire. Simply stated, we need to 
thin our forests by reducing the total biomass, remove the excess 
number of trees and carefully reintroduce fire into our forests.
Restoring Forest and Rangeland Health
    The picture I have painted of the challenges we face in restoring 
forest and grassland health may seem daunting. Nevertheless, I'm very 
optimistic about our opportunity for success.
    One reason for my optimism is the President's Healthy Forest 
Initiative. This is one of the most important conservation initiatives 
to come along in my career. The administrative, regulatory and 
legislative actions resulting from this effort have given our land 
managers more tools. Given the geographic scale of the ``forest 
health'' issue in the Southwest, however, we cannot effectively address 
our forest health issues without additional private sector involvement.
    The Consolidated Appropriations Resolution, 2003 (PL-108-7) 
contains stewardship contracting authorities that will help facilitate 
industry investment in infrastructure needed to utilize the small-
diameter materials that are choking our forests.
    As you may know, Mr. Chairman, in early August the Southwestern 
Region awarded the nation's first large-scale stewardship contract on 
the Apache-Sitgreaves National Forests in Arizona. The award was made 
to Future Forests Limited Liability Corporation, a local company based 
in the White Mountains.
    The White Mountain stewardship contract is significant since 
between 5,000 and 25,000 acres will be treated each year over the 10-
year term of the contract. Most of the areas to be treated are in the 
wildland-urban interface where there is high risk of catastrophic 
fires. This contract allows for the costs of removal of small trees, 
residue wood and slash to be exchanged for the value of the excess 
trees that are removed. The smaller trees and wood fiber will result in 
uses such as biomass power generation and the manufacture of wood 
pellets. The larger trees will be used for lumber. Overall the goals of 
this contract are to reduce the risk of catastrophic wildfires, improve 
forest health, reduce treatment costs and increase jobs in the local 
communities.
    As additional stewardship contracts are developed, we expect they 
will encourage more private sector use for wood fiber and more jobs for 
local communities. We will still need to meet the full suite of 
applicable laws, regulations and policy. We will still need to fund 
treatments from appropriated funding, that won't pay for themselves and 
in the Southwest that will be the rule rather than the exception. And 
we will still need to carefully prioritize treatments based on their 
relative costs and benefits because we know we can't treat every acre.
    Stewardship contracting coupled with the Healthy Forests 
Restoration Act and other tools provided in the President's Healthy 
Forest Initiative will enable us to accomplish much in the future. For 
all of this work, it is critically important to work collaboratively 
with local communities and other government agencies.
    I also want to announce that through August, we have completed most 
of our fuels reduction projects for Fiscal Year 2004 and there is still 
active mechanical thinning and burning being conducted throughout the 
Region. About $27 million in hazardous fuels funds were used to treat 
nearly 160,000 acres on the region's national forests in 2004.
    About 40 percent of the treatments were in the wildland-urban 
interface, known as WUI. Other projects where secondary fuels reduction 
occurred, such as wildlife habitat burns and timber sales, have 
accounted for nearly 43,000 more acres being treated. This accounts for 
over 200,000 acres of fuels reduction work accomplished in the Region 
this year.
    About two-thirds of our hazardous fuels funding goes toward 
treating wildland-urban interface projects because reducing fuels near 
communities is generally more costly. But that makes sense, because the 
WUI is where the most risk lies. And completing WUI treatments also 
reduces the risks and costs of completing backcountry burns. There are 
two forests in the Region, the Tonto National Forest here in Arizona 
with low elevation burning and the Gila National Forest in New Mexico 
with aggressive back-country burning, that rack up large amounts of 
non-WUI restoration at low cost.
    The Region's State and Private Forestry program also distributes 
funds to the State Foresters who then direct grants to entities that do 
on-the-ground thinning on public and private lands. About $4.9 million 
were distributed in Fiscal Year 2004 for these programs. In addition, 
about $1.9 million in other funds go to the State Forester Offices for 
various programs. As an example, over $600,000 went for assistance to 
volunteer fire departments for training and purchasing equipment.
    Communities are also helping themselves. Citizens have taken action 
through the FIREWISE program, which helps people who live or vacation 
in fire-prone areas educate themselves about wildland fire protection. 
Homeowners are learning how to protect their homes with a survivable 
space and how to landscape their yard with fire resistant materials. A 
consortium of wildland fire agencies that includes the Forest Service, 
the Department of the Interior, and the National Association of State 
Foresters sponsor the program.
Our Work with the U.S. Fish and Wildlife Service
    There are 48 threatened or endangered species that occur on 
national forest system lands in the Region. An additional three species 
are currently proposed for listing in the Region. I want to highlight 
three of the major programmatic consultations we have done with the 
U.S. Fish and Wildlife Service (FWS) over the past few years to meet 
our responsibilities under the Endangered Species Act (ESA) in a 
streamlined fashion.
    In 2001, FWS completed a batched consultation with the Region 
designed to expedite projects to reduce fuels adjacent to WUI areas in 
order to protect life, property, and natural resources, including rare 
species habitat. This consultation included 283 WUI projects on 1.9 
million acres in the Region and has resulted in streamlined reviews of 
the projects as site-specific plans are completed.
    A Grazing Team composed of biologists from the FWS and the Forest 
Service meets regularly to consult on permit issuance for grazing 
allotments on the national forests. Grazing guidance criteria were 
developed jointly between FWS and Forest Service and were first 
finalized in 2002 and revised in 2004. The grazing guidance criteria 
were developed to help biologists make ``effects'' determinations and 
avoid adverse effects to listed species and designated critical 
habitat. The criteria enable us to propose and address endangered 
species issues on grazing allotments scheduled for permit issuance and 
to streamline ESA compliance.
    In April 2003, we began working with the FWS to reinitiate 
consultations first done in 1996 and 1997 as programmatic biological 
opinions for the Region's 11 Forest Plans. The FWS is now using 
information we recently provided to address Mexican spotted owls and 58 
other candidate, listed or proposed species and/or proposed or 
designated critical habitat. The action area includes the Region's 11 
national forests and adjacent lands. The end goal is to address all 
currently listed species and others that may be listed in the future to 
ensure ESA programmatic requirements are met while National Forests 
within the Region complete revisions to their Forest Plans.
    I will use the nearby Coronado National Forest as the example for 
our more localized work with the FWS. This year the nearly 30,000-acre 
Nuttall Complex Fire threatened summer homes and the Mount Graham 
International Observatory in the Pinaleno Mountains. Thankfully, there 
was no loss of human life or property except for relatively minor 
damage at the Heliograph lookout and electronic site. There were 
effects on the Mount Graham red squirrel. Throughout the fire 
suppression effort, the Forest worked with the FWS to minimize 
potential damage to squirrel habitat. However, this work did not impede 
in any way the fire suppression operations.
    The Forest has worked with the FWS over the last decade to conduct 
numerous fuel reduction projects in the Pinaleno Mountains. These fuels 
treatments also included consideration of the traditional and religious 
significance of Mount Graham to the Apache peoples who share the view 
that the ecological conditions on the mountain should more closely 
resemble those of the 1870s.
    Plans are underway for several continuing projects that would 
further reduce fuels. The Pinaleno Ecosystem Restoration Project would 
cover an additional 5,500 acres in dense stands of ponderosa pine and 
mixed conifer. Another project would do additional FIREWISE treatments 
around several sites such as the Turkey Flats and Columbine recreation 
residence tracts, the Bible Camp and the Heliograph Peak electronics 
site. Finally, ongoing maintenance treatments close to the Mount Graham 
International Observatory would continue.
    Prescribed burns around the base of Mount Graham, to reduce the 
risk of wildfires starting and moving uphill, have been completed on 
8,200 acres and another 15,300 acres are in planning now.
    In summary, the Coronado National Forest has not been hampered in 
firefighting or doing fuels reduction work by the FWS. If it's a 
wildfire, the FWS policy is clear that, per the 2001 Secretarial 
memorandum on endangered species and fire, ``no emergency response is 
to be delayed or obstructed because of Endangered Species Act 
considerations.'' We complete emergency consultation on fire operations 
only after the risk to human life or improved property has subsided. 
The Regional Director for the FWS has made good on his commitment to 
protect listed species without placing people in harm's way. When 
threatened and endangered species are involved for fuels reduction 
work, the FWS has made consultation a priority.
Conclusion
    In closing, we will continue to address the health of the forests 
and rangelands in the Southwestern Region during this period of severe 
drought. To be successful, we must continue to work with all who have a 
stake in the management of the national forests and grasslands. I 
believe restoring forest and rangeland health is especially important 
for many of our rural communities--to help protect them and to provide 
jobs. This concludes my prepared remarks. I will be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Walden. Thank you very much, Mr. Forsgren.
    Now I would like to welcome Mr. Hall for your comments. 
Thank you for being here.

 STATEMENT OF DALE HALL, REGIONAL DIRECTOR, REGION 2, FISH AND 
           WILDLIFE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hall. Thank you, Mr. Chairman, members of the 
Subcommittee. I am Dale Hall. I am the Regional Director for 
the Fish and Wildlife Service in Albuquerque, New Mexico. Our 
region covers Arizona, New Mexico, Texas, and Oklahoma.
    In Arizona, we have nine National Wildlife Refuges that 
cover 1.7 million acres, seven fisheries offices that are 
hatcheries and fisheries assistance offices, and three 
ecological services offices. And ecological services is our 
function that deals with endangered species and other habitat 
type issues.
    There are 59 species in Arizona that are listed under the 
Endangered Species Act, and we take our challenge seriously on 
managing for the species. However, wildlife, human and public 
safety, and healthy forests have to be managed together in 
unison or we won't get there. If we do not do it, recognizing 
all aspects, then we won't make it.
    For the past 15 years, there has been a lot of controversy, 
a lot of court suits, a lot of differing opinions coming from 
courts to try and direct the Fish and Wildlife Service on how 
to operate, so much so that our budgets have been focused 
mainly on meeting court decisions or providing court 
information or following court directives on listings or 
critical habitat determinations.
    Because we expect now to be sued, no matter what our 
decision is, we have taken the position that we are going to do 
what we think is correct, what we think Congress intended, and 
we would rather defend that in court than to try and guess what 
a judge is going to say. And we believe that Congress intended 
that the Endangered Species Act be operated in a recovery mode, 
working with the people on the land to make that happen.
    There are 18 sections of the Endangered Species Act. Only 
one section deals with prohibitions, that is section 9. All 
other sections direct us and advise us to work with people to 
get the job done. So we are trying to do that, even though we 
recognize that each time we do we are probably going to be sued 
for the way that we did it.
    But it is going to take partnerships in order to do that, 
and one of the things I would like to highlight in my oral 
comments--and I thank you for entering my written comments in 
full. I would like to highlight some of the things that have 
been done on the ground with people who do care.
    I would like to start with my colleague, Harv Forsgren, and 
echo his comments that we, along with Elaine Zielinski, the 
State Director of the Bureau of Land Management in this State, 
have dedicated ourselves to making sure our staffs work as one 
staff to accomplish all the jobs that are there.
    Laws are not just passed for an agency. I have 
responsibility to help Harv Forsgren manage the forests and 
help Elaine Zielinski manage the prairies and the grasslands as 
much as they have responsibility to help us all manage the 
Endangered Species Act, and he has been particularly honorable 
in keeping that commitment.
    But we also work with other people. The private sector is 
really important to us. And I would like to give just a couple 
of quick examples.
    The Malpai Borderlands Group down on the border is a 
private citizens group of ranchers that are trying to work to 
ensure the viability of their ecosystem. The Altar Valley 
Conservation Alliance is another group of ranchers and private 
citizens just west of here in Tucson that are dedicating 
themselves to try to figure out how to make sure that their 
long-term survival is there and that listed species are not an 
issue. And we have worked with them very well in trying to move 
forward and giving 4(d) rules that allow management down on the 
Malpai, for example, for the Chiricahua leopard frog that do 
not impact the ranchers. We do appreciate those kinds of 
partnerships and believe that that is the way that it has to be 
done.
    We also work with Mr. Forsgren and Ms. Zielinski on 
allotment grazing permittees on Federal lands. We had some 
question when I first got here 3 years ago. It was raised to my 
attention that there were questions about when to consult, when 
not to consult among the permittees and the permittees being 
involved in the process. Mr. Forsgren arrived at about the same 
time, and we recommitted to do those standards, and we did so 
with the grazing community involved. We let them comment on 
them. The Arizona and New Mexico Cattle Growers Association 
were involved to help us understand how to leave the landscape 
the way that it should look.
    Biological opinions in the past have been saying: Here is 
how you should management. That in my opinion was 
inappropriate. Our job is to try and advise the Federal 
agencies on what the landscape should look like after something 
is done and then recognize the expertise of the agency and the 
allottees in reaching that objective, and I believe that it has 
been very beneficial in helping us move along in that 
direction.
    In fire management, we make recommendations in a wildfire, 
and that is it. Those recommendations are not binding. The 
incident commanders know that, and we know that public safety, 
property and human life, come first. They suppress the fire and 
then, after everything is over, if there is endangered species 
issues, we consult after the fact.
    In getting to the point where we can get to thinning and 
get to the burns that this forest evolved in, we are working 
with them to make sure that healthy forests is the objective. I 
cannot stress strong enough, and I want to say this as often as 
I can, unhealthy forests and catastrophic wildfires have no 
benefit for listed species or anything else that lives in the 
forest. We all need to be looking at the density of the forest, 
at the health of the life that lives in the forest, and fire 
was the driving component over time, the ecological driver that 
helped these species evolve. We need cool fires, though, not 
crown fires; and with densities of 200 to 400 trees per acre in 
a forest that evolved with 20 to 40, we are just asking for the 
trouble to be there.
    I recognize that Mr. Forsgren gets only a certain amount of 
money and he can only do so much in a year, but we are working 
with him as much as we can to get to that objective.
    From a policy or directive standpoint, of course, we have 
the National First Plan that was put together in 2000. In 2001, 
the Secretary of the Interior put out a Secretarial Order that 
said no endangered species issue shall stand in the way of 
containing and controlling a catastrophic wildfire. In 2002, 
the Healthy Forests Initiative came along, and we like that 
because it helps us get to the healthy forests that we also 
need and want.
    A lot of the conflicts that come about there in the courts 
are distrust. I think there are factions of the public that do 
not think that they can trust the Forest Service or the Fish 
and Wildlife Service for that matter to go in and thin. They 
think it is supposed to be some boondoggle for the timber 
community. When in fact, if we do not do that, there will be no 
timber to cut.
    Then in 2004, just last January, we came out with joint 
regulations to streamline section 7 consultation on fire 
activities. That allows Harv Forsgren to make the determination 
that a species may be affected but not likely adversely 
affected without having to come back to us. If it is a fire 
activity that needs to take place, they can make the 
determination; and we have modified the regulations to where 
the BIA, the BLM, the National Park Service, the Fish and 
Wildlife Service and the Forest Service, all land managers can 
make that kind of determination.
    We have--Mr. Forsgren brought up some of the batch 
consultations that we have done, so I will skip over some of 
that. But I do want to point out one issue on the Mexican 
spotted owl. We had critical habitat designated for the Mexican 
spotted owl. We were sued. A judge said that we did not do 
enough because we excluded Forest Service plans from the 
designation of critical habitat. We said the Forest Service had 
plans in place to manage the lands, that they already had the 
protection necessary. The court did not agree with us, ordered 
us to go back and designate critical habitat.
    We have now done so. But, in doing that, we excluded 
135,000 acres of wooded areas because, A, areas up next to 
communities are not necessary to the conservation of the 
species; and, B, the economics associated with potential fire 
was just unacceptable. And we are already being challenged on 
excluding that 135,000. I suppose the challengers believe that 
structures and buildings are critical habitat for the owl, but 
we will have to figure out how to argue that in court.
    The last thing I would like to point out is that last week 
the Secretary of the Interior signed a memorandum of agreement 
with California, Nevada, Arizona, and interior agencies on the 
lower Colorado River, a multispecies conservation plan. This 
has been a 7-year effort to give coverage to water users for 50 
years. So for 20 million people and 50 years worth of certainty 
on water usage. And in that plan--we expect to issue the permit 
in January--it will give protection and conservation efforts 
for 27 listed species over a 50-year period. We are very proud 
of the way that that one has worked out with our partners in 
the States and in the water users' community.
    With that, Mr. Chairman, I will conclude my oral comments; 
and I am ready to answer questions if I can.
    Mr. Walden. Thank you very much, Mr. Hall, for your 
testimony.
    [The prepared statement of Mr. Hall follows:]

     Statement of Dale Hall, Regional Director, Southwest Region, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman, and Members of the Subcommittee, thank you for the 
opportunity to testify on behalf of the Department of the Interior 
(Department) regarding the Endangered Species Act (ESA) and forest 
management. I am Dale Hall, Regional Director for the Southwest Region 
of the U.S. Fish and Wildlife Service (Service), headquartered in 
Albuquerque, New Mexico.
    The Service is the principal federal agency responsible for 
conserving, protecting, and enhancing fish, wildlife, and plants and 
their habitats for the continuing benefit of the American people. The 
Southwest Region of the Service includes the states of Arizona, New 
Mexico, Texas, and Oklahoma. Within the State of Arizona, the Service 
manages 9 National Wildlife Refuges, encompassing over 1.7 million 
acres, 3 National Fish Hatcheries, 3 Fishery Resources Offices, a fish 
health center, and 3 Ecological Services Field offices.
    One of the Service's responsibilities is the implementation of the 
Endangered Species Act, which, in Arizona, is done primarily by the 
Phoenix Ecological Services Field Office and sub- offices in Flagstaff 
and Tucson. Currently, Arizona supports approximately 59 species listed 
as threatened and endangered under the ESA. While conserving America's 
wildlife for the public is an important Service responsibility, we are 
keenly aware of the need to assure balance between wildlife 
conservation, fire management, and healthy forests. Most importantly, 
we place public safety above all else.
    It is because of our recognition of this need for balance that we 
have successfully forged cooperative relationships with many other 
federal agencies, state and local governments, tribes, and private 
landowners for the sake of contributing to effective forest management 
and species conservation. We have implemented streamlined processes so 
that balance can be achieved without unnecessary delay.
    Our efforts to reach out to concerned partners in the Southwest 
have been met with professionalism and a commitment to success. For 
example, Harv Forsgren, Regional Forester for the Southwestern Region, 
and I have committed to work together, and our relationship has been 
invaluable in forging agreements so that our staffs may work as one to 
serve the public. In addition, private efforts like those of the Malpai 
Borderlands Group and the Altar Valley Conservation Alliance in 
Southern Arizona demonstrate what private landowners can do when they 
are given a chance and are respected as the land stewards they truly 
are. Forest grazing permittees have worked openly and honestly with the 
Forest Service and us to achieve the landscape outcome we believe is 
important for healthy ecosystems. As such, our biological opinions have 
changed from directing how grazing will occur to what the landscape 
should look like after annual grazing is complete. The grazing 
community has responded positively to this change. We have come to 
recognize that we cannot do the job alone and that the future depends 
on effective partnerships.
    The ESA is flexible when there are issues of human health and 
safety, including catastrophic wildfires. The role of the Service is to 
offer recommendations to minimize the effects of the emergency response 
action on listed species or their critical habitats, not to stand in 
the way of the response efforts. This flexibility ensures that 
protecting life and property always comes first. Through these actions, 
short-term negative impacts to listed species are minimized, and the 
long-term benefits of reducing the risk of catastrophic wildfire are 
ensured. I cannot overemphasize the importance of using prescribed fire 
and forest thinning as the main security measures to prevent 
catastrophic wildfires. Listed species and their habitats suffer 
significant adverse impacts when catastrophic crown fires occur. Simply 
stated, there is no benefit to listed species from unhealthy forests.
    A major component of successful forest management has been the 
implementation of the National Fire Plan. Since its approval in 2000, 
the Service has worked within the framework of the plan and its 
implementation to reduce the risks of catastrophic wildland fires and 
to restore fire-adapted ecosystems. The ESA has not inhibited forest 
managers from completing work necessary to implement the plan. Rather, 
the Service coordinates closely with local, state, and federal agencies 
in fire risk reduction efforts, such as thinning projects, non-native 
plant removal, and prescribed fire. This proactive coordination reduces 
the time required to carry out Fire Plan initiatives.
    Multiple Departmental policies have been implemented in order to 
assure the protection of human health and property and effective 
management of our national forests. These include a 2001 Secretarial 
memorandum on endangered species and fire, which states that no 
emergency response is to be delayed or obstructed because of ESA 
considerations. Rather, incident commanders assign resource advisors or 
technical experts (such as employees of land management agencies or 
Service biologists) to a fire. The resource advisors do not have the 
authority to prohibit any fire operations, but the Service works 
closely with the resource advisors and provides recommendations to 
minimize effects to sensitive resources, including listed and proposed 
species, and their habitat. After the risk to human life or property 
has subsided and suppression is accomplished, we complete emergency 
consultation on fire suppression activities under the emergency 
consultation provisions of the ESA. These provisions allow fire 
managers to proceed with fire suppression and conduct Service 
consultations after the emergency response is completed.
    More recently, as part of the Healthy Forest Initiative, the 
Service, in cooperation with NOAA-Fisheries, the Forest Service, Bureau 
of Land Management, Bureau of Indian Affairs, and the National Park 
Service, issued the Joint Counterpart Endangered Species Section 7 
Consultation Regulations to streamline consultation on proposed 
projects that support the National Fire Plan. These regulations provide 
an alternative process for completing Section 7 consultation for agency 
projects that authorize, fund, or carry out actions that support the 
National Fire Plan. This alternative consultation process eliminates 
the need to obtain written concurrence from the Service for those 
National Fire Plan projects that the action agency determines are ``not 
likely to adversely affect'' any listed species or designated critical 
habitat.
    Our Arizona Ecological Services Field Office has worked diligently 
on numerous projects requiring interagency consultation. Since 2001, it 
has consulted on nearly 125 projects involving wildfires or fire 
projects in Arizona. Fifty wildfires were covered by emergency 
consultation procedures, allowing fire managers to proceed with fire 
suppression and concluding the consultations afterwards. The remaining 
consultations were undertaken to address prescribed fires, forest 
thinning, and fire planning actions.
    As Members may be aware, the Nuttall Complex Fire, on Mt. Graham, 
consumed over 29,000 acres and threatened the endangered Mt. Graham red 
squirrel, the threatened Mexican spotted owl, the International 
Observatory, private summer homes, and forest administrative sites. 
Prior to the fire, the Service worked through a Section 7 consultation 
to assist the Forest Service in implementing numerous fuel reduction 
projects. We strongly recommended immediate fuel removal and provided 
additional conservation recommendations to the Forest Service with the 
understanding that human safety takes priority. During the fire, the 
Service maintained regular contact with the Coronado National Forest 
regarding fire suppression effects to threatened and endangered 
wildlife during the firefighting operation and post-fire work. In 
short, under most circumstances, the conservation needs of listed 
species are consistent with management practices that are designed to 
sustain healthy forests.
    The Service strives to facilitate and expedite consultations on 
thinning treatments and other fire-related projects. In 2001, we 
completed a batched consultation with the Forest Service on projects 
that would reduce fuel loads adjacent to wildland-urban interface areas 
in order to protect life, property, and natural resources, including 
rare species' habitats. This consultation included 283 Wildland/Urban 
Interface projects on 1.9 million acres in Arizona and New Mexico and 
has resulted in streamlined reviews of the projects as site-specific 
plans are completed.
    Another example of coordination is the recent designation of 
critical habitat for the Mexican spotted owl. On August 30, we 
published the final rule to designate critical habitat for the Mexican 
spotted owl. In the final rule, we excluded 157 Wildland Urban 
Interface (WUI) project areas, encompassing 134,397 acres on Forest 
Service lands in Arizona and New Mexico (under Section 4(b)(2) of the 
ESA) because of human health and safety concerns related to possible 
delays of fuels reduction treatments. Our economic analysis concluded 
that some projects proposed within the WUI may be delayed because of 
the Recovery Plan recommendation that fuel treatments occur during the 
non-breeding season; therefore, we excluded these areas from the final 
designation. In light of the expansive nature of the owl's historical 
habitat, it was determined that these WUI acres did not provide 
significant benefits to the recovery of the species.
    Effective and successful forest management also requires 
interagency cooperation on grazing issues. A grazing team has been 
assembled with biologists from the Service and the Forest Service at 
both the regional and field office levels. The Grazing Team meets 
regularly to consult on permit issuance for grazing allotments on 
National Forests in Arizona and New Mexico and has used the grazing 
guidance criteria developed jointly between the 2 agencies with input 
from grazing permittees to make effects determinations. The criteria 
allow the Forest Service to perform an endangered species triage of 
grazing allotments scheduled for analysis, thereby streamlining ESA 
compliance.
    Successful implementation of the ESA goes beyond our interagency 
work and requires the involvement of private landowners, states, 
tribes, and other stakeholders. Within Arizona, the Service actively 
works with partners through voluntary Habitat Conservation Plans, Safe 
Harbor Agreements, Candidate Conservation Agreements, the Partners for 
Fish and Wildlife Program, and the Landowner Incentive program. For 
example, I am very pleased to note that last week Department of the 
Interior Secretary Gale Norton announced the signing of a memorandum of 
agreement for the Lower Colorado River Multi-Species Habitat 
Conservation Plan. This unprecedented cooperative effort among the 
states of Arizona, California, Nevada, area tribal governments, and the 
Department of the Interior agencies will provide long-term incidental 
take coverage for Federal and non-Federal existing and future water and 
power projects on the Lower Colorado River. These projects provide 
water to 20 million people in the three states, support important 
agricultural areas, and produce a significant amount of hydropower. By 
working together, the partners have fostered trust and understanding 
among disparate groups and enabled a comprehensive evaluation of the 
effects of water and power projects on native species. Once completed 
in January 2005, this Habitat Conservation Plan and Section 7 
consultation will enable the future use of these resources for the 
benefit of people for a 50-year period, while providing significant 
conservation for 27 native aquatic, riparian, and terrestrial plants 
and animals, well beyond that which could have been developed under 
separate plans.
    In conclusion, the Service shares the goal of effective forest 
management. We will continue to work cooperatively with all involved 
entities to ensure the continued survival of our nation's wildlife, the 
protection of human life and property, and the continued existence of 
healthy forests. Mr. Chairman, this concludes my statement, and I would 
be happy to answer any questions that you or Members of the Committee 
might have
                                 ______
                                 
    Mr. Walden. For our Committee, we will have two rounds of 
questions for our panelists. We will each have 5 minutes.
    Mr. Hall, I want to go right back to the issue of the 
Mexican spotted owl. Mixed confer forests in the Southwest are 
now losing Mexican spotted owl habitat to drought stress, to 
insect attacks and, of course, to catastrophic wildfire. How 
are these climatic realities being evaluated in the current 
critical habitat designations and what is the practical effect 
of designating critical habitats in areas that are not likely 
to be sustainable?
    Mr. Hall. Well, we are addressing it in critical habitat 
proposals from the standpoint that a judge basically told us we 
had to do more than we had before. And critical habitat in my 
experience over the years--and I have been associated with the 
designation of more than 30 million acres of critical habitat 
in the United States and have seen very little value come from 
that designation.
    Mr. Walden. Why is that?
    Mr. Hall. Because the basic section 7 consultation on 
jeopardy, no jeopardy, covers almost everything that you would 
want to look at from a habitat standpoint. Most of our jeopardy 
opinions, when they do occur, occur due to habitat loss. When 
we work with people like the Forest Service and BLM, we are 
working with them to improve the habitats all the time; and the 
extra layer of regulation associated with critical habitat in 
my opinion does not have a payoff.
    We have been able to work through anything that was 
necessary without ever having to touch the critical habitat 
aspect of the listed species; and if we are going to get to the 
point where we have healthy forests, then the Forest Service 
has to have the ability to go out and do as the national fire 
plan says. First, do controlled burns, prescribed burns, do 
thinning in the forests, do rehab after wildfires, and do road 
and culvert reconstruction. We have to allow people to do that. 
And, quite frankly, every additional rule that is in place is 
another opening for another lawsuit.
    Mr. Walden. What happens, from your perspective, in terms 
of wildlife habitat and survival of these various species when 
after a fire recovery efforts are litigated to the point that 
the stand just stands there and rots and the snags fall over 
and become more fuel on the ground. Does that help or hurt in 
terms the survivability of the species?
    Mr. Hall. After a catastrophic wildfire, it devastates 
everything. And that is a crown fire. That is when it is not on 
the lower level anymore, just taking care of fuels and putting 
natural fertilizers back in the system, the potash and the 
different things that help the understory to grow. It gets up 
and it just destroys the whole forest. Well, there is no 
habitat then.
    Our efforts have to be very expeditious in going in for 
salvage harvest so that we can plant new trees and not waste 
that timber, because a lot of it is not going to live. It is 
just sort of wasted staying there.
    As an example, on the Rodeo-Chediski fire we cleared from 
the endangered species standpoint the salvage operation in 23 
days. Yet the courts took it on other challenges because of 
whatever reason--and Forsgren can talk about those--there just 
seems to be this idea that if all of us are working together 
and everyone is actually benefiting that there has got to be 
something wrong with this picture.
    Mr. Walden. But from the standpoint of the species 
recovery, are we better to get out the burned dead timber 
before it reburns? Because often don't these areas reburn?
    Mr. Hall. Oh, absolutely.
    Mr. Walden. And does that not do more damage to the habitat 
and further sterilize the soils?
    Mr. Hall. Absolutely. The hotter the fire, the more 
sterilization takes place in the soil and the harder it is for 
seeds to come back and regerminate and do things. So we need to 
quickly refurbish a burned area so that we can get the natural 
habitat back.
    Mr. Walden. Thank you.
    Mr. Forsgren, we passed the Healthy Forest Restoration Act. 
The President signed it into law.
    Mr. Walden. And is trying to get it fully implemented and 
used out here. I am curious to know what you see in this region 
for implementation in 2005, how many acres you think you will 
be able to treat. And further, how can this Committee evaluate 
and put in place accountability standards region by region to 
make sure that the Act is fully being utilized for its intent?
    Mr. Forsgren. As I mentioned, this past year, across 
Arizona and New Mexico, we were able to treat about 200,000 
acres of hazardous fuels. I would expect in 2005, we will be 20 
or 25 percent above that level as we continue to further focus 
the resources available to do that job. And we are not only 
using hazardous fuels dollars to do that, but we are using our 
wildlife habitat improvement dollars and our watershed 
improvement dollars. Because as Director Hall has indicated, 
the health and function of these systems is dependent upon the 
health of these forests. And all of the animals and fish and 
wildlife and plants that evolve in these systems is dependent 
on a healthy functioning system. So we are refocusing our 
energies and will increase or accomplishments.
    Now, in terms of what we might do in terms of stepping up 
accountability, I think that there has been a good focus on 
ensuring that the additional resources are being directed 
toward work on the ground. There is a clear focus from 
Congress, a clear indication of intent there. The Department, 
the agency has taken that up and I think we have continued to 
make commitments to you in terms of ramping up our 
accomplishments.
    I think the thing that we have got to watch in that is that 
we continue to make that progress, but that we focus on 
treating the right acres with the right prescription for the 
right outcome. And so there's a little bit of a catch-22 here 
that we need to continue the pressure to increase treatments. 
But not just to get acres--
    Mr. Walden. Right.
    Mr. Forsgren.--but to treat the right acres with the right 
prescription for the right results. And I think your continued 
oversight will help us accomplish what we are trying to 
accomplish.
    Mr. Walden. My time has expired. I now recognize the 
Chairman of the full Resources Committee, Mr. Pombo, for 5 
minutes.
    Mr. Pombo. Thank you. Mr. Forsgren, hearing you say that, 
it brings back the entire debate that we went through under 
Healthy Forests. We kept pushing to allow as much flexibility 
on the local level as we possibly could and there were others 
that more or less wanted to dictate within the legislation what 
you could or couldn't do. And that was a big part of the whole 
debate as we went through that.
    Because I know Mr. Walden and I both felt that sitting in 
Washington, D.C., you did not have any idea which acres needed 
to be treated, but somebody out here actually on the ground 
would have a better idea on how to do that. So hearing you say 
that really brings back a lot of what the debate was about.
    Mr. Hall, I would like to ask you about the Mount Graham 
red squirrel. What kind of habitat has your agency determined 
that the squirrel needs for recovery?
    Mr. Hall. Well, one of the things--I will give him a second 
to think about it. Steve Spangler is our State supervisor who 
knows more of the details about those things--but one of the 
things that is actually said in the recovery plan, that in 
order to get recovery, there has to be an ongoing and sustained 
fire management program. And using fire to control--using cool 
fires to control hot fires. But Steve, do you know the actual 
biological--
    Mr. Walden. Mr. Spangler, if you will come up to the table 
there and use the microphone.
    Mr. Spangler. The squirrel prefers the older spruce fir 
forests near the top of the mountain. And I think the key to 
protecting that--
    Mr. Walden. Could you--you need to bring his chair up.
    Mr. Pombo. Just bring your chair up.
    Mr. Walden. That is fine.
    Mr. Spangler. The squirrel prefers the older spruce fir 
forests at the top of the mountain. That habitat is naturally 
fire prone with a lot of dead and downed material, older trees, 
deteriorating trees. And I think the key, particularly on 
habitat as Mr. Forsgren said earlier, is to treat near the 
bottom of the mountain and work up toward that habitat to 
protect against fires running up into it.
    Mr. Pombo. So in order--in order to recover this species, 
there has to be some kind of active management going on within 
that forest?
    Mr. Spangler. Yes, there does.
    Mr. Pombo. The idea of locking it up and saying, OK, this 
is habitat and we are not going to touch it, would that be 
detrimental to the recovery?
    Mr. Spangler. I believe that no management is poor 
management. I think there are treatments that have to be done. 
They have to be done carefully and they have to be well 
planned. You have to make sure that you retain those habitat 
components essential to the squirrel but they do not just make 
a living off of dead trees and if they burn up the squirrel is 
not going to be there.
    Mr. Pombo. One of the issues that we end up dealing with a 
lot is that we will hear people like you that are out on the 
ground saying that we can't just leave it alone, because that--
that does not recover the species. We need to have active 
management. We need to be out there. You know, part of the way 
I believe this is all supposed to work is it is supposed to be 
a collaboration, a consultation between Forest Service and BLM 
and Fish and Wildlife Service with everybody working toward the 
same goal in terms of recovery of that particular species.
    And a lot of times when we get into these debates in 
Washington, it comes down to well, if you want to be out there, 
then you are just destroying the forests and we should just 
leave it all alone. And what I am hearing--what I am hearing 
you say is that that makes it harder for us to recover that 
species.
    Mr. Spangler. Yeah, I don't believe that hands-off 
management is either appropriate or possible now. The things 
have changed since pre-European settlement days. The forests I 
think have to be managed virtually every acre out there.
    Mr. Pombo. When you look at recovery, you have a number of 
endangered species. And when you look at recovery on forest-
based species, do you look at it in terms of what is best for 
all of these different species and how do we manage this forest 
as a whole to recover all of these endangered species? Or are 
you looking at it in terms of just the red squirrel or just the 
spotted owl? When you are developing your management plans and 
recommendations you make to Forest Service accident or BLM, how 
do you look at that?
    Mr. Hall. We look at it from a holistic standpoint, an 
ecosystem standpoint. As I said earlier all of the species that 
are native to that forest evolved over time and that forest the 
way they are operated, burning--I don't know 3 to 5 years--I 
guess you could get somebody smarter than me to tell you, but 
it is a whole lot more frequent than it is now. And if we 
manage to have a healthy system, we believe that all the 
species should benefit from that. And you can remember back in 
the early '90s when it was the species of the day kind of 
thing. You take care of this one but oh, by the way, you have 
have got to take care of this one.
    We have made some mistakes in the past, but hopefully we 
have learned from them. Now we are trying to really--I would 
echo that what is good for endangered species, listed species 
is exactly what Mr. Forsgren's priorities are. Healthy--a 
healthy forest system. An economic use of the material. And I 
forgot what the third one was. But when he read them off I said 
I agreed with all three of those.
    Mr. Pombo. Finally, let me ask you this. When you are 
developing recovery plans and management plans in consultation 
with Forest Service, how do you look at the public use of the 
public lands in terms of any commercial activity, recreational 
activity? One of the things that I am always concerned about is 
that you look at it only from one direction instead of how do 
we develop a recovery management plan that has as little impact 
on the public use of our public lands so that there is 
continued recreational activities, there are continued 
commercial activities to sustain surrounding communities? I 
mean, those are two things that I do not believe are mutually 
exclusive. I believe you can have a healthy economy in an area 
and protect endangered species. That you do not have to make a 
decision that is one or the other.
    Mr. Hall. I think we agree completely with you on that. And 
when we put together a recovery team and they are advisory, 
they do not get to make the decision, but we try to pull people 
together that represent different aspects of those uses. And I 
guess I would say that we look at some uses as some of the 
public would call it a use, as really being a management 
assistance tool. If we need thinning in the forest and there is 
a company out there that can make money off of it, our 
objective is to thin the forest and to have a healthier system 
while they are making some revenue from that. And that kind of 
transcends, it goes from one end of the spectrum to someone to 
might just be going out to bird watch. And when we have these 
recovery teams together, we want the debate, and more important 
than the debate I guess, the recognition of each member of that 
team that someone else has a legitimate viewpoint that needs to 
be considered. And what we strive for in getting to recovery 
plans is that all of those viewpoints have been heard and they 
have had an impact on what the recovery plan looks like so 
hopefully to accommodate the kinds of things that you are 
talking about.
    Mr. Pombo. Thank you. Thank you, Mr. Chairman.
    Mr. Walden. The Chair now recognizes the gentleman from 
Arizona, Mr. Flake for 5 minutes.
    Mr. Jeff Flake. I thank the Chairman. I appreciate the 
testimony thus far. The question, and you touched on it Mr. 
Hall with private entities coming in. In your view, is there 
any way we can treat the number of acres that we have to treat 
to get to some kind of sustainability without involvement of 
the private sector that way? Without some profit being derived 
out of the forests?
    Mr. Hall. Not only do I think that we can't, it probably 
wouldn't be appropriate to staff up the Forest Service or BLM 
or the Fish and Wildlife Service to do the things that could be 
done by the private sector.
    Mr. Jeff Flake. Getting back to what we are going to have 
to do to get to that sustainability point, can you, Mr. 
Forsgren or whomever, give some kind of idea of the total, the 
net forest growth in the region? Or is it being--is it growing 
faster than it is removing or dying or being burned in this 
sense? Are there more trees now than there were 10 years ago 
and what do we need to do to get to a point? How many acres 
would we have to treat as opposed to what we are treating right 
now?
    Mr. Forsgren. Let me answer the first part of your question 
first. We are growing far more biomass than we are removing 
through fire, through harvest, through mortality. In fact if 
you were to compress all of that biomass into a solid cube and 
put it over a football field, we are growing a cube of wood 
that would extend a mile and three-quarters into the sky across 
New Mexico and Arizona every year, in excess of what we are 
removing.
    So in treating 200,000 acres, that is a tremendous increase 
over what we have historically done but it is the tip of the 
iceberg in terms of what needs to be done. And as you look at 
that work, most of that work right now is being done by just 
paying to cut down and dispose of that material. Material that 
has potential value. And only when we get to the point where we 
capture what economic value is in that material are we going to 
be able to step that up by a factor of perhaps 5 from where we 
are at today that we need to be to keep up with the ecological 
challenge we face in the southwest with the health of our 
forest.
    Mr. Jeff Flake. Let me get back to that. You are saying 
involving the private sector and actually having someone derive 
a profit we can increase by a factor of 5 the number of acres 
treated.
    Mr. Forsgren. We would need to increase by a factor of 5. 
Right now we do not have the infrastructure here. We do not 
have the economic uses of that fully developed. But, for 
example, with the technology that we have now and the uses that 
are available now. And I will use the White Mountain 
Stewardship Contract as an example, we are able to reduce the 
treatment costs by about one-half. So for the same Federal 
dollar, we are doubling the amount of acreage that we are able 
to treat. We need to get beyond that doubling. But as we 
provide sustainable supplies and material, industry will come 
in here to make use of that largely small diameter material and 
we should move that closer to that three or four times better 
buy for the dollar.
    Mr. Jeff Flake. So even given that most of the mills are 
closed, that the industry is gone, in some of these areas we 
could still increase or we could double the number of acres 
treated?
    Mr. Forsgren. We can today with the existing businesses, 
the white Mountain Stewardship Contract as you know was 
successfully bid on by a consortium of local businesses that 
make use of that material for the products they produce, 
whether it is energy or wood pellets or dimensional lumber. And 
then by capturing that material we have cut in half the cost to 
the taxpayer of that important restoration work.
    Mr. Jeff Flake. Mr. Hall, in the minute I have left, with 
the willow flycatcher we are creating new habitat to allow, as 
everybody knows, the willow flycatcher is nesting in areas that 
have been drawn down at Roosevelt Lake and other areas, so we 
create alternative habitat for when the lake level might rise. 
What kind of science are we using? Is it just a best guess that 
they might leave those nests and go somewhere else? And what 
evidence do we have that it will actually help the species or 
just impose costs?
    Mr. Hall. Well, I think with the southwest willow 
flycatcher first of all, inside the lakes whether it is 
Roosevelt Lake or Horseshoe Lake, it does not matter which one 
you are talking about, we accept as normal that the lake will 
draw down, fill up, draw down and fill up. When we worked with 
the salt river project at their request on a section 10 permit, 
we simply said, look, let's take advantage of when the 
reservoir--if it is down, it is creating some birds for us, it 
is not harming water operations at all and it helps to offset, 
then let's let it create some birds.
    And then what we want to do for the southwest willow 
flycatcher throughout the southwest is to move it out of the 
reservoirs up on to the riverine systems, the riparian zones 
that it actually did evolve in. But salt cedars choked up those 
zones so fast and so densely that we have got significant 
efforts to go and remove salt cedar, replace it with cotton 
wood willow or some other native species, mesquite or something 
else. But in the meantime, we need that kind of help to keep 
the species from getting in worse conditions. Because all of 
those efforts are sort of for naught if we can't help move it 
forward. And the salt river project, I think was a very good 
partner in working with us on that. And we continue to work 
with them on others.
    Mr. Jeff Flake. Thank you.
    Mr. Walden. The Chair now recognizes the gentleman from 
Arizona, Mr. Renzi, for 5 minutes.
    Mr. Renzi. Thank you, Mr. Chairman. Harv and Dale, thank 
you both for your testimony. Y'all know that we just survived a 
pretty strong fire up in here. That Nuttall Complex fire. A lot 
of these local folks did a great job pulling together in the 
community and firefighters did a great job pushing back and 
really showed the unity of this community to overcome that 
catastrophic event. It was a fire that started on the western 
slope and grew up and--I'm sorry, on the eastern slope and hit 
the wind coming from the west which sparks that fire up near 
the Scopes and it was able to get our girls and boys, our 
firefighters up in there to attack that fire.
    This same thing occurred in Tucson with the Bullet fire. It 
occurred that it blew up into the wind and the wind worked to 
our advantage and we were able to take advantage of it and over 
a 2-year period we did not do enough to thin the forest up 
there. And then we had the Mount Lemon Fire. For the lessons 
learned there are a lot of leaders in this community who want 
to see us get in there, thin the forest on Mount Graham.
    Harv, I was really taken by your testimony when you said 
you wanted to see private industry involved, helping to bring 
back the timber industry. And it is a real part of the Healthy 
Forest Initiative and the President's plan. But we have got to 
see and we need to see Mount Graham have a stewardship contract 
just like we have on the A Bar S and Apache Sitgreaves. We have 
got the San Carlos Apaches who have their own small timber mill 
in partnerships with the San Carlos and that mountain we could 
have a thriving little timber industry back, a reasonable 
timber industry back here again.
    And I would make note that Mark Herrington is going to give 
testimony today, he is going to talk about the Sky Island 
proposal. It is an operation we need to really consider. And I 
would ask to you please consider Mount Graham for a stewardship 
contract in coordination with the San Carlos Apache.
    I read last night, I got in late and read last night. Harv, 
in your testimony, due to effective fire suppression for the 
last century, our ponderosa pine forests that were once open 
and parklike--supporting between 50 and 200 trees per acre--
today are a dense tangle of 2,000 trees per acre. You do a 
great job of focusing not on the diameter of the tree that 
should be thinned but what the mosaic pattern of the acreage 
should look like. And it is a real distinction right now in the 
political debate across America, politicians weighing in and 
trying to impose diameter caps.
    Now we just read an article in the Sacramento Bee, a nice 
little liberal newspaper out of California that talked about 
the fact that on the Kaibab, they claim that we are harvesting 
old growth timber and they say that old growth timber is 12 
inches.
    So I want to ask you, where are we as far as diameter caps? 
Where are we on the mosaic pattern and in particular, what do 
you see for the future of Mount Graham?
    Mr. Forsgren. Well, from our management perspective, 
diameter caps do not make much sense ecologically. If you look 
across the southwest today we have more trees in every diameter 
class up to 26 or 27 inches and the deficit in those largest 
oldest trees is pretty small compared to what was historically 
on the landscape. So it is not a matter of we are down to the 
last big trees here.
    We really are trying to focus on the end result and that is 
the functionality of these systems, because with that 
functionality comes all the benefits of that society wants of 
clean water, clean air, healthy fish and wildlife resources as 
well as a sustainable grazing industry, timber industry, et 
cetera.
    We have great leadership here on the Coronado National 
Forest and we have a new supervisor that has been here about a 
year, and Jeanine Derby is working and committed to working 
closely with the county to address the situation there on Mount 
Graham. And recently I sat down with Mr. Herrington and looked 
at what those plans are and are trying to bring their ideas and 
our ideas closer together so that we could effectively address 
that situation on Mount Graham, and I am confident that we are 
going to be successful.
    Mr. Renzi. Harv, I am with you. I just put out for 
everyone's notice here that if we get a fire on the western 
slope with the wind at its back, we will lose the Scopes, we 
will lose the 19 sacred sites, the recreational sites. So we 
have to learn--the Nuttall Complex fire has got to be a fire 
that we learn from when we get up there and get involved in 
preventive measures.
    Let me switch gears for you. I want to talk about the wolf 
a little bit. There is talk up in Washington about Yellowstone 
Park having enough wolves now to where there is a possibility 
they would be delisted. And if delisted, then the cattlemen and 
the cattle growers in the area around Yellowstone and the 
permittee holders would be able to defend their stock 
immediately on sighting a wolf.
    Where are we as far as the wolf introduction program here 
in southeastern Arizona? The ability for the White River 
Apaches that want to take over that program, the idea that 
maybe if the wolf came out off the reservation, then our 
cattlemen would be able to defend their herds?
    Mr. Hall. Well, about a year and a half or so ago, maybe 2 
years ago, Duane Shroufe, the director of Arizona Game and 
Fish, and the then director of Arizona Game and Fish, Larry 
Bell, and representatives from the white mountain Apache tribe, 
we got together and discussed how to handle the wolf as a 
whole. The way I like to describe it to people that do not 
support the wolf program or do not even like it is, you know, 
it is more to our advantage now to get recovery so that the 
states and the tribes can manage than it is to try and argue 
over how to take them out. They are reaching--as happened in 
Yellowstone, as happened in the Midwest, and is moving up into 
the Northwest, those populations reached a plateau where you 
get significant reproduction, you got to recovery a lot 
quicker.
    When we sat down and discussed that we broke the program 
into two pieces. One is this field operation for the 
experimental wolf program. And I agree there that the leads for 
those programs should be the States and the tribe. And we are 
constantly working with San Carlos and the other tribes as 
well. But they actually lead the field operations. Duane 
Shroufe's people are the lead in Arizona, except on tribal 
lands. The tribes are the lead in their area and Bruce Thompson 
is the lead for the field operation in New Mexico. And we talk 
regularly, but we leave field type decisions to them because 
the 10(j) population is experimental and nonessential. And if 
it makes it great, and if it does not, then the regulations 
aren't there to give it the full protection.
    The recovery program, on the other hand, is what the Fish 
and Wildlife Service should be focusing on, the recovery plan 
to redo that has not been done since 1982. And I have convened 
a new recovery team that brings in the impacted audiences that 
you are talking about. We have ranchers on and other people 
there. We are working through that to try and figure out the 
best way to get to that. But today on private land, a rancher 
that sees a wolf in the act of attacking cattle can still shoot 
it today on private land.
    Mr. Renzi. We can't raise cattle on private land in 
Arizona. Thank you, Mr. Chairman.
    Mr. Walden. Thank you. Since we all sort of went over on 
the 5-minute rule we are going to limit this round to one 
question and go from there.
    Mr. Hall, my question is to you on the Healthy Forest 
Restoration Act. Part of what we attempted to do was still 
involve the opportunity for people to challenge government 
decisions both through appeal and litigation, but streamline 
that process so that the appeals and litigation do not 
determine the outcome of the decision just by waiting you out.
    What are you seeing in terms of your work when it comes to 
appeals and litigation and the effect that is having on your 
agency's ability to actually manage the habitat for the species 
on the ground? What is happening? How much of your time and 
energy is devoted to this litigation appeal versus implementing 
the training and ability your folks have?
    Mr. Hall. I do not have an actual percentage breakdown the 
because it would be difficult to do. So much of our time is 
staff time. Steve's staff people will work some on working with 
the people in the field and some on putting together court 
records. So it is hard to say how much is there, but it is 
strangling our ability to work to get the real solutions. I 
told our director at one point if I could take all the 
endangered species money we have and put it in the private 
lands program out there working with ranchers and farmers and 
the land owners to actually making a difference on the land, we 
wouldn't have an endangered species issue. But we are bogged 
down meeting court decisions and constant court challenges. And 
it gets very frustrating to our people on the ground who really 
want to make a difference.
    Mr. Walden. Thank you. The Chair now recognizes the 
gentleman from California, Chairman of the full Committee, Mr. 
Pombo.
    Mr. Pombo. And I will limit it to just one question. Mr. 
Hall, you talked about designation of critical habitat. Do you 
know how much land in the State of Arizona has been designated 
as critical habitat in terms of acres?
    Mr. Hall. Actually, I do not. I can get that for you.
    Mr. Pombo. And if you could answer for the record as well 
the amount of land that is currently in public ownership in the 
State of Arizona, how much land is designated as critical 
habitat, and if you could give me an idea of how much overlap 
there is between those two.
    Mr. Hall. So the critical habitat and how it is broken down 
between public and private?
    Mr. Pombo. Correct. Thank you.
    Mr. Walden. Just a question, Harv, do you know, by chance?
    Mr. Forsgren. I do not know offhand either.
    Mr. Walden. OK. The Chair recognizes the gentleman from 
Arizona, Mr. Flake.
    Mr. Jeff Flake. In the interest of time, I will defer to my 
colleague, Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Flake. Harv, in your written 
testimony that you submitted, I read again you laid out the 
stewardship contract as being significant. And I thank you all 
both for it being the first ever large scale stewardship 
contract awarded in the Nation. You talked in detail about the 
fact that between 5,000 and 25,000 acres will be treated per 
year. Now that kind of surprised me. Over a 10-year period, 
that flexibility, is that built into the local timber 
contractors? Do they realize that there could be a downside to 
5,000 acres and an upside to 25,000? And why is there such 
flexibility?
    Mr. Forsgren. Well, really that benefits both parties. The 
5,000 is a minimum that we have to guarantee to pay for 
treatment every year for that 10-year period. So that provides 
a baseline for our contractors to know that they are guaranteed 
that. And if we get tied up in litigation and can't offer that 
or something else, they still get paid for that.
    So we have got to manage our risk on the lower end. Can't 
have too high of a guarantee. On the upper end, though, as we 
get more efficient in that operation, we want to be able to 
expand up to 25,000 acres per year. The other way that this 
benefits the private contractors is it enables them to work 
with us in the development of task orders so they can ramp up 
their capability to process this material. If we were to dump 
25,000 acres on them with utilization requirements right now it 
would choke them. So our commitment is to work closely with the 
successful bidder to ensure that we ramp up their capability so 
that we with move closer and closer to the 25,000 acres a year 
than the 5,000 acres a year.
    Mr. Renzi. Thank you, Mr. Chairman.
    Mr. Walden. I want to thank our panel of witnesses for 
testifying today. We appreciate your comments and your insights 
and your counsel. And I am sure if we have questions you will 
be able to get back to us. The record will be kept open. So 
thank you very much for appearing today.
    Mr. Walden. I would like to ask our next panel of witnesses 
to come forward.
    Mr. Walden. On panel two, we have The Honorable Jake Flake, 
Speaker of the Arizona House of Representatives; Mr. Mark 
Herrington, Graham County Board of Supervisors; Dr. Peter 
Warshall, Peter Warshall and Associates; Ms. Jan Holder, 
Executive Director of the Gila Watershed Partnership; and Mr. 
Buddy Powell, Director, Mount Graham International Observatory.
    And let me remind our witnesses that under our Committee 
Rules, you must limit your oral statements to 5 minutes, but 
your entire statement will appear in the record.
    Mr. Flake, maybe you could move one of these microphones 
down in front of you.

        STATEMENT OF THE HONORABLE JAKE FLAKE, SPEAKER, 
                ARIZONA HOUSE OF REPRESENTATIVES

    Mr. Flake. I am representative of District Five, this 
district, and this includes five of the 15 counties of Arizona, 
Navajo, Apache, Graham, Greenlee and Gila. My district includes 
part of the largest Ponderosa forest in the world. And I am 
currently serving as speaker of the House.
    I am 69 years old and have lived, worked and played in the 
forest for my entire life. My father was a rancher. My 
grandfather was a rancher. My great grandfather was a rancher. 
And I am ranching on some of that same land that they ranched 
on. I have owned several grazing permits on the national 
forest. I have had the opportunity and the privilege of working 
and riding with many of the grand old cowboys who came to this 
area around the turn of the century. They have described to me 
the forests that were here at that time, beautiful trees, 
evenly spaced in such a way that could sustain them. The land 
could sustain them; very little underbrush, no carpets of pine 
needles, good grasses to sustain wildlife and livestock and a 
sustainable watershed that produced clean runoff, springs, 
streams of clear water going down to the rivers and lakes. One 
particular old cowboy named Vern Gillett that I rode with, 
whose ranch I eventually bought, described the old forest like 
this: In the early 19th century, during the lightning season, 
you could get up on a hill in the forest and sometimes see a 
dozen fires burning around the country. Nobody paid any 
attention to them since there was not enough fuel to let them 
burn very hot. The fires would burn along the ground cleaning 
up the old grasses and pine needles and the underbrush, 
sometimes pruning the lower branches from off the trees, but 
not hot enough to top out or kill the bigger trees.
    I started riding the country about 1940. By that time, men, 
in their supposed wisdom, were stopping all fires, and forests 
were already beginning to clog up into a jungle. There have 
been efforts to manage and harvest this great renewable natural 
resource. From the time settlers came into the country, saw 
mills were set up, and trees were harvested, mostly in an 
orderly managed manner.
    By the late 1950s and early 1960s, Southwest Forest 
Industries established a paper mill in Snowflake in an effort 
to harvest the millions of small trees that were growing as a 
result of suppressing all fires. The logging of these small 
diameter trees was pivotal to the effective management of the 
forest. However, even while the paper mill was using the wood 
pulp at its full capacity, the supply of small trees was vastly 
outgrowing demand.
    Then entered the environmentalists. About that time, the 
Endangered Species Act was passed in Congress, I might say a 
good bill that was much needed, but an act that has been 
terribly manipulated and misused. The ESA became the leverage 
the environmentalists used to go to the courts to stop the 
timber and pulp wood sales which also halted the forest-
thinning projects that are essential to fire prevention.
    Between 1998 and 2002, there were 271 forest health and 
fuel reduction projects in the Apache forests. Because of 
threats of appeals and litigation, it has taken up to 4 years 
just to approve these thinning projects. In this region, there 
have been over 125 lawsuits filed by environmentalist groups. 
Why? Because all it takes is a $0.37 stamp to do so.
    Our paper mill in Snowflake was running three machines. 
Even though the supply of wood pulp was there, environmental 
lawsuits prevented the contracts from being implemented. The 
mill got to the point where they could not be assured of a 
reliable supply of wood to keep all three machines running, so 
they converted one machine to recycled paper. Then another 
machine was converted. And finally, just a few years ago, the 
third and last machine was converted to recycled paper. That 
marked the end of the markup for small diameter trees. Almost 
all of our saw mills had also gone out of business because the 
extreme environmentalists had stopped all contracts for timber 
sales. Then came the catastrophic fires and with them, a 
realization that we had to clean the forests. When contracts 
were prepared and let out, we found that, not only was there no 
one that would pay for the products, but the Forest Service 
would have to pay to have those products removed. We now have a 
thick jungle in our forests. They have been terribly 
mismanaged.
    Also, our much needed watershed produces very little water. 
The same fire that Mother Nature once used as a tool to keep 
our forests clean is now the enemy because of the overabundance 
of fuel. Yet, the extreme environmentalists will not back down. 
Even after the catastrophic fire, we could not go in and 
harvest the dead burned trees that were valuable because these 
radical groups stopped the sale with lawsuits. The Apache 
Indians, who are not subject to the same regulations, took off 
thousands maybe even millions of beautiful timber that was dead 
or dying because of the fire.
    Mostly, we have seen the error of our ways and now know 
that we need to clean the forests or they will burn many of our 
cities and towns with them. Much progress has been made this 
past year. Number one, the President's healthy forest act. 
Number two, a forest health bill that we put through our own 
legislature that gives tax incentives to businesses that will 
come in and use forest products. Number three, the 10-year 
stewardship contracts that have been let out up in the 
Sitgreaves forest.
    Our biggest problem is that the industries that can use the 
forest products and manage the land effectively will not open 
new facilities since they are not guaranteed enough material 
and time to pay back their investment. This is because the 
radical environmental groups stopped the contracts through 
lawsuits using the Endangered Species Act as their basis.
    Without some private sector incentive to thin and manage 
our forests, there is not enough money in the U.S. Treasury to 
clean our rests. There are individuals and companies that want 
to and will come in and set up much needed industry in and near 
our forests if they can just be guaranteed the material and the 
time to pay back their investment. Some are already there, and 
others are interested in coming in, businesses like saw mills, 
biomass generation plants, wood-heating pellet companies, OSB 
plants and woodworking plants.
    There are uses for all the products that can and must be 
harvested from our forests. The initiative and the ingenuity is 
there. We must reform the Forest Service rules and regulations 
and Endangered Species Act to the point where they will 
function the way they were meant to function and not be 
manipulated and misused by extreme groups through the courts to 
their benefit.
    I would like to close with a thought: Our forests will be 
harvested. Either we will harvest them through practical common 
sense, by bringing jobs and good economy to rural Arizona, or 
Mother Nature will harvest the forest with a catastrophic fire.
    [The prepared statement of Mr. Flake follows:]

            Statement of The Honorable Jake Flake, Speaker, 
                    Arizona House of Representatives

    My name is Franklin L. Flake, commonly known as Jake Flake. I am an 
Arizona State Representative of District #5, which includes five of the 
15 counties in Arizona--namely Navajo, Apache, Greenlee, Graham and 
Gila. My district includes the largest Ponderosa Pine forest of the 
world. I am also currently serving as Speaker of the Arizona House of 
Representatives.
    I am 69 years old and have lived and worked and played in the 
forest for my entire life. My father was a rancher, and I have been a 
rancher for my entire life. I have owned several grazing permits in the 
national forest. I have had the opportunity and privilege of working 
and riding with many grand old cowboys who came into this area around 
the turn of the century. They have described to me the forests that 
were here at that time, with beautiful trees evenly spaced in such a 
way that the land could sustain them, very little underbrush, no 
carpets of pine needles, and good grasses to sustain wildlife and 
livestock. Also, a sustainable watershed that produced clean runoff, 
with springs and streams of clear water going down to the rivers and 
lakes.
    Vern Gillett, a grand old cowboy that I rode with and whose ranch I 
eventually bought, described the old forests like this: In the early 
19th century, during the lightening season you could get up on a hill 
in the forest and sometimes see a dozen fires burning around the 
country. Nobody paid any attention to them since there wasn't enough 
fuel to let them burn very hot. The fires would burn along the ground, 
cleaning up the old grass and pine needles and under brush, sometimes 
pruning the lower branches off from the trees but not hot enough to top 
out or to kill the trees.
    I started riding the country around 1940. By that time, men in 
their supposed wisdom were stopping all fires and the forests were 
already beginning to clog up into a jungle.
    There have been efforts to manage and harvest this great renewable 
natural resource. From the time settlers came into the country, saw 
mills were set up and trees were harvested, mostly in an orderly, 
managed manner. By the late 1950's and early 1960's Southwest Forest 
Industry established a paper mill in Snowflake in an effort to harvest 
the millions of small trees that were growing as a result of 
suppressing all fires. The logging of those small diameter trees was 
pivotal to the effective management of the forest. However, even while 
the paper mill was using the wood pulp at its full capacity, the supply 
of small trees was vastly outgrowing demand.
    Then entered the environmentalists.
    About that time, the Endangered Species Act was passed in Congress, 
a good bill that was much needed, but an act that has been terribly 
manipulated and misused. The ESA became the leverage that the 
environmentalists used to go to the courts to stop the timber and pulp 
wood sales, which also halted the forest thinning projects that are 
essential to fire prevention.
    Our paper mill in Snowflake was running three machines. Even though 
the supply of pulp wood was there, environmental lawsuits prevented the 
contracts from being implemented. The mill got to the point that they 
couldn't be assured of a reliable supply of wood to keep all three 
machines running so they converted one machine to recycled paper. Then 
another machine was converted and finally, just a few years ago, the 
third and last machine was converted to recycled paper. That marked the 
end of the market for small diameter trees. Almost all of our sawmills 
had also gone out of business because the extreme environmentalists had 
stopped all contracts of timber sales.
    Then came the catastrophic fires and with them a realization that 
we had to clean the forests. When contracts were prepared and let out, 
we found that not only was there no one who would pay for the products, 
but the forest service would have to pay to have the products removed.
    We now have a thick jungle out in our forests. They have been 
terribly mismanaged. The same fire that Mother Nature once used as a 
tool to keep our forests clean is now the enemy because of the over-
abundance of fuel. Yet the extreme environmentalists will not back 
down. Even after the catastrophic Rodeo-Chediski Fire, we could not go 
in and harvest the dead, burned trees that were salvageable because 
these radical groups stopped the sales with lawsuits. The Apache 
Indians, who are not subject to the same regulations, took off 
thousands of board feet of beautiful timber that was dead or dying 
because of the fire.
    Mostly, we have seen the error of our ways and now know that we 
need to clean the forests or they will all burn and many of our towns 
and cities with them. Much progress has been made in the past year: 1) 
The president's healthy forest act; 2) The forest health bill that we 
put through our legislature this year that gives tax incentives to 
Arizona businesses that will come in and use forest products; 3) The 
ten-year stewardship contracts that have been let out up in the Apache-
Sitgreaves Forest.
    Our biggest problem is that the industries that can use the forest 
products and manage the land effectively will not open new facilities 
since they are not guaranteed enough material and time to pay back 
their investment. This is because the radical environmental groups stop 
the contracts through lawsuits using the endangered species act as 
their basis.
    Without some private sector incentive to thin and manage our lands, 
there is not enough money in the U.S. Treasury to clean our forests. 
There are individuals and companies that want to and will come in and 
set up much needed industry in and near our forests if they can just be 
guaranteed the material and time to pay back their investment. Some are 
already there and others have interest in coming in--businesses like 
small saw mills, biomass generation plants, wood heating pellet 
companies, OSB plants, and wood working plants.
    There are uses for all the products that can and must be harvested 
from our forests. The initiative and ingenuity is there. We simply must 
reform the forest service rules and regulations and the Endangered 
Species Act to the point where they will function the way they were 
meant to function and not be manipulated and misused by extreme groups 
through the courts to their benefit.
    Our forests will be harvested. Either we will harvest them through 
practical common sense, by bringing jobs and a good economy to rural 
Arizona, or Mother Nature will harvest the forest with catastrophic 
fire.
                                 ______
                                 
    Mr. Walden. Thank you Speaker Flake.
    Now, Mr. Herrington, I believe you are next for 5 minutes. 
And again, your written statements will appear in the record.

                 STATEMENT OF MARK HERRINGTON, 
               GRAHAM COUNTY BOARD OF SUPERVISORS

    Mr. Herrington. Thank you, Mr. Chairman and members of the 
Subcommittee. On behalf of the citizens of Graham County, 
welcome and thank you for this opportunity to testify today.
    For the record, my name is Mark Herrington, and I appear 
before you as a member of the Graham County Board of 
Supervisors, the Vice-Chairman of the Eastern Arizona Counties 
Organization and the immediate past president of the Coalition 
of Arizona and New Mexico Counties. Most importantly, though, I 
am here today as a local citizen and a farmer to tell you about 
the difficulties our communities face with the Endangered 
Species Act and the conditions of our forests. This testimony 
is also submitted on behalf of the. National Association of 
Counties and its Western Interstate Region.
    For your information, Arizona counties support the efforts 
of the National Endangered Species Act Reform Coalition. In 
eastern Arizona and western New Mexico, there are 65 animals 
and 31 plants on the endangered species list. Therefore, the 
Gila Valley has a vested interest and high priority for the 
serious reform of the ESA. We believe that the honorable 
intentions of the current administration are not being 
implemented on the ground.
    This summer, the Nuttall Complex fire burned the north face 
of Mount Graham causing serious damage to streams, roads, 
endangered species, forest landscapes, recreational trails, the 
international telescope site and a vital communication site. 
Many of the areas that burned have been in serious condition 
for years, yet restrictions placed upon them by the Endangered 
Species Act and its rules have either prevented or seriously 
delayed the much needed work from being done on Mount Graham. 
Clearly, the process and the procedure prescribed for 
treatment, cleanup and healthy management of the forests is not 
working.
    According to Daryl Weech, Columbine cabin owners on Mount 
Graham are seriously hampered in their efforts to cut dead 
hazard trees close to cabins because of the rules written under 
the Endangered Species Act for the red squirrel.
    Buddy Powell in his testimony, will refer to the Steward 
Observatory's continuing frustration with constant delays 
associated with requests to reduce fire risks around the 
telescopes, which are located within the red squirrel refugium 
established under ESA rules. The irony of this refugium, which 
has closed roads and allows no hiking, camping or other 
recreational activity, is that most of the trees in it have 
been killed by insect infestation and almost all the squirrels 
live outside the protected area.
    While common sense suggests that the refugium be abolished 
and the area opened up for treatment, the dogma of ESA 
regulation continues to lock up this once pristine area and 
restrict its traditional uses. In addition, the fuel load 
approaches 100 tons per acre, which dramatically increases the 
potential of catastrophic fire and the destruction of the red 
squirrel, its habitat and the telescope site.
    As a result of these delays, Graham County, with the 
support of other eastern Arizona counties, submitted a proposal 
to treat up to 19 sites of environmental, historical and 
economic importance. This modest $1.3 million proposal would 
provide a much needed boost to accelerate the work of the 
Coronado National Forest beyond the current 200- or 300-acres-
per-year effort.
    In addition to the critical conditions on Mount Graham, 
issues tied to the ESA have magnified the need for accelerated 
forest restoration and community protection work in other 
Arizona and New Mexico counties. For example, the eastern 
Arizona counties, through their nonprofit environmental 
economic communities organization, have identified $165 million 
in improvement projects on roadways, private lands, NEPA ready 
forest lands and Arizona trust lands. Of this amount, at least 
$80 million is needed to address the most critical public 
safety and economic recovery needs.
    Although there are hundreds of examples that could be given 
here today, I wish to share two specific examples of the 
abusive effects caused by the ESA on local agriculture and the 
everyday lives of its citizens. Ross Bryce, a local area 
rancher, the father of President Bryce of this college, shared 
with me this experience with the ESA. As the owner of the Spear 
Ranch located on the west end of Mount Graham, he and his 
family had run cattle on the mountain for many years.
    He was informed by the Forest Service in 2001 that his 
allotment would be reduced by 50 percent from 200 to 100 head 
of cattle because of the presence of the agave plant that makes 
his ranch allotment potential habitat for the longnose bat. 
This was done even though the Forest Service stated to him 
that, as far as they knew, there were no bats present. Since 
this reduction in 2001, Mr. Bryce has received no compensation 
despite no evidence of the presence of the longnose bats.
    A classic example of the Endangered Species Act and its 
negative effects on Graham County citizens is the Solomon 
Bridge project. After the flood in 1993, the road approaches to 
Solomon Bridge were washed out, necessitating the building of a 
new 800-foot bridge that property owners on the north side of 
the Gila River, school buses and farmers regularly used. With 
funds raised, Graham County started the permitting process to 
construct the bridge, which was the beginning of a 2.5 year ESA 
nightmare involving the southwestern willow flycatcher 
regulations.
    From March 1993 to October of 1995, Graham County waited 
while U.S. Fish and Wildlife personnel conducted mating call 
surveys for the southwestern willow flycatcher. During those 
surveys, they stated they thought they heard the flycatcher 
mating call and held up the construction of the bridge while 
school buses from Solomon had to reroute 26 miles each way to 
deliver children to and from class. This resulted in the 
Solomon School District, the poorest in the area, shortening 
its school days and changing activity schedules to accommodate 
a bird that might have been at the bridge construction site.
    Farmers were impacted as they were forced to drive heavy 
farm machinery on the same 26-mile detour to reach fields on 
the north side of the river. This disrupted traffic on State 
highways raised farmer fuel cost. The traffic safety hazard on 
the Eighth Avenue Bridge, which was used as part of the detour, 
was extremely high. The Congressman has stood with us on the 
Eighth Avenue Bridge, and he knows exactly what we are talking 
about.
    Finally, in October of 1995, because of mounting public 
safety and budgetary concerns, the Graham County Board of 
Supervisors felt compelled to start construction on the Solomon 
Bridge while the permits were still in process. The bridge was 
completed in September of 1996. A dedicatory plaque on the 
bridge's southwest side says, and I quote and it says it all, 
``This bridge is dedicated to the people of Graham County as an 
example of how persistence and common sense prevails over 
bureaucratic red tape.'' no action was taken against the 
county.
    Representing our local communities and our counties, we 
declare the right to our livelihoods, our traditions and the 
preservation of our culture. We call on Congress and the 
President to change the Endangered Species Act in a way that 
recognizes these rights. The ESA must be based on sound peer-
review science as well as the full recognition of the economic 
impacts of the law and its implementation. Species recovery 
plans must be balanced with the community's economic and social 
needs. In other words, we want a sensible Endangered Species 
Act, not a runaway train. We earnestly seek some reasonable 
balance between the protection of species, our lives and our 
economies. Thank you.
    [The prepared statement of Mr. Herrington follows:]

     Statement of Mark Herrington, Member, Graham County Board of 
     Supervisors, representing the National Association of Counties

    Mr. Chairman and Members of the Subcommittee,
    On behalf of the citizens of Graham County, welcome, and thank you 
for this opportunity to testify today. For the record, my name is Mark 
Herrington, and I appear before you as a member of the Graham County 
Board of Supervisors, Vice Chairman of the Eastern Arizona Counties 
Organization, and immediate past President of the Coalition of Arizona 
/ New Mexico Counties for Stable Economic Growth. Most importantly, 
though, I am here as a local citizen and farmer (for 27 years) to tell 
you about the difficulties our communities face with the Endangered 
Species Act and the condition of our forests.
    This testimony is also submitted on behalf of the National 
Association of Counties (NACo) and its Western Interstate Region. For 
your information, Arizona counties (through NACo) support the efforts 
of the National Endangered Species Act Reform Coalition (NESARC).
    In Eastern Arizona and Western New Mexico there are 65 animals and 
31 plants on the Endangered Species list. Therefore, the Gila Valley 
has a vested interest and high priority for the serious reform of the 
ESA.
    We believe that the honorable intentions of the current (Bush) 
Administration are not being implemented on the ground. This summer, 
the Nuttall Complex Fires burned the North face of Mount Graham, 
causing serious damage to streams, roads, endangered species, forest 
landscapes, recreation trails, the international telescope site, and a 
vital communications site. Many of the areas that burned have been in 
serious condition for years, yet restrictions placed upon them by the 
Endangered Species Act and its rules have either prevented or seriously 
delayed much needed work from being done on the Mountain. Clearly, the 
process and procedures prescribed for the treatment, cleanup and 
healthy management of the Forest are not working.
    According to Daryl Weech (the Columbine Cabin Owners President), 
Columbine Cabin owners on Mount Graham are seriously hampered in their 
efforts to cut dead hazard trees close to cabins because of rules 
written under the Endangered Species Act for the Red Squirrel.
    Buddy Powell, in his testimony, refers to the Steward Observatory's 
continuing frustration with constant delays associated with requests to 
reduce the fire risk around the telescopes, which are located within 
the Red Squirrel refugium established under ESA rules. The irony of 
this refugium, which has closed roads and allows no hiking, camping or 
other recreational activities, is that most of the trees in it have 
been killed by insect infestation, and almost all of the squirrels live 
outside of the ``protected area''. While common sense suggests that the 
refugium be abolished and the area opened up for treatment, the dogma 
of ESA regulations continues to lock up this once pristine area, and 
restrict its traditional uses. In addition, the fuel load approaches 
100 tons per acre, which dramatically increases the potential for 
catastrophic fire, and the destruction of the Red Squirrel, their 
habitat, and the telescope site.
    As a result of these delays, Graham County, with the support of its 
fellow Counties in Eastern Arizona (Apache, Gila, Greenlee, and 
Navajo), submitted a proposal to treat as many as nineteen (19) sites 
of significant environmental, historical, and economic importance. This 
$1.3 million dollar proposal, while modest, would provide a much needed 
boost to accelerate the work of the Coronado National Forest beyond its 
current 200-300 acres per year efforts.
    In addition to the critical conditions on Mount Graham, issues tied 
to the ESA have magnified the need for accelerated forest restoration 
and community protection work in other Arizona and New Mexico Counties. 
For example, the Eastern Arizona Counties (Apache, Gila, Graham, 
Greenlee, and Navajo) through their non-profit Environmental Economic 
Communities Organization have identified $165 million dollars in ready 
to implement projects on roadways, private lands, NEPA ready forest 
lands, and Arizona State Trust Lands. Of this amount, at least $80 
million dollars is needed to address the most critical public safety 
and economic recovery needs. (Note: A copy of this request is attached 
for the record).
    Although hundreds of examples can be given, I wish to share two (2) 
specific examples of the abusive affects caused by the ESA on local 
agriculture and the everyday lives of citizens.
    Ross Bryce, a local area rancher, shared with me his experience 
with the ESA. As the owner of the Spear Ranch located on the West end 
of Mount Graham, he and his family have run cattle on the Mountain for 
many years. Mr. Bryce was informed by the Forest Service in 2001 that 
his allotment would be reduced by 50%, from 200 to 100 head of cattle 
because the presence of the Agaves plant makes his ranching allotment 
potential habitat for the Longnose Bat. This was done even though the 
Forest Service stated to him that as far as they knew, there were no 
bats present.
    Since this reduction in 2001, Mr. Bryce has received no 
compensation, despite no evidence of the presence of Longnose Bats.
    A classic example of the Endangered Species Act and its negative 
affects on Graham County's citizens is the Solomon Bridge project. 
After the flood of 1993, the road approaches to the Solomon Bridge were 
washed out, necessitating the building of a new 800-oot bridge that 
property owners on the North side of the Gila River, school buses, and 
farmers frequently used. With funds raised, Graham County started the 
permitting process to construct the bridge, which was the beginning of 
a 2 1/2 year ESA nightmare involving the Southwestern Willow Flycatcher 
regulations.
    From March, 1993 to October, 1995, Graham County waited while U.S. 
Fish and Wildlife personnel conducted mating call surveys for the 
Southwestern Willow Flycatcher. During those surveys, they stated that 
they thought they heard the Flycatcher's mating call, and held up 
construction of the bridge while school buses from Solomon had to 
reroute 26 miles each way to deliver children to and from class. This 
resulted in the Solomon School District, the poorest in the area, 
shortening its school days and changing activity schedules to 
accommodate a bird that ``might'' have been at the bridge construction 
site.
    Farmers were also impacted as they were forced to drive heavy farm 
machinery on the same 26 mile detour to reach fields on the north side 
of the river. This disrupted traffic on state highways and raised 
farmers' fuel costs. The traffic safety hazard on the 8th Ave Bridge, 
which was used as part of the detour, was extremely high.
    Finally, in October, 1995, because of mounting public safety and 
budgetary concerns, the Graham County Board of Supervisors felt 
compelled to start construction on the Solomon Bridge while the permits 
were still in process. The bridge was completed in September, 1996. A 
dedicatory plaque on the bridge's Southwest side says, (and it says it 
all) ``This bridge is dedicated to the people of Graham County as an 
example of how persistence and common sense prevails over bureaucratic 
red tape''. No action was taken against the county.
    Representing our local communities and counties, we declare the 
right to our livelihoods, our traditions, and the preservation of our 
culture. We call on the Congress and the President to change the 
Endangered Species Act in a way that recognizes these rights.
    The ESA must be based on sound peer reviewed science, as well as 
the full recognition of the economic impacts of the law and its 
implementation. Species recovery plans must be balanced with a 
community's social and economic needs. In other words, we want a sound, 
sensible Endangered Species Act, not a run away train. We earnestly 
seek some reasonable balance between the protection of species, our 
lives, and our economies.
    Thank you
                                 ______
                                 
                             Summary Points
             in support of mark herrington's esa testimony

              Forest and Fire--Graham County <SUP>1</SUP>
---------------------------------------------------------------------------

    \1\ Source: Eastern Arizona Counties Organization
---------------------------------------------------------------------------
    <bullet>  In 2004, there were 12 wildfires larger than 1,000 acres 
in size, 4 larger than 10,000 acres, and 1 larger than 100,000 acres in 
Arizona.
    <bullet>  Since January, 2000, there have been at least 60 fires 
larger than 1,000 acres in Arizona. Of these, 12 were larger than 
10,000 acres, 1 was larger than 100,000 acres, and 1 was almost 500,000 
acres (Rodeo-Chediski). Many of these large fires are the result of 
excessive fire fuels caused in part by delayed thinning and harvest 
activities that resulted from Endangered Species Act lawsuits and 
appeals.
    <bullet>  This year's fire on Mt. Graham consumed 29,400 acres, 
destroyed Mt. Graham Red Squirrel nesting sites, and damaged 
communication tower equipment and structures. As much as 20% of Mount 
Graham (under National Forest jurisdiction) may have burned at varying 
degrees of intensity this year.
    <bullet>  In addition, almost all major recreation trails are 
closed on the mountain, and there is an urgent need to restore and open 
them due the heavy dependence of the Gila Valley on recreation and 
tourism.
    <bullet>  As of today, there is still no announcement for the 
salvage removal of burned trees along roadways, near structures, or 
adjacent to recreational sites on Mt. Graham. We are hopeful that the 
NEPA categorical exclusion process will start soon so that public 
safety can be protected and a marginal economic benefit can be realized 
from burned trees near structures and infrastructure.
    <bullet>  Despite the 2004 Mt. Graham fires, as many as 89 cabins 
and homes, key communication towers, buildings, and power generators, 
and the world's largest telescope remain at high to extreme risk to 
loss from future catastrophic wildfire.
    <bullet>  In an August, 2004 study of fire hazard and risk near 
campgrounds, structures, and infrastructure, it was found that 96% of 
cabins, 100% of remaining communications structures and infrastructure, 
and 40% of high use campsites are at high to extreme of loss to 
catastrophic wildfire.
    <bullet>  Because of Mt. Graham's high wildfire loss potential, 
Graham County and the Eastern Arizona Counties submitted a modest 
$974,500 dollar proposal to reduce the catastrophic fire hazard in the 
most critical interface areas of Mt. Graham. Since then, we have 
increased our request to $1.3 million to include sites of historical 
and cultural importance to our pioneer communities, such as Treasure 
Park, Hospital Flat, Peters Flat, Chesley Flat, and the old Mt. Graham 
Sawmill sites.

             Forest and Fire--Eastern Arizona <SUP>2</SUP>
---------------------------------------------------------------------------

    \2\ Source: Eastern Arizona Counties Organization
---------------------------------------------------------------------------
    <bullet>  The 119,500 acre Willow fire near Payson threatened a 
major electrical transmission line and shut down major highways. In 
fact, the threat of rolling blackouts in Phoenix this year was due in 
part to the threat of fire to these lines.
    <bullet>  Currently, our five (5) Counties operate under a declared 
bark beetle, drought, and catastrophic fire risk emergency, with as 
much as 1 million acres or more at risk of loss.
    <bullet>  Sadly, the Cibecue sawmill on the White Mountain Apache 
Reservation, in Navajo County, was just closed, resulting in the loss 
of 73 local jobs. Funding will be requested to retool the Cibecue mill 
for small diameter trees, so that jobs can be restored.
    <bullet>  Although this sounds expensive, potential property losses 
if we don't make this investment are over $1billion dollars, and the 
costs of fighting fires in Eastern Arizona will add to the already 
hefty $200 million dollar price tag.
    <bullet>  In addition, this initial investment would yield economic 
benefits to this depressed region of the State as the burned and small 
fire fuel trees are removed and used for value added product 
manufacturing and biomass energy. It would be especially worthwhile if 
the material from Mt. Graham could benefit the San Carlos sawmill.

                        Salt Cedar <SUP>3</SUP>
---------------------------------------------------------------------------

    \3\ Source: Coalition of Arizona-New Mexico Counties for Stable 
Economic Growth
---------------------------------------------------------------------------
    <bullet>  When construction on the Roosevelt dam to raise the level 
of Roosevelt Lake (on the Salt River) was nearing completion, the 
Center for Biological Diversity sued to protect Southwestern Willow 
Flycatcher habitat. The habitat was salt cedar that had invaded the 
lake bed when it was lowered to facilitate construction. The results 
are as follows:
        1.  In 1996, the USFWS determined that flooding this population 
        will jeopardize the viability of the flycatcher (USFWS 1996a). 
        To allow fir the refilling of Roosevelt Lake, the Bureau of 
        Reclamation was forced to protect habitat elsewhere. They did 
        this by purchasing habitat on the lower San Pedro River.
        2.  To mitigate for ``lost'' Willow Flycatcher habitat around 
        Roosevelt Lake caused by raising the lake level, the Bureau of 
        Reclamation has spent (sic) $2.1 million from the U.S. Treasury 
        to fence cattle out of riparian areas on 11 National Forest 
        allotments around the lake. (Source: Center for Biological 
        Diversity Website)
    <bullet>  Eradication of salt cedar would result in restoration of 
native plants systems more desirable as habitat for the Southwestern 
willow flycatcher and other species. The increase in water flows and 
quality would benefit listed fish and other species.
    <bullet>  The most cost effective salt cedar control methods are 
aerial herbicide spraying and biological control through the use of 
salt cedar beetles after removal efforts are completed. Both methods 
have encountered high levels of resistance from the environmental 
community.
    <bullet>  The most significant problem encountered in accomplishing 
treatment has been obtaining take permits and getting through the 
Section 7 consultation process. Delays continue to occur in this ESA 
process for even benign biological control methods.
    <bullet>  In New Mexico on the Rio Grande, treatments must leave a 
one mile radius around nesting clusters. This leaves a new seed source 
for repopulating the treated areas. Treatment occurs two months after 
Southwestern willow flycatchers have already departed on their flights 
south.
    <bullet>  Due to the increased cost of treatments on federal lands 
because of the ESA and other environmental protection laws, nearly all 
treatments in New Mexico and Texas have occurred on Tribal and private 
lands. This leaves the federal lands as sources of re-infestation of 
the treated areas.

National Association of Counties Platform on the Endangered Species Act

    <bullet>  NACo believes that the goals of the Endangered Species 
Act would be better achieved if the Act itself and its administration 
were reformed. Such reforms should include:
        1.  Provisions for pre-listing incentives for affected 
        governments, public land lessees and private property owners to 
        enter into conservation agreements with the Secretary of the 
        Interior.
        2.  Greater involvement by local governments in the listing 
        process.
        3.  Improvement in the scientific review process, including 
        peer review.
        4.  More complete analysis of the socioeconomic effects of 
        actions proposed pursuant to the Act and better incorporation 
        of that analysis in decision making.
        5.  A full partnership for the affected State, its local 
        governments, public land lessees and affected private property 
        owners in the post-listing consultation and decision making 
        process, including critical habitat, habitat conservation plans 
        and full-scale recovery plans.
        6.  Protection of private and public property rights.
        7.  Development of specific, science-based, benchmarks for de-
        listing threatened or endangered species concurrent with the 
        development of criteria for listing.
    <bullet>  Federal agencies responsible for the protection of 
species that would be harmed in the course of flood control projects 
should implement the rescue of these species rather than the local 
government performing such activities.
    <bullet>  The U.S. Fish & Wildlife Service (USFWS) should not 
introduce predators into public lands without addressing the diverse 
interests within each county likely to be affected by the introduction 
or migration of predators. Any such plan should be submitted for review 
and comment by the governing bodies of potentially affected counties. 
NACo requests that the USFWS shall return or destroy any predators from 
introduced populations that are found outside the introduction area at 
its expense, and that the USFWS be held liable for any damages from 
predation while the predators are outside the introduction area.
[GRAPHIC] [TIFF OMITTED] T6206.009

                                 ______
                                 
    Mr. Walden. Thank you. Appreciate your testimony. I must 
ask the audience, again, please, if you would not do that, that 
is not allowed within our rules. We do appreciate that.
    Now we will go to Dr. Peter Warshall. Thank you for being 
here.

              STATEMENT OF PETER WARSHALL, PH.D., 
                 PETER WARSHALL AND ASSOCIATES

    Dr. Warshall. Thank you for inviting me. I am the political 
brat that was not really invited until the last moment, but 
thank you for allowing for a contrary opinion to be expressed.
    I am a biologist who has worked with the ESA in Arizona for 
20 years. I have worked with water rights and rare and 
sensitive species for 30 years. I own a private consulting firm 
that has worked with habitat and species conservation both here 
and through the State Department in Africa and in Latin America 
and in other countries. And I have done a lot of environmental 
work for major corporations, including things like Shell Oil 
and SAS Airlines.
    What I would like to do is be a bit of a cheering squad for 
the ESA and say what has been good about it since we have 
heard--and I do not disagree with anything, I was an elected 
official for 10 years--that Mr. Herrington has talked about.
    First, there are three myths. The first myth is that the 
ESA is a major cause of economic decline in the southwest. And 
by the southwest, I mean south of the Mogollon Rim. Mining has 
been declining mostly because of price and globalization and 
substitutes for copper. Douglas and Manuel, Playas, Pima mines 
all did not close because of the ESA. In addition, the overall 
view--there are particular instances where the ESA has been a 
total headache.
    And commercial agriculture has not declined because of the 
ESA, but has declined because urban water rights are given 
priorities in this State and because the price competition, 
especially the global price competition on cotton, overwhelms 
the ability of the farmers to produce a competitive cotton.
    Similarly, in ranching--and I belong to a ranching family--
it is not the ESA that is causing the decline of ranching. It 
is housing subdivisions and drought that are mostly impacting 
it. The Malpai Group in Cochise and Hidalgo Counties, which 
includes a little less than a million acres, has shown the 
private sector leadership in counteracting housing 
subdivisions. They have independently put half of their deeded 
land into conservation easements. These conservation-friendly 
actions are in harmony with the ESA and with habitat 
preservation. And they were completely taken by ranchers 
opposing housing subdivisions, which is their core goal rather 
than fighting the ESA.
    We have lots more examples where the Grey Ranch introduced 
blacktail prairie dogs to offset listing. We have Douglas high 
school programs, and we have Predator-friendly beef. And there 
is many more on jaguar policy also. We could see the opposite 
of this where the ranch economy is really being hurt and 
farming economy in Sierra Vista, which has little to do with 
the ESA and has to do with the National Conservation Area. It 
does have to do with the southwest willow flycatcher habitat, 
which has disappeared there. And as housing development 
increases, both the farming and ranch communities are also 
disappearing.
    In timber, I will not talk about north of the Mogollon Rim. 
In the southwest, the timber industry was pretty much logged 
out before the ESA had its impacts. As people locally around 
here know that the 1960s was the last major cuttings on Mount 
Graham, and the mill closing occurred slightly after that. The 
spotted owl exists mostly in unloggable canyons in the 
southwest, not in the north, and has made no major impact. I do 
not think any environmental group that I know of has opposed 
logging for the purposes of, not major timber, but for other 
wood products in this area. I think that almost all 
conservation groups totally are looking for that combination. I 
do not think this is a fight.
    The second myth is that the congressional and Federal 
agencies make decisions on the best science. This has been a 
major problem with me. I was one of the major biologists on the 
Mount Graham red squirrel, and my answer to this is that the 
major threat to forests are special-favor politics, compromised 
biological science, compromised biological scientists who are 
under great pressure and underfunding. This trio of sins is not 
the fault of the ESA itself, but the fault is inappropriate 
political influence that impedes good biological science.
    The Mount Graham red squirrel is a perfect example of that. 
The U.S. Fish and Wildlife service in 1988 prepared a 
biological opinion based on no data. I testified in Congress at 
that time, and two U.S. Fish and Wildlife biologists also 
testified saying that the decision was based on no scientific 
data but was quote, ``predetermined.'' the scientific ability 
to do scientific work was completely stripped when the 
University of Arizona spent over a million dollars and Federal 
taxpayer money through research and study grants and immunized 
the ASTRO Project from both the biological opinion and NEPA 
processes. This has continued, as we have heard.
    In 1993, the U.S. Fish and Wildlife service priority very 
well stated was to minimize fire in all the Mount Graham red 
squirrel occupied areas. This would have helped the 
astronomers. And over $100,000was spent by the team. Nothing 
was done on fire management. There was nothing on salvage. 
Nothing on mechanical controls. Nothing on sanitation. The 
conservation groups were not opposed to this kind of work. And 
still to this day, the recovery team for the U.S. Fish and 
Wildlife service has no outside biologists, no outside 
biologists on it. So it is done in-house, without clear 
understandings of what good science means, which is open 
transparency.
    In both those cases, the ESA got blamed for bad procedures 
and for special-favor politics. I ask both of you, as 
congressmen with various bills to consider, will your bill 
increase or decrease special-favor politics? Will it politicize 
science, or will give it some independence? Over 400 scientists 
have written a petition to the executive part of our government 
asking that pure good science be given a fair hearing.
    In some of the bills that have been proposed, there is 
confusion about what current field work would mean. Does it 
mean museum work, which has a lot to do with listing species? 
Interpreting aerial photographs, is that field work or is that 
interpretative work? Should you use parametric or nonparametric 
statistics? It may not be good for Congress to get involved in 
these details. It may be better to understand and put in a new 
law to stop special-favor politics. And in my written 
testimony, I have added how the Endangered Species Act might be 
prepared for that--changed for that.
    Finally, I would like to say that the ESA is not draconian. 
President Bush, in the recent issue of Nature, the best journal 
in the world, has pointed to the HCPs, the conservation 
banking, and there is no one opposed to that. In fact, in the 
southwest, we have passed even a better plan called the Sonoran 
Desert Conservation Plan, which is a great plan to work out how 
you could protect habitat and increase housing development in 
the right places.
    But we have also changed from species to ecosystem 
management. It has already happened. It is a young law. It is 
only 31 years old compared to the Homestead Act or the National 
Forest Act, which are over 100 years old or 70 years old. The 
ESA is not perfect, but I think it is being worked on very 
well.
    I would finally like to say that I think there is no such 
thing as a rural community. I have worked in these rural 
communities, as I say, for 30 years now, and some people really 
like the Endangered Species Act as the patriot preserving our 
national heritage. Others like it for ethical reasons, 
including creationist Christians who see it as a sin to kill 
off God's creatures or western Apaches who see it as supporting 
the great spirit or some other people, just respect and love of 
nature because they like to study it. I have even talked to 
economic people who feel you should not get rid of endangered 
species or reduce their protection because of economic 
opportunity costs. You never know which species is going to 
increase the tourist industry or be the source of a new 
medicine.
    So, in closing, I would like to say, when I work in Africa, 
America is loved for the transition of power and change of 
government without bloodshed. And I also hear that from 
Africans, and they think America is great on that. The second 
thing they like is we try to protect our natural heritage. 
Before we demonize the Endangered Species Act and try to bust 
it apart, I would like to think we have an international 
leadership role in showing the rest of the world that we are 
doing a good job, imperfect--and I could be the person who 
talked for hours about the imperfections--but a good job as a 
world leader in telling people that it is worthwhile to protect 
your species, ecosystems and natural heritage. Thank you.
    [The prepared statement of Dr. Warshall follows:]

                   Statement of Dr. Peter Warshall, 
             Peter Warshall and Associates, Tucson, Arizona

    I would like to thank the Subcommittee and our Congressmen for the 
opportunity to address the importance of rural communities, forest/
range issues, and the Endangered Species Act. As a citizen of both 
Arizona and the US, I hope to be practical and real in understanding 
how the ESA has played out in our area.
    Compared to Congressional acts that established national forests as 
the property of all American citizens, and the Homestead Act, that 
helped foster rural communities, the ESA is still young. It is only 
thirty-one years old. Its meaning and importance to citizens, courts, 
Congress, and other government agencies have not been fully realized. 
Some Americans are concerned how to best protect our national heritage. 
They are patriotic about common lands such as National Forests and our 
heritage of unique species and ecosystems. Others feel ethical 
imperatives to save and protect non-human species. They rest their 
commitment on God's creation and the sin of letting one of His 
creations go extinct, or on the Great Spirit, or other deeply American 
commitments to respect and to learn from Nature. Still others wish to 
insure that yet unknown economic values of rare and sensitive species 
(their opportunity costs) will not be lost. (Many unexpected species 
have become the basis for profitable medicines or tourist revenues.) In 
Arizona, all these approaches can be found within rural communities and 
contribute to the support of the ESA.
    It is important to dispel various myths about the ESA.
Myth #1: The ESA is a major cause for economic decline in rural areas 
        in the southwest.
    Mining has been lost to globalization, reduced quality of ores, 
substitution for copper by new materials, high U.S. wages compared to 
lesser developed nations, and, at times, low mineral prices. The mining 
industry in Arizona began its decline before the ESA had major 
influence. It was not an issue in the closing of the smelters in 
Douglas (AZ), San Manuel (AZ) nor Playas (NM) or the reduction of 
operations at the Pima Mine (AZ). If any laws are to be blamed, the 
Clean Water and Clean Air Acts (which try to insure minimal off-site 
damage) can be finger-pointed. In Arizona, the ESA has not been a major 
driving force in mining decline.
    Commercial agriculture has suffered from high water costs, 
competition between water users, water quality degradation, and global 
price competition (especially in the cotton markets) much more than the 
ESA. Competition between urban water users and Native American treaty 
allocations is much more important than the ESA. Among farmers, the ESA 
is a small headache compared to crop prices, subsidy politics, water 
prices, and the priority given to urban water rights.
    Ranching is declining throughout Arizona but not because of the 
ESA. The major threat to ranching is housing subdivision development. 
Other threats include price competition from imported beef, mad cow 
disease, increased property taxes, feedlot and meat packing 
conglomerates, and prolonged drought. To combat housing subdivisions, 
groups like the Malpai Group have formed in Cochise and adjacent 
Hidalgo Counties. A group of over 20 ranches, covering a bit less than 
one million acres, and including deeded, BLM, FS and State lands, the 
Malpai group has spearheaded conservation ranching and private sector 
leadership. Its core goal is to slow down and prevent housing 
developments that threaten rural economies. Over half of the group's 
deeded land is now in conservation easements, not because of the ESA, 
but to prevent housing development. The Malpai Group has also developed 
grass banking and fire management programs to help ranch productivity. 
Here, private sector rural economics have used conservation-friendly 
methods to help itself, and indirectly help sensitive and rare species. 
These private actions help both the goals of the ESA and rural 
communities.
    On one ranch, a private sector initiative, the Grey Ranch and 
Animas Foundation (Hidalgo County) have returned candidate species, 
black-tail prairie dogs, to some of their grasslands. Studies have 
shown that this species can help reduce shrub and tree encroachment. In 
the past, they were considered pests. Now, a rancher may help keep 
prairie dogs from being listed. On another ranch, the Magoffins have 
volunteered to maintain their population of the threatened Chiricahua 
Leopard frog and have sponsored classes with the Douglas High School. 
Another rancher is now selling ``predator-friendly'' beef, guaranteeing 
consumers that they protect and will not harm mountain lions and 
wolves. Predator-friendly beef is a new market niche that will help 
maintain rural life ways and endangered species. The Malpai Group has 
also stated that they will not shoot endangered jaguars (first seen on 
a ranch in 1997) even if they kill a cow. These few stories point to 
the new direction of conservation ranching. Part of the rural community 
does not see itself opposed to the goals of the ESA. At times (see 
below), the ESA can be an enormous headache, but the headache usually 
involves the implementation of the law, not the law itself.
    As Mark Twain has said: ``Whisky is for drinking; water for 
fighting.'' And, in Arizona, water fights include five states, two 
nations, and a dozen Native American reservations. Rural communities 
are at a disadvantage because water rights favor urban development and 
groundwater laws are contentious. The main connection to the ESA has 
occurred when river flow was needed for endangered fish such as the 
endangered Humpback chub in the Colorado or the need for cottonwood-
willow forests by the endangered southwest willow flycatcher and 
various fish in the Gila basin. River flow allocations have yet to be 
adjudicated in the Gila River basin nor finalized for the Colorado. 
These decades long fights over adjudication are at the heart of the 
problem, not the ESA. Urban expropriation of rural community water is 
far more important than the ESA. The ESA is, at times, one player. It 
may recommend a minimal in-stream flows to help the whole ecosystem and 
recover a species like the Humpback chub. In the Colorado, these 
requirements support and are in harmony with a major, local 
recreational economy. The ESA may recommend scheduling water releases 
from dams to consider both fish/bird needs as well as many diverse (not 
rural) downstream users.
    It is crucial to understand the context for these ESA 
recommendations. Arizona has lost over 90% of its cottonwood/willow 
forests., the major habitat of the will flycatcher. Only about 1% fully 
functions in a healthy manner. These fish and bird species are 
``canaries in the mine''--early indicators that water (as much as oil) 
and water-dependent habitats must be seriously considered in the 
twenty-first century. This is most apparent in the San Pedro River 
where every respected hydrologist warns that groundwater is running out 
and there is a conflict between the federal National Conservation Area 
and development. We must ask: Does Arizona and New Mexico want one or 
five per cent of our wetland heritage forests to remain for future 
generations? How much water should be allocated to public uses paid for 
by the nation's taxpayers and how much for private development? This 
question should not be trivialized by calling the ESA a demon. Nor, 
should issues of water resources management be artificially reduced to 
ESA issues. Competing surface, conjunctive, in-stream and priority 
water rights and over-subscription of water will be the defining issue 
of the southwest in the next twenty years.
    In the southwest (as opposed to northern Arizona), the timber 
industry declined before the ESA had major impacts on harvest rates. 
For instance, the last lumber mill near Mt. Graham had closed before 
anyone re-discovered the endangered Mt. Graham red squirrel. The 
threatened Mexican Spotted Owl has been most entwined in the timber 
industry in the northern part of Arizona. In the southwest, its nesting 
in canyons and the much reduced timber prospects have created little 
conflict. No mills or jobs have been lost on the southwest from this 
species.
    In conclusion, the ESA has not hurt rural economies in the 
southwest. (It has influenced the timber industry to the north.) It is 
a myth to claim that the ESA is responsible for rural decline. In fact, 
the new environmental-friendly tourist industry has been a major savior 
to some rural communities as the commodity-based economy declines. A 
fine example of this new rural economy is Portal, AZ. During the 
Rattlesnake fire in the Chiricahuas, all residents talked to the fire 
crews (who were not local) about saving south fork of Cave Creek. This 
riparian forest is the economic heart of Portal that services over 
10,000 birdwatchers each year. The fire crews listened and did a good 
job of directing their fire lines saving both economics and species.
Myth #2: Congress and federal agencies make ESA decisions on the best 
        science.
    It is crucial to distinguish between the law itself and the 
implementation of the law by federal agencies. If we look at actual 
forest issues in Arizona and New Mexico, it is obvious that the major 
threat to forests comes from special-favor politics, compromised 
biological science (and agency biologists), and under-funding of 
various programs. This trio of sins is vastly more important than any 
changes in the law and its regulations. These obstacles to good science 
are NOT faults within the ESA law itself but in the arena of 
inappropriate political influence.
An Example: The Forests of Mt. Graham
    In the southwest, the Mt. Graham red squirrel, southwestern 
flycatcher, Mexican spotted owl, and various native fish can be found 
near or in forests. In Arizona, many bitter fights concerning forests 
have occurred because the biological science needed to implement the 
law has been inappropriately impeded.
    I served as an expert biologist in one such bitter battle over 
forest health and quality: the Mt. Graham red squirrel and 
astrophysical development (see Disclosure Document), have written the 
only peer reviewed article on the subject (Warshall, 1994), and was the 
team manger on the only comprehensive ground-truthing forest assessment 
of the upper elevation forests. I will quickly sketch how the best 
biological science was blocked and distorted.
    The Mt. Graham red squirrel was proposed for endangered status by 
the Arizona Game and Fish Department, not environmentalists. The U.S. 
Fish and Wildlife Service did not list the squirrel within the time 
limit required by law. It is not known if this was for political or 
budgetary reasons. The Sierra Club (1987) threatened a lawsuit and, by 
June, the squirrel was listed. Ironically, the University of Arizona 
astronomers should be grateful to the Sierra Club for speeding the 
process of good biological science.
    Two major issues existed for the ESA: how many squirrels existed 
and how much upper-elevation forest of what qualities existed? In 
addition, educated guesses had to be made of how stable the forest 
types might be over the next one hundred years. The more unstable the 
forest, the larger the protected zone required and the stricter the 
limitations on forest cutting.
    Between 1986 and 1988, the Coronado National Forest, as lead 
agency, wrote three distinct versions of the Biological Assessment. 
Each edition had a different Forest Service biologist as team leader. 
One team leader retired and another was moved off the project. This led 
the public to question the integrity of the agency's biological 
science. Delays occurred, not because of the ESA, but because each 
edition had a different number and configuration of telescopes in 
different areas of forest. Each new configuration had to be re-analyzed 
for its impact on different areas of forest by a new team leader.
    In 1988, the Biological Assessment was sent to the U.S. FWS. The 
agency rejected the Biological Assessment and proposed another project 
which they had originally rejected (US Congress 1990: 39--55) and in a 
forest area that had not been previously assessed. This rejected 
project became the preferred alternative and confused biologists from 
the Forest Service and university. (I was then a University-hired 
biologist.) Two biologists requested data on the forest areas that 
would be impacted. U.S. FWS had no data. The public now thoroughly 
questioned the integrity of the science.
    About June 1988, the University of Arizona made the most 
controversial decision. They abandoned the standard procedural rules 
and pursued a strategy to exempt the project from the ESA. They paid 
Patton, Boggs, and Blow (a Washington lobbying firm) over $1 million 
with federal taxpayer funds through a research and study grant. The 
proviso (a rider) was attached to a popular bill (the Arizona-Idaho 
Conservation Act) and, on the last day of Congress, it passed. By this 
act, special-favor politics immunized the project from a design based 
on good biological science and dashed hopes of a credible assessment of 
forest health and quality. The rider also immunized the astronomical 
consortium from Section 4 of the ESA, the section that might have 
reduced telescopes in Critical Habitat. The exemption pushed a local 
project into national controversy.
    In a lawsuit, two U.S. FWS biologists testified that there was no 
good science behind the telescope site decision and that, contrary to 
Section 4(3) of the ESA, the decision was based on non-scientific 
considerations. (Section 4 says the decision should be based ``solely 
on the best scientific and commercial data available.'') Congressmen 
requested an investigation by a U.S. FWS blue-ribbon committee to 
review the data and application of the law. The team reported even 
greater and more extensive tampering with the data than an earlier 
analysis by the GAO. At that point, the astronomical consortium had a 
decision to make: Should they request a new Biological Opinion based on 
good science? They did not and a group of over 200 scientists 
(including some astronomers) protested. Various astronomy departments 
(Smithsonian, Harvard, NOAA) withdrew from the project.
    In short, we see that the ESA was not at fault but that special-
favor politics, inter-agency delays, distortion of science, and perhaps 
agency budgetary limitations created the controversy. Similar refusals 
to follow biological science have occurred with the listed Alabama 
flattened musk turtle and, in Texas, with the Concho River snake. 
Special-favor lobbyists are perhaps the forests worst enemy.
    The lack of timely biological science and budgetary faux pas have 
continued on Mt. Graham. In 1993, the U.S. FWS Recovery Plan set as a 
high priority (Priority 131), a fire management plan that ``minimizes 
fire in all squirrel occupied areas.'' If the Coronado National Forest 
had made such a plan, it might have protected both squirrels and 
telescopes. The ESA was not a barrier to the plan, which cost an 
estimated $10,000 in 1993. Nor did neither the Red Squirrel Committee 
nor the University of Arizona fund any studies on fire management and 
insect studies. (It spent hundreds of thousands on other study 
projects.) The Forest Pest Management Team of the USDA did begin 
studying the spruce beetle in 1992. Recommendations were published for 
the roundheaded pine beetle but, as far as I know, no recommendations 
were published for the spruce beetle. The pine beetle recommendations 
alternatives included salvage, mechanical controls, sanitation/salvage, 
and insecticides. These methods could have been used for the spruce 
beetle and insect control would have provided local employment. Nothing 
was done and telescopes, taxpayer and squirrels suffered (the 
squirrels, the most). The issue was not the ESA nor the accumulated 
debris and dead-and-down but the inability of the agency and the U.S. 
to appropriately study and implement a fire program.
    In short, the bad reputation of the ESA may not be deserved. The 
law, like most laws, is imperfect, has loopholes and needs thoughtful 
critique (see Recommendations). But, certain politicians and citizens 
fear that good forestry science will always harmful to their desires. 
This is wrong. Good biological science needs to be allowed to happen. 
Good science does not play favorites and can change policy to the 
likings or dis-likings of any or all constituents. (Good science means 
peer review, proper methodology, transparency so that scientists 
outside agencies can review data, and a mechanism to insure that the 
most accurate data will be considered.)
    Special-favor politics is hard to overcome and can sour the ability 
to do things in timely manner because it fosters suspicion. Stopping 
special-favor politics does not require changing the law. It requires 
whistle-blowers, lawsuits, concerned Congressmen, independent 
scientists, and an informed press.
Example of Inter-agency Difficulties: Programmatic Fire Plans
    In 1995, the Coronado National Forest began a Programmatic Fire 
Plan. The plan, among its goals, was to have obtained a one-time 
clearance from the ESA for prescribed burns for private landowners and 
managers surrounded by federal lands. Without the plan, landowners are 
required to file for a separate permit for each burn. The process and 
expense can be so arduous that the burn season is over before the 
prescribed burn can occur. The burns are to boost the productivity of 
the rural rancher economy by revitalizing forage, and reduce the 
opportunities for catastrophic fire and property damage.
    In 2004, the fire plan has still not been completed. Ranchers 
involved with the largest prescribed burn in AZ/NM (the Baker burn of 
48,000 acres) had to deal with fourteen agencies in two states. They 
received easy clearance for Sanborn's long-nosed bat because fire 
reportedly helps agaves that are a major source of food. They paid for 
a private survey for threatened Mexican Spotted Owls on the proposed 
prescribed burn lands in order to speed the process. Nevertheless, a 
disagreement among the agencies about impacts on the ridge-nosed 
rattlesnake postponed the burn for two years. The postponement caused 
ranchers precious time, and money to fund a representative to meetings 
in two states.
    Although the ESA was involved, the delay and its economic 
consequences stemmed from the Forest Service's inability to complete 
the fire plan and the inefficiency and inability of the players to work 
together. There were no environmental groups involved in a major way. 
The ESA as a law was not at fault.
    This inefficiency is, in part, due to lack of adequate 
Congressional funding and a business-like attitude among the 
leadership. The most infamous environmental group in the southwest, the 
Center for Biological Diversity, has won over 80% of its lawsuits 
concerning the ESA. Most wins have been based on the U.S. FWS inability 
to complete its job in a timely fashion or do its job correctly. The 
Center has won on procedural, not science, issues. It is unfortunate 
that a sound law should be so ridiculed and polarized, when the major 
problem is not in the wording itself, but the functioning of a 
government agency.
Myth #3: The ESA is draconian.
    In the democratic process, a law is always tested against very 
specific realities. The ESA must deal with hundreds of forest types and 
unique species requiring an open-minded learning process. Contrary to 
those who feel it needs to be discarded that learning process has 
occurred.
    In the last 30 years, the ESA has nurtured the imagination of 
landowners, public officials and concerned citizens. In a recent 
Nature, the world's most prominent science journal, President Bush 
pointed out some of the new ``tools'' learned to decrease regulatory 
burdens: habitat conservation plans, conservation banking, voluntary 
agreements with landowners, and partnerships with states, tribes and 
nongovernmental organizations. We might add safe harbor agreements and 
land-use plans such as the Sonoran Desert Conservation Plan just passed 
by Tucson that includes wildlife corridors, some land purchases, and 
consideration of endangered wildlife. Unfortunately, neither party will 
confront the bigger problem of special-favor politics.
    Although recovery has been difficult, the survival of minimal 
populations has been very successful. In Arizona, the condor and black-
footed ferret have survived near extinction. The southern bald eagle, 
though in danger once again with no critical habitat, has become the 
focus of active preservation programs. There is now an active program 
to monitor and protect jaguars. In Aravaipa Canyon, listed native fish 
have been protected from invasives by a small dam. Many of the plants 
listed have received enough attention that their minimal viable 
populations are secure.
    New proposals, in addition to Critical Habitat, to make recovery 
more effective are needed. Congress has not discovered them nor passed 
new laws to encourage them. At this point, most work is to be found in 
the private sector and among NGOs. Wildlife corridors, allowing safe 
passage of species between protected areas are one of the most exciting 
conservation projects. It is crucial as global climate change alters 
the habitats of the southwest. I have included a series of 
recommendations concerning the ESA in hopes that they may reduce 
regulatory burdens and lawsuits and speed survival strategies and 
recovery programs.
Conclusions
    The ESA has provides a table for all players to visit, participate 
and listen. No other law, except NEPA, provides this opportunity for 
citizen participation and oversight. Since the ESA concerns the ethical 
values of governance, it is importance to have a citizen forum. This 
good news is important and needs to balance the over-stated rhetoric 
that the ESA is either untouchably sacred or the devil incarnate.
    The ESA is the only U.S. law that sets aside habitat for heritage 
species in danger of extinction. I work in Africa, Mexico, and parts of 
Latin America. In Africa, coworkers always praise America for its 
ability to peacefully change governments with no bloodshed and 
assassinations. Then, they praise America for respecting its national 
heritage and protecting its habitats and species. Most Europeans come 
to America to see that heritage. In short, support of the ESA has 
global repercussions and the US, as world leader, should be mindful. 
The protection of coral reefs or rainforests receives support from the 
U.S. setting an example and support for the ESA.
Recommendations
    The ESA process has been an imperfect framework. Issues of language 
and meaning, especially concerning Critical Habitat, are real and 
important. Here are a few recommendations to improve the functioning of 
the ESA.
A.  Before the ESA is deemed satisfied for a particular project, 
        Congress should be required to hold Committee hearings.
    In this Arizona controversy and others, no committee hearings were 
held. Exempting a project from the ESA limits Section 7 (formal 
consultation) from adding new information, which may be helpful in 
resolving opposing views. Committee hearings constrain the desire of 
Congress to by-pass its own laws, show respect for local communities 
and state agencies, and reduces anger and bitterness.
B.  If a Biological Opinion has been ``predetermined'' or deliberately 
        based on non-biological information, a new BO should be 
        required. The choice should not be discretionary.
C.  All BOs should have a section on what data is missing or 
        unavailable and its importance to survival and recovery.
    Oddly, from my point of view as a scientist, these are rarely in 
BOs. Missing forestry data do not favor advocates nor opposition to the 
ESA. It depends on the circumstances. It does provide the public and 
line-officer with a better understanding of how sure his/her strategy 
to protect a species will work.
    The 1993, Mt. Graham red Squirrel Recovery Plan, for instance, did 
not mention insect tree disease as a risk of extinction. This 
embarrassing omission left the agencies unprepared for the plague that 
killed over ten thousand trees in Critical Habitat. More emphasis on 
drought, tree stress and disease, and the prospects for a twenty-year 
drought might have motivated the agencies to take earlier actions to 
reduce the catastrophic fires and insect outbreaks that did occur.
D.  A finer distinction between ``Minimal Viable Habitat'' and 
        ``Critical Habitat.''
    To provide more flexibility and less fear of the ESA, a smaller 
area of minimum viable habitat can be distinguished from critical habit 
in Section 4. Minimal viable habitat would have a no further 
destruction designation. It would be for survival, a minimal habitat to 
buffer decadal set backs from natural causes and provide the support 
for the population size required to survive. Critical habitat would be 
the habitat required for full recovery. Critical habitat would consider 
economic development and how severely the development might retard full 
recovery. Nevertheless, it could allow some economic development. (This 
closes the legalistic loophole called ``friendly jeopardy.'')
    The jaguar situation in AZ/NM is perhaps a good illustration. The 
designation of critical habitat appears pre-mature to many because no 
male and female have ever been seen (only males). An area would become 
minimum viable habitat when a pair had been observed. The ecological 
friendly areas would have the looser designation (the new critical 
habitat definition). This ``modular'' approach would allow minimal 
viable habitat to expand, if jaguar pairs ever showed up.
E.  Improved inter-agency deadlines and efficiency
    Perhaps the most difficult barrier is accountability and timeliness 
between agencies. They are, of course, in denial of this problem, a 
kind of conspiracy of optimism. Some kind of incentive and punishment 
system for too many law suits because of procedural errors, too many 
deadlines missed, use of mis-information or avoiding information, and 
adequate funding available based on more business-like contracts would 
help.
                                 ______
                                 
    Mr. Walden. Thank you for your testimony.
    Again, just for the record, Dr. Warshall, the Democrat 
minority had 3 weeks to come up with witnesses. We found out 
you were going to be their witness Friday as well.
    So, the hearing we had in Oregon, they produced no 
witnesses from the environmental community, nor did they attend 
that one, nor did they attend this one.
    Dr. Warshall. I was just going to thank you.
    I understand that, and I thank the Republican party for 
allowing me to talk at such a late date.
    Mr. Walden. Our next witness, Ms. Holder.
    Thank you for being here. We look forward to your 
testimony. Again, your full written testimony will be a part of 
the record. So if you would like to go ahead, thank you.

         STATEMENT OF JAN HOLDER, EXECUTIVE DIRECTOR, 
                 THE GILA WATERSHED PARTNERSHIP

    Ms. Holder. Thank you.
    My name is Jan Holder, and I am Executive Director of the 
Gila Watershed Partnership, but I am also an environmentalist, 
and I am also a cattle rancher.
    I mention that because I like to say that I have the 
ability to see both sides. But a lot of people here, I think, 
will probably dislike me for one reason or another. But I 
really believe that most environmentalists and most 
agricultural producers want the same things. We want clean 
water. We want clean air. We want healthy ecosystems, and we 
want abundant wildlife.
    But here is how you can help us. Even though I believe that 
the Endangered Species Act is important to protect wildlife 
that sometimes in the past we have inadvertently--but sometimes 
purposefully--destroyed, but I believe that there are some 
problems. For one reason, there has been no support for farmers 
and ranchers to allow them to make the changes necessary to 
make room for these threatened, endangered and reintroduced 
species.
    Let me give you one good example. In the area where we 
ranch, the Mexican Gray Wolf was reintroduced. They spent over 
$7 million reintroducing the wolf, but not 1 cent was spent in 
educating the local ranchers in how to get along with the 
wolves that were gone for so long. These ranchers are people 
that are growing healthy, safe food and supporting the local 
wildlife, including many threatened and endangered species.
    But the very presence of these wolves means a lot of extra 
work for these ranchers. A lot of these ranchers have had to 
return to day herding, which they have not done for a long, 
long time. These ranchers have had to move their cattle a lot 
more often. They have had to change their calving seasons. They 
have no idea how to interact with the wolf any longer.
    It has increased the ranchers' workload and added expense 
to their already stretched pocketbooks, which might not be that 
big of a deal, but most ranchers and farmers these days are 
stretched so thin that they cannot afford any more work or any 
more expense.
    The situation is similar whether you are talking about 
something small as the Loach Minnow or as large as the grizzly 
bear; this situation actually imperils the very wildlife and 
the habitat that we seek to protect. The problem is that what 
happens is that these ranchers, if they become--have any 
problems economically, a lot of ranchers and a lot of farmers 
just will not make it.
    What will happen is this land that we are seeking to 
protect will be sold out for vacation homes. Between 1992 and 
1997, 16 million acres of agricultural land in the United 
States were converted to development. In the last 5 years, the 
conversion rate has more than doubled. The U.S. Population is 
expected to grow by one-half in the next 50 years, and even 
more pressure will be placed on our farms and ranches for 
development. With the traditional uses of this land, 
development and infrastructure will be added, and agricultural 
land will become vacation properties. These changes are 
advancing rapidly. I believe the wildlife habitat and large-
scale connectivity will be lost, and wildlife corridors will be 
forever altered.
    So I think we need to consider the economic issues along 
with the environmental concerns in each and every management 
decision that we make. It is a three-legged stool, and it will 
fail unless all three elements are considered equally.
    When an environmental impact statement is crafted, I know 
that the social and economic impacts are considered, but what I 
have seen is that, in the implementation stage, the biological 
considerations take center stage, while the local communities 
are left without the means to cope effectively, and they are 
not equipped to act proactively. All these people on this land 
can do is react to the situation as best as they can.
    As a cattle rancher and as an environmentalist, what I 
would like to see is supports and incentives built into the 
Endangered Species Act to encourage the farmers and ranchers to 
be good stewards of the land and to help them adapt to the new 
world. These ranchers are producing healthy and safe food while 
protecting our wide open spaces. It benefits all of us to keep 
them on the land.
    Thank you.
    [The prepared statement of Ms. Holder follows:]

               Statement of Jan Holder, Program Manager, 
                       Gila Watershed Partnership

    My name is Jan Holder. I am an environmentalist. My family actively 
supported the reintroduction of the Mexican Gray Wolf. I am president 
of a predator-friendly company that sells product in eleven western 
states. I am on an advisory board for Defenders of Wildlife. And, I am 
a cattle rancher. I raise cattle on public lands. I promote and support 
the economic development of farming and ranching. So, what does that 
make me? A rancher or an environmentalist? I guess that means that just 
about everyone here will hate me for one of those two reasons.
    By saying this, you may think that I have an overdeveloped sense of 
irony. Or, a death wish. But it's neither. I believe that most of us 
here want the same things. Clean water, clean air, healthy ecosystems 
and abundant wildlife. Being able to have all these things is not a 
dream. I've seen it happen. There are communities coming together to 
make things work. And, here's how you can help us.
    The Endangered Species Act is important to protect wildlife that we 
have in the past inadvertently and sometimes purposefully destroyed. 
But, the Endangered Species Act is another under funded mandate by 
congress. There were not enough appropriations by congress to allow 
U.S. Fish and Wildlife to do their job in a timely fashion. There has 
been no support for farmers and ranchers to allow them to make the 
changes necessary to ``make room'' for threatened, endangered or 
reintroduced species. There has been no money or incentives for them to 
be good stewards of the land.
    As an example, the Mexican Gray Wolf reintroduction has cost 
taxpayers over seven million dollars to implement. We have spent 
millions reintroducing the wolf to our modern environment, but we 
haven't spent one cent reintroducing the ranching community to the 
wolf.
    Many of the small ranches are good stewards of the land. They are 
growing healthy, safe food and supporting the local wildlife, including 
many threatened, endangered and reintroduced species. Our ranch is one 
of them but we are not the only ones. In Montana, the Madison Valley 
Ranchlands Group is working collaboratively with the environmental 
community to reduce the conflict between wolves and livestock. In 
Blaine County Idaho, the Lava Lake Land and Livestock Company is 
raising sheep in wolf country and has a growing organic lamb company.
    The very presence of wolves means extra work for the people in 
their vicinity. Many ranchers have returned to day herding in order to 
protect their herds. They move the cattle more often. Change their 
calving seasons and locations. It has increased the ranchers work load 
and added expense to their already stretched pocketbooks. And the 
situation is similar whether we are talking about something as small as 
the loach minnow, or as large as the grizzly bear.
    This situation imperils the very wildlife and wildlife habitat we 
seek to protect. Combined with the declining economics of commodity-
based agriculture and the continuing drought, many ranchers and farmers 
will not survive. The result will be a changed landscape, with the 
riparian ecosystems taxed with additional water demands. Between 1992 
and 1997, 16 million acres of agricultural land in the U.S. were 
converted to development. During the last 5 years, the conversion rate 
more than doubled from the previous decade. The U.S. population is 
expected to grow by one-half in the next 50 years, and even more 
pressure will be placed on our farms and ranches to sell their property 
for development.
    With traditional uses of the land altered, development and 
infrastructure will be added as agricultural land become vacation 
properties and ``ranchettes.'' These changes are advancing rapidly and 
the effect will be devastating, with wildlife habitat and large scale 
land connectivity forever lost. Habitat for threatened and endangered 
species will be irreparably harmed and increasingly difficult to 
protect and manage. Wildlife corridors will be forever altered.
    We need to consider the economic and social issues along with the 
environmental concerns in every management decision we make. It's a 
three legged stool. It will fail unless all three elements are 
considered equally. When an Environmental Impact Statement is crafted, 
the social and economic issues are raised. But in implementation, the 
biological considerations take center stage, while the local community 
is left without the means to cope effectively. They are not equipped to 
act proactively. They can only react to the situation as best they can 
with limited experience and even more limited resources.
    As a cattle rancher and an environmentalist, what I would like to 
see is: supports and incentives built into the endangered species act 
to encourage farmers and ranchers to be good stewards of the land. We 
want to help them learn to coexist with wildlife. These ranchers are 
producing healthy safe food while protecting our wide open spaces. It 
benefits all of us to keep them on the land.
                                 ______
                                 
    Mr. Walden. Thank you for your testimony.
    Our final witness on this panel, Dr. Powell.
    We are delighted to have you with us, and we look forward 
to your comments, sir.

             STATEMENT OF BUDDY POWELL, DIRECTOR, 
             MOUNT GRAHAM INTERNATIONAL OBSERVATORY

    Mr. Powell. Chairman Walden, Chairman Pombo, Congressman 
Flake.
    Mr. Walden. You might need to get that microphone a little 
closer.
    Mr. Powell. Thank you for the opportunity to be here today.
    My name is Buddy Powell. I have been employed by the 
University of Arizona for 19 years. I currently serve as 
director of Mount Graham International Observatory. Today I 
will share with you, your colleagues and our citizens my 11 
years of experience of working with the Forest Service, trying 
to get the area around the observatory cleared and protected 
from catastrophic wildfire.
    I will also share with you over 100 Federal court actions 
and our administrative appeals, mostly based upon the 
Endangered Species Act, to stop construction of the 
observatory. The observatory is located near the summit. It is 
actually on the third lower summit. There are three higher 
mountain peaks in the area than we are at. It is confined to 
8.6 acres out of the over 200,000 acres of land available on 
Mount Graham. It was established after the Congress passed and 
President Reagan signed the Arizona/Idaho Conservation Act in 
1988 and under a special use permit issued by the U.S. Forest 
Service in 1989.
    The University of Arizona Steward Observatory is the lead 
agency in providing the observatory with cutting-edge 
facilities to conduct scientific investigations in astronomy 
and astrophysics. It is an international project with 
collaborators from institutions in Germany, Italy, the Vatican 
and other institutions in the United States.
    At this time, the facilities at the observatory are valued 
at approximately $200 million. One-half of that money has come 
from the United States, and one-half has come from Europe. We 
are truly an international collaboration.
    I have provided copies of my testimony today, and I also 
have brought a few that I will leave for the staff of the 
detailed letters that we have written and received asking for 
help in protecting the observatory.
    We have tried to obtain the authorization to protect the 
observatory, as I said, but the authorization has been very 
difficult to obtain. In fact, most of the time, everybody 
acknowledges it needs to be done, but I am told repeatedly it 
cannot be done because of the Endangered Species Act.
    In 1993, after giving up on oral requests, I began a series 
of letters to the Forest Service asking for help. The last 
letter that I wrote--that the University wrote--was 11 years 
later, asking for help. Protecting the observatory for us, of 
course, is a very important issue. Bring some--and we are not 
talking about clear cutting, by the way. We are only talking 
about implementing what the Forest Service's fire structure 
expert in Missoula, Montana, had recommended.
    We asked that the Forest Service structure specialist from 
Missoula come out and tell us what needed to be done. This was 
not our proposal. This was not us. We are not firefighters. We 
are not Forest Service people. We simply wanted to protect our 
facilities from catastrophic wildfire.
    That was prompted because in 1996, Clark Peak fire burned 
within 100 yards of the Vatican Advanced Technology Telescope. 
It clearly sent a strong message to all of us that we were in 
serious danger and could lose our facilities.
    Although we continued to do that, and we continued to ask 
for help, not until 2002 were we given any opportunity to do 
anything. In 2002, under a categorical exclusion, the Forest 
Service did indeed decide that it could permit us to implement 
some of the stuff recommended by their own fire experts. 
However, we did not get a copy of that decision until 4 months 
later, despite our repeated requests.
    But now, to be fair, I also have to say that the Forest 
Service came up, conducted--pulled all of the--there was 
roughly 100,000 acres or 100,000tons of fuel out in the forest. 
They pulled it all up next to our building in July, just before 
the monsoons--for us, the summer thunderstorms--so we spent the 
July 4th weekend hauling it all away, off forest, because, 
frankly, it looked to me like they put a bunch of stuff up 
there. You could not think of a better way to burn a building 
down.
    Having said that, nonetheless, we were appreciative of 
that. We were pleased to work over the 4th of July weekend to 
remove that material, because it was the first chance that we 
have had to actually start implementing something more 
sensible. And, again, all of these actions were alleged by the 
Forest Service to be based on the requirements of the 
Endangered Species Act.
    The Nuttall-Gibson fire on July 2nd of this year approached 
to within one-quarter of a mile of the observatory. 
Firefighters did a tremendous job of protecting our site, but 
at substantial cost. Firefighters prepared the site for 
protection from the oncoming wildfire with rapid thinning, 
clearing and cleaning of the Forest surrounding the 
observatory. In 2 days, those firefighters conducted more 
extensive work around the observatory than I could get 
accomplished in 11 years.
    While the observatory suffered no damage, approximately 90 
percent of the red squirrel designated critical habitat was 
lost to the Nuttall wildfire. In 2003, a Red Squirrel 
Monitoring Program graduate student conducted a study and 
determined that only about 20 percent--actually a little bit 
less than 20 percent--of the squirrels live near the 
observatory in the designated critical habitat; 80 percent of 
the population is down in the mixed conifer well below the 
observatory and below the summit of the mountain.
    And my final irony, if I may say so, for me personally is 
to give you an example of how I feel that the Endangered 
Species Act was misused to delay construction of the large 
binocular telescope for 2 years. In 1993, university biologists 
came to me and requested we relocate the telescope about 600 
yards to the east of its initial projected location to minimize 
impact on the Mount Graham red squirrel. About six squirrels 
were living in the approved construction site, and none were 
living at the location preferred by the biologists.
    University staff conducted tests of the atmosphere to 
determine the quality of the site and to determine it was equal 
to or perhaps slightly better than the approved site. The 
Forest Service biologists conducted an environmental assessment 
and found that the proposed site would have less impact on the 
squirrels.
    Based upon what I thought was a win-win situation, that is 
biology and astronomy, most sciences would win, I requested 
that the Forest Service issue authorization to let me relocate 
the telescope to an area where there were no red squirrels, no 
endangered species.
    The Forest Service approved our request, and in December of 
1993, the trees were cut and removed. In May 1994, before we 
could start work because of the snow, a radical activist filed 
suit alleging location of the LBT was improper. In July of 
1994, the U.S. District Court entered a restraining order 
prohibiting any further work at the telescope site. After nine 
separate court actions, on July the 31st, 1995, the 9th Circuit 
Court of Appeals denied our petition for a rehearing.
    We then approached Congressman Jim Kolbe, who in those 
days--this was in Congressman Kolbe's district as well. 
Congressman Kolbe introduced legislation to clarify the intent 
of the Congress that LBT or the new telescope--the large 
telescope should be constructed where it would have the least 
impact on the squirrel. The proposed location met the intent of 
the U.S. Congress.
    As a result of Congressman Kolbe's legislative efforts, the 
U.S. District Court on May 16th, 1996, 2 years later--2 years 
after we did what we thought was a win-win situation and the 
right thing to do, based on biology and astronomy--we were 
granted relief from the judgment by dissolving the injunction 
against the construction, and work restarted again on the last 
telescope project.
    I and others believe that compliance with the Endangered 
Species Act should not preclude operation or protection of our 
observatory based on the limited work we need to do to protect 
the site. I and other stakeholders simply request that the 
managers of the National Forest use reasonable implementation 
of the Endangered Species Act and other laws, implementation 
that balances the true needs of the species with prudent 
requests of stakeholders.
    We believe that although the Endangered Species Act is 
important and a well-intentioned law, it is broken, and it 
needs to be fixed. The Endangered Species Act should be used to 
protect species from extinction, not as an obstacle to prevent 
legitimate actions. One constructive step would be to leave the 
enforcement of ESA to the Federal agencies and not to private 
individuals to promote their own private agendas.
    I thank you for the opportunity to be here with you today.
    [The prepared statement of Mr. Powell follows:]

Statement of B. E. Powell, Associate Director, Steward Observatory, and 
   Director, Mount Graham International Observatory, Tucson, Arizona

    Thank you for the opportunity to be here today. My name is Buddy 
Edward Powell and I am employed by the University of Arizona, as the 
Associate Director of Steward Observatory. I also serve as Director of 
Mount Graham International Observatory (MGIO). Today, I will share with 
you and your colleagues my eleven years of experience in working with 
staff of the U.S. Forest Service to reduce the risk of uncontrollable 
wildfire at the MGIO. I will also share with you over 100 Federal Court 
actions and/or administrative appeals, mostly based upon the Endangered 
Species Act (ESA), filed to stop construction of the Observatory. MGIO 
is located near Safford, Arizona, and is confined to 8.6 acres of the 
200,000 acres of Mount Graham. It was established after the Congress 
passed and President Reagan signed the Arizona-Idaho Conservation Act 
of Arizona in 1988 and under a Special Use Permit issued by the U.S. 
Forest Service in 1989.
    The University of Arizona, Steward Observatory, is the lead agency 
in providing MGIO with cutting-edge facilities to conduct scientific 
investigations in astronomy. It is an international project with 
collaborators from institutions in Germany, Italy, the Vatican and the 
United States. At this time, the facilities at MGIO are valued at 
approximately $200 million.
    The first part of my testimony will summarize the University of 
Arizona's correspondence with the U.S. Forest Service concerning the 
need for fuels reduction at MGIO. Attached are brief summaries of 
twenty-nine documents relating to fuel reduction at the site: the first 
document is dated July 15, 1993, and the most recent is dated July 1, 
2004--eleven years later. I have provided copies of my testimony and 
supporting documents for you today. My testimony will highlight the 
contents of some of these documents and try to give you a sense of the 
frustration we have encountered in trying to take simple measures to 
protect MGIO from catastrophic wildfires which have raged throughout 
the western United States for the past several drought prone years.
    MGIO has attempted, over the course of the last decade, to obtain 
authorization from the U.S. Forest Service to conduct the necessary 
actions under the National Environmental Protection Act (NEPA) and in 
compliance with all laws and regulations including the Endangered 
Species Act (ESA). During this time, such direction and authorization 
had been difficult to procure, despite the acknowledgement of all 
parties that MGIO was at great risk of catastrophic loss from wildfire 
from at least 1993 onward.
    The first document (#1 in the listing) from U.S. Forest Service 
Safford District Ranger, Richard Kvale, in 1993 established the concern 
of both the U.S. Forest Service and University of Arizona as well as 
other interested parties in the increased potential for insect 
infestations and devastating wildfires in the upper elevations of the 
Pinaleno Mountains (also known as Mt. Graham). At this time the U.S. 
Forest Service requested comments about the situation. I responded to 
this request with the first of many letters to the U.S. Forest Service 
supporting action and requesting that such action include work at MGIO 
(#2). Until 2002, the U.S. Forest Service did not permit action on its 
part or the part of MGIO at the observatory site except during the 
Clark Peak wildfire of 1996.
    The Clark Peak Fire of 1996 prompted the first and only U.S. Forest 
Service approval in over one decade to perform fuels reduction work at 
MGIO (#4). During this decade, fear of suits under the ESA had 
paralyzed the USFS with regard to active forest management for forest 
health or wildfire control. The limited USFS authorization as the 
result of the Clark Peak Fire allowed removal of all dead and down wood 
and standing snags in a limited south and west area out to a distance 
of 50 feet from the site. The Clark Peak fire burned within 100 yards 
of the Vatican telescope facilities. After this approval and subsequent 
work, the U.S. Forest Service did not permit any additional work around 
the MGIO site until 2002. U.S. Forest Service ``treatments'' occurred 
in campgrounds and other areas on Mt. Graham through 2004. The 
University of Arizona continued to support the U.S. Forest Service 
efforts to reduce fire danger on Mt. Graham but with each U.S. Forest 
Service action under NEPA, the University requested that MGIO be 
included in the efforts. The U.S. Forest Service declined to include 
the observatory site in any of its actions and did not indicate until 
2002 that the University should take any steps to submit proposals 
under NEPA to take action itself.
    In 1997 (#6), the U.S. Forest Service requested comments on its 
Pinaleno Ecosystem Management (PEM) Demonstration Program. I responded 
to the call for comments by supporting the PEM and once again 
requesting that proposed work include the MGIO area in order to protect 
the considerable financial investment and red squirrel habitat (#7). 
District Ranger George Asmus responded that all areas of the PEM 
project would remain outside the MGIO and Mt. Graham Red Squirrel 
monitoring project areas (#8).
    Letters in 2000 and 2001 from the University of Arizona, the 
Vatican Observatory Foundation, owner of the Vatican Advanced 
Technology Telescope at MGIO, and the Large Binocular Telescope (LBT) 
Corporation, owner of the LBT under construction at MGIO, reiterated 
the need for a fuels reduction program around MGIO to protect their 
investments (#9-10). In 2002, the Arizona Game and Fish Commission 
added its call to the U.S. Forest Service to take meaningful action on 
insect infestation, deteriorating forest health and related wildlife 
impacts and associated high risk of wildfire on Mt. Graham (#14). These 
and other requests of 2000-2002 (#11-14,17) culminated in a letter 
(#18) from Richard C. Powell, Vice President of Research at the 
University of Arizona, to John McGee, Forest Supervisor of the Coronado 
National Forest, commenting on the cost of conducting an environmental 
assessment suggested in 2002 by McGee and requesting authorization for 
appropriate measures to be implemented before the occurrence of a 
catastrophic wildfire.
    In 2002, the University of Arizona requested that Jack Cohen, Fire 
Scientist at the U.S. Forest Service in Missoula, Montana, visit MGIO 
and give us recommendations on what should be done to protect the 
Observatory from wildfires. Mr. Cohen is a well-known expert on 
structure protection during wildfire events. The result of Mr. Cohen's 
visit was a Proposed Action submitted by the University of Arizona to 
the U.S. Forest Service and a Decision Memo from the U.S. Forest 
Service that allowed MGIO to proceed with limited fuels reduction work 
under a NEPA Categorical Exclusion (#19-22). MGIO has proceeded with 
the authorized work during the summers of 2002, 2003 and 2004.
    In October 2003, the University again requested authorization for 
full implementation of the Cohen recommendations by commencing an 
Environmental Assessment under NEPA (#23 and 24). The University had 
received a one-year grant from the State of Arizona for fuels reduction 
work. The University revised this Proposed Action based on directions 
in meetings with the U.S. Forest Service and resubmitted the proposal 
in March 2004. The U.S. Forest Service told the University at different 
times that it was reluctant to review or respond to this proposal 
because it wanted to include it with other projects for future 
consideration. The University responded to these U.S. Forest Service 
concerns in letters in March and April 2004 (#25-27). The final 
documents in this listing are the U.S. Forest Service letter in June 
2004 from Forest Supervisor Jeannine Derby to Richard C. Powell 
discussing actions at MGIO and a document clarifying points in that 
letter (#28 and 29).
    The Nuttall-Gibson Fire on July 2, 2004 approached to within one 
quarter mile of MGIO. Firefighters did a tremendous job of protecting 
the site but at substantial cost. Firefighters prepared the site for 
protection from the oncoming wildfire with rapid thinning, clearing and 
cleaning of the forest surrounding MGIO. In two days, these people 
conducted more extensive work around MGIO than the University and its 
partners were allowed to conduct for eleven years. At Mr. Cohen's last 
site visit (August 2004) he reiterated that if MGIO had been allowed to 
proceed with controlled, long-term manicuring of the area around MGIO 
out to a minimum distance of 150-200 feet, such uncontrolled, extensive 
work would not be needed to protect the facilities from catastrophic 
wildfire.
    While MGIO suffered no damage, approximately ninety percent of the 
red squirrel designated critical habitat was lost to the Nuttal 
wildfire this year. In 2003 a Red Squirrel Monitoring Program study 
indicated that only about twenty percent of the red squirrel population 
is in the spruce-fir forest at the elevations of MGIO while eighty 
percent live in the mixed conifer below the Observatory.
    For me personally, perhaps the final irony is how ESA was misused 
to delay construction of the Large Binocular Telescope for two years. 
In 1993, University biologists came to me and requested we relocate the 
LBT about 600 yards to the east of its initially projected location to 
minimize impact on the Mount Graham Red Squirrel. About six squirrels 
were living in the approved construction site and none were living at 
the location preferred by the biologists. University staff conducted 
tests of the atmosphere to determine the quality of site and determined 
it was equal to or perhaps slightly better than the approved site. USFS 
biologists conducted an Environmental Assessment and found the proposed 
site would have less impact on the squirrel. Based upon the results of 
the studies, we concluded it was a ``win-win situation'' and we 
requested USFS approval to relocate the LBT. USFS approved our request 
and in December 1993 the trees at the new site were cut and removed. In 
May 1994, radical activists filed suit alleging location of LBT was 
improper. In July 1994, U.S. District Court entered a restraining order 
prohibiting any further work on the LBT. After nine separate Court 
actions, on July 31, 1995, the 9th Circuit Court of Appeals denied our 
petition for a re-hearing. Congressman Jim Kolbe introduced legislation 
to clarify the intent of the U.S. Congress that LBT should be 
constructed where it would have the least impact on the Mount Graham 
Red Squirrel, and the proposed location met the intent of the U.S. 
Congress. As a result of Congressman Kolbe's legislative efforts, the 
U.S. District Court on May 16, 1996, two years later, granted relief 
from the judgment by dissolving the injunction against construction, 
and work was restarted on the LBT.
    I and others believe that compliance with the Endangered Species 
Act should not preclude operation or protection of MGIO based on the 
limited work we need to do to protect the site and on the results of 
the monitoring studies of the squirrel. I and other stakeholders simply 
request that the managers of the national forests use reasonable 
implementation of the Endangered Species Act and other laws; 
implementation that balances the true needs of the species with prudent 
requests of stakeholders. We believe that although the Endangered 
Species Act is important and a well-intentioned law, it is broken and 
needs to be fixed. The Endangered Species Act should be used to protect 
species from extinction, not as an obstacle to prevent legitimate 
actions. One constructive step would be to leave enforcement of ESA to 
the Federal agencies and not permit its use by private individuals to 
promote private agendas.
    Thank you for this opportunity to testify before your Subcommittee 
today.
                                 ______
                                 
    [Attachments to Mr. Powell's statement follow:]
    1.  Annotated Listing of Documents Concerning 
Mt. Graham International Observatory Fuels Reduction Requests 1993-2004
    2.  Summary of Legal Activities, Mount Graham International 
Observatory (1988-Present)

  Annotated Listing of Documents Concerning Mt. Graham International 
                              Observatory

                        Fuels Reduction Requests

                               1993-2004

     1.  July 15, 1993 letter from Richard Kvale, U.S. Forest Service 
(USFS) Safford District Ranger, to Buddy Powell, Associate Director of 
Steward Observatory. Discussion of decreasing potential for increased 
insect infestations and devastating wildfire in the upper elevations of 
the Pinaleno Mountains, and requesting comments.
     2.  August 5, 1993 letter from Buddy Powell to Richard Kvale. 
Support for USFS actions proposed in July 15, 1993 letter but 
requesting that treatment be developed and implemented by USFS to 
reduce the risk of uncontrollable wildfire at the Mt. Graham 
International Observatory (MGIO).
     3.  August 21, 1994 letter from Richard Kvale to Gerry Perry, 
Regional Supervisor Arizona Fish and Game Department. Enclosing and 
agreeing with the urgency of a letter from Henri Grissino-Mayer of the 
University of Arizona (UA) Tree Ring Laboratory about wildfire on Mt. 
Graham. ``We are very close to a catastrophic fire in the Pinaleno 
Mountains.'' Business as usual can no longer continue.
     4.  April 28, 1996 letter from Richard Kvale to John Ratje, 
Operations Manager of MGIO. USFS approval to remove all dead and down 
wood and standing snags at a distance of 50 feet from the south and 
west aspects of the telescope site. [During Clark Peak Fire.]
     5.  May 6, 1996 letter from Ted Moore, Incident Commander and Tom 
Skinner, District Ranger, to John Ratje. Thank you for helping 
protecting MGIO during the Clark Peak Fire.
     6.  April 17, 1997 letter from George Asmus, USFS Safford District 
Ranger to Steward Observatory. Announcement of treatment areas for the 
Pinaleno Ecosystem Management (PEM) Demonstration Program: near 
summerhouses close to campgrounds, Columbine Work Center and Columbine 
Visitor Information Stations. Request for comments.
     7.  May 13, 1997 letter from Buddy Powell to George Asmus. Support 
of April 17, 1997 letter about fuels reduction in Pinaleno Mountains--
including a formal request that ``USFS implement a corrective treatment 
program to reduce the unnaturally large accumulation of dead fuel in 
the Observatory area.'' Comments on the need to protect this 
considerable investment and the red squirrel habitat.
     8.  September 21, 1998 letter from George Asmus to Buddy Powell. 
Details revision of proposed PEM area and treatments. All areas remain 
outside MGIO and the Mt. Graham Red Squirrel (MGRS) monitoring project 
areas.
     9.  December 11, 2000 letter from Buddy Powell to George Asmus. 
Support for the Alternative 1 of the Environmental Assessment, Pinaleno 
Ecosystem Management Demonstration Project and request to expand the 
fuel reduction treatments to include the area around the Mt. Graham 
International Observatory (MGIO).
    10.  December 15, 2000 letter from Chris Corbally, Vice Director 
Vatican Observatory Research Group, to George Asmus. Support for 
Alternative 1 of the Environmental Assessment, Pinaleno Ecosystem 
Management Demonstration Project around the telescopes into the plan.
    11.  October 24, 2001 letter from Buddy Powell to George Asmus. 
Request to conduct a wildfire reduction treatment program in the forest 
near the Mt. Graham Observatory. With attached pictures of forest 
around MGIO in 1999 and 2001.
    12.  November 6, 2001 letter from John P. Schaefer, Chairman of the 
Board of the Large Binocular Telescope (LBT) Corporation to Gale 
Norton, Secretary of the U.S. Department of Labor. Concern about the 
alarming condition of the forest on Mt. Graham and request that the 
USFS act on University of Arizona requests from 2000 and 2001 to 
conduct a wildfire reduction treatment program in the forest 
surrounding MGIO.
    13.  November 7, 2001 from Richard C. Powell, Vice President of 
Research, University of Arizona to George Asmus, Safford District 
Ranger. Concern about the fire danger on Mt. Graham and enclosing the 
Buddy Powell letter of October 24, 2001 to George Asmus.
    14.  December 17, 2001 letter from Duane L. Shroufe, Director 
Arizona Game and Fish Department to John McGee, Forest Supervisor, 
Coronado National Forest, USFS. Concern about the ongoing insect 
infestation, deteriorating forest health and associated high risk of 
wildfire on Mt. Graham. Request for immediate attention to resolving 
important habitat and wildlife problems on Mt. Graham and active 
intervention to reduce insect infestation and fire hazard on Mt. 
Graham. Attachments to this letter include: a duplicate sent to David 
Harlow, Field Supervisor, Arizona Ecological Services, U.S. Fish and 
Wildlife Service; a memorandum from Duane L. Shroufe to the Arizona 
Game and Fish Commission detailing the update provided to the 
Commission on December 7, 2001.
    15.  January 4, 2002 letter from John M. McGee to Richard C. 
Powell, Vice President of Research, University of Arizona. Response to 
R.C. Powell letter of November 7, 2001 expressing concern about the 
fire danger on Mt. Graham and enclosing the Buddy Powell letter of 
October 24, 2001 to George Asmus. Advises the University to develop a 
proposal and conduct an environmental assessment with oversight and 
approval by USFS.
    16.  January 28, 2002 letter from Acting Regional Director of U.S. 
Department of Interior Fish and Wildlife Service to John Schaefer, 
Board Chairman of LBT Corporation. Response to November 6, 2001 letter 
to Gale Norton that the area around MGIO is not under consideration and 
that future contact is to be made to David Harlow, Field Supervisor, or 
Sherry Barrett, Assistant Field Supervisor.
    17.  May 2, 2002 letter from members of the Arizona Game and Fish 
Commission to Senator John McCain. Concern about USFS lack of 
meaningful action on insect infestation, deteriorating forest health 
and related wildlife impacts and associated high risk of wildfire on 
Mt. Graham.
    18.  June 5, 2002 letter from Richard C. Powell, Vice President for 
Research, University of Arizona, to John McGee. Estimate of cost and 
time frame of environmental assessment suggested by McGee, and 
requesting that USFS to at least authorize appropriate protective 
measures to be implemented before a catastrophic wildfire has begun.
    19.  June 11, 2002 letter from John McGee to Richard Powell. 
Comment about June 10 meeting and agreement that University's values at 
risk on Mt. Graham are substantive and important, and supports 
collaboration for protection.
    20.  July 26, 2002 letter from Richard C. Powell, Vice President 
for Research, University of Arizona. Acknowledgment of USFS comments on 
Fuel Reduction Proposal, appreciation for initial work of USFS in MGIO 
area (2-3 July 2002), and request for completion of work outlined in 
proposal draft of 7/9/02.
    21.  October 15, 2002 transmittal from Richard Powell to John 
McGee. Field Notes/Proposed Action Agreement--Mt. Graham International 
Observatory Fuels Reduction.
    22.  November 4, 2003 transmittal from Jerry Conner, USFS, to Anna 
Spitz, Steward Observatory. Transmittal of Decision Memo dated July 2, 
2002 allowing removal of dead and down debris around MGIO.
    23.  December 9, 2003 memo to Richard Powell from Buddy Powell 
concerning letter from Susan Kozacek, Acting Forest Supervisor Coronado 
National Forest. Memo commenting on errors in Forest Supervisor's 
letter of October 15, 2003 (attached).
    24.  March 2, 2004 transmittal of Proposed Action from Anna Spitz 
to Teresa Ann Ciapusci, Program Leader, USFS. Transmittal of revised 
Proposed Action to conduct an Environmental Assessment to conduct long-
term fuels reduction work around MGIO.
    25.  March 26, 2004 letter from Anna Spitz to Jeannine Derby, 
Forest Supervisor, Coronado National Forest. Response to Ciapusci 
statements that the delay in responding to UA Proposed Action is that 
USFS is considering MGIO Proposed Action only with others, and request 
to expedite UA request to conduct an Environmental Assessment.
    26.  April 9, 2004 letter from Anna Spitz to Jeannine Derby. Notice 
to proceed with work under Decision Memorandum after obtaining approval 
of Safford District. Request for expeditious review of Proposed Action.
    27.  April 25, 2004 letter from Buddy Powell to Jeannine Derby. 
Response to McAllister (Coronado Forest Fire Officer) statement that 
USFS is reluctant to review UA Proposed Action due to concerns that UA 
is nearing a request for an Environmental Impact Statement. UA restates 
earlier assurances that this is not the case, and once again requests 
that USFS take action on the Proposed Action.
    28.  June 18, 2004 letter from Jeannine Derby to Richard Powell. 
Comments on Spitz and Powell letters from April 2004 and actions at 
MGIO for fuels reduction.
    29.  July 1, 2004 transmittal from Anna Spitz to Richard Powell. 
Transmittal of commentary on Derby letter of June 18, 2004 to clarify 
misstatements.
[GRAPHIC] [TIFF OMITTED] T6206.001

[GRAPHIC] [TIFF OMITTED] T6206.002

[GRAPHIC] [TIFF OMITTED] T6206.003

[GRAPHIC] [TIFF OMITTED] T6206.004

[GRAPHIC] [TIFF OMITTED] T6206.005

[GRAPHIC] [TIFF OMITTED] T6206.006

[GRAPHIC] [TIFF OMITTED] T6206.007

[GRAPHIC] [TIFF OMITTED] T6206.008

                                 ______
                                 
    Mr. Walden. Mr. Powell, thank you for your testimony and 
thanks to all the panel members for their testimony.
    Given our time constraints, we will have one round of 
questions for our--my colleagues here.
    Mr. Powell, I want to go right back to what you were 
talking about, this problem that you ran into with the 
Endangered Species Act and ability to move the site 600 yards. 
I believe that is the issue Dr. Warshall refers to as special-
favor politics, going to the Congress and getting Mr. Kolbe to 
intercede.
    Mr. Powell. Yes.
    Mr. Walden. Do you want to address that point?
    Mr. Powell. Mr. Chairman, if I may, the University and the 
Forest Service conducted an environmental impact statement. 
After that was done and published, the Forest Service asked us 
to consider other things. Now, regardless of what Dr. Warshall 
testified to earlier, the University did not spend $1 million 
at Fontainebleau to get lobbying done.
    Congressman Kolbe was very interested in seeing what he 
felt needed to be done for his legislative district to get 
accomplished. Congressman Kolbe and Senator McCain, aided by 
Senator Domenici, were the ones who decided this needed to be 
done, and they led the effort to get it done. Otherwise, they 
were told we would wait another 5 years before we could start 
work.
    Mr. Walden. OK. I want to go to another point, and that is 
this issue of the Endangered Species Act. I know from my own 
experience in my own district, the water was cutoff to the 
farmers and ranchers in the Klamath Basin in 2001. It was done 
so based on the biological decisions of the National Marine 
Fisheries Service and the U.S. Fish and Wildlife Service.
    Water was cutoff for the whole season. We had farmers who 
went bankrupt. We had farmers who committed suicide. It was a 
terrible tragedy for about 1,200 farm families.
    Now, I take exception to Dr. Warshall, because when we got 
the National Academy of Sciences Resource Committee to do 
independent peer review, they came back and said those 
decisions were not based on the science that was available, 
and, indeed, keeping the lake level high in Klamath Lake 
actually correlated with the years when you had the highest 
fish kill, and flowing warm water down the river actually could 
imperil the Coho Salmon they were entrusted to protect, which 
was what led me to H.R. 1662, the legislation this Committee 
has held numerous Committee hearings on and approved, requiring 
independent peer reviews of list, delist, consultations or 
recoveries, and giving higher recognition in the process to 
peer-reviewed, independent, no-conflict science.
    My question for each of you on the panel is that a position 
that you find would strengthen or, as some groups say, gut the 
Endangered Species Act?
    Dr. Warshall. We were only talking about the southwest, and 
I happened to agree with you that the Klamath region was 
handled horribly. So that is not--I mean, I was trying to keep 
my testimony only to everything south of Mogollon Rim, because 
that is what the title of this--
    Mr. Walden. Right.
    Dr. Warshall. There are lots of other issues up north, as I 
tried to point out, and timber industries that are much more 
difficult than what occurred south of the Mogollon Rim.
    I do not disagree with your desire to have good science. I 
am in no way opposed to it.
    I think, though, that one thing that gets confused for 
scientists--and I am not talking about environmental--is that 
the whole issue of how to do conservation biology is changing 
very rapidly. It is a very new field.
    So I would hate to see legislation get into the position 
where it dictated certain rules for how conservation biology 
should be done only to find out that, 2 years later, someone 
has a new technique, be it aerial photography, be it infrared 
photography, be it GPS.
    We did not--the squirrel would have been helped greatly if 
we had had GPS in 1984. We would have known where the squirrels 
are. We did not even have that available until the 1990s. So my 
concern was not--my concern was about saying too specifically 
that, for instance, what is a model?
    I was afraid, in fact, the exact opposite would happen, 
that you would be brought to court, and you would be in court 
for years, because people were saying, this is not really a 
model, or this really is a model, or this really is current 
field work, or this is current museum work on listing, and that 
we would be back in the same horrible situation that we get 
into with postponements of listings right now.
    But the big picture, I think what you are trying to do is 
wonderful.
    Mr. Walden. Thank you.
    Mr. Flake, your comments for peer review on the Endangered 
Species Act?
    Mr. Flake. On the what?
    Mr. Walden. On requiring peer review of the science used to 
make these decisions in the Endangered Species Act. Another set 
of eyes?
    Mr. Flake. I do not--I do not have any comment on that.
    Mr. Walden. All right.
    Mr. Herrington?
    Mr. Herrington. We definitely support your position on 
independent peer review. In fact, we believe that, had that 
been part of the consideration of the Razorback Sucker in the 
Gila River, that we would not have that designation today had 
that been done.
    Mr. Walden. All right.
    Ms. Holder, do you have a comment?
    Ms. Holder. I do not have any comments.
    Mr. Walden. Whether or not to have peer review in the ESA?
    Ms. Holder. I believe that peer review is very important on 
the ESA. That is one of the arguments that I see from both 
sides, is that the science has not been--I mean, everybody 
seems to be arguing about the science. I guess what really 
concerns me more than anything, though, is really the fact that 
the economics and social issues are not being addressed at the 
same time.
    Mr. Walden. Right.
    Ms. Holder. Ninety-nine percent of the time, when I go to 
meetings, and they are discussing threatened, endangered or 
reintroduced species, that seems to be the only thing that is 
important. I really do believe that the science is only one 
part of it.
    Mr. Walden. I do not disagree. I can show you a district of 
mine that never got out of the last recession because we lost 
all of the timber jobs. Our economy is threatened every day 
over ESA listings and various management, or mismanagement, or 
lack of management on our Federal lands. So I do not disagree 
with that.
    I am trying to take this one little piece here in the ESA 
and say, let us give greater weight to the science that has 
been independently peer reviewed by scientists who have no 
conflict, and yet I get attacked that I am gutting the 
Endangered Species Act.
    Mr. Powell, do you have any comment as a scientist, peer 
review?
    Mr. Powell. I would like to remind us all today that if it 
is science, true science, we do not have the answers. If it is 
engineering, I can design a bridge for you, that is not 
science.
    If it is true science, we need to take the best minds that 
we can get, get the best data that we can obtain and see if 
that data will lead us to a solution that makes sense. What we 
have got to do is stop one or two people expressing a 
scientific opinion based on--not fact--I am not sure what it is 
based upon.
    Frankly, I work with scientists, every day, day in and day 
out. Scientists are very investigative people. They want to do 
the right thing. They want to help, and we have got to bring 
good minds to bear and stop one or two rogue people in some 
Federal agency from dictating what science is. An example is, 
the university has always opposed the critical habitat for the 
Mount Graham red squirrel. We simply opposed it because we kept 
saying there has been no science. The people making these 
decisions do not have a clue, and it should be stopped. I am 
very pleased to see that you and your Committee, Subcommittee, 
are doing what you are doing today, and I thank you for that.
    Mr. Walden. Thank you, and I way overshot my time.
    I now recognize the Chairman of the full Committee, Mr. 
Pombo.
    Mr. Flake. Could I just comment on that?
    I just do not know what constitutes peer review. I would 
rather see it coming to something like practical review. I do 
not know if that constitutes peer review. We entered into a 
Savory grazing method some years ago, where it is high-density, 
short-duration grazing.
    The BLM came in to see what that would do to some 
endangered plants. They actually got on their hands and knees 
and crawled over sections of ground, on hands and knees, to 
find a little endangered cactus that I did not even know 
existed and thought well, if the cattle are bunched where it is 
a high-density, short-duration, will they disturb that little 
cactus? They found one that had been stepped on and uprooted by 
cattle.
    Had we been on straight BLM land, we probably would have 
been stopped. But because they were the minority, it was not--I 
think we have got to get some practicality into it. I do not 
know if peer review does that or not, but I would like to see a 
practical review.
    Mr. Walden. Thank you.
    The Chair recognizes the Chairman.
    Mr. Pombo. Thank you.
    Ms. Holder, I read your statement. I enjoyed it quite a 
bit. In fact, I think I probably could have written it. And I 
know I have probably given the same speech many times in 
reviewing that I come from a fifth-generation cattle family. 
And I grew up on a ranch where I believed that we were good 
environmentalists and that we were conservationists and that we 
cared about our ranch, because it had been in my family for 
five generations. And there is an attachment there that you 
cannot explain unless you have been through it.
    The one part of your testimony I found interesting was 
talking about changing the incentives that exist in the Act and 
putting more emphasis on working with ranchers and private-
property owners in order to enlist them in recovering the 
species.
    I introduced that bill in 1995. There was not a single 
environmental group that supported that, including the ones 
mentioned in your testimony. That was an awakening, somewhat, 
for me, to go through that. I can tell you that the reason I 
got involved in politics to begin with was not because I felt 
the Endangered Species Act was doing a terrible job in 
recovering species; it was because I felt it was being misused 
and abused to accomplish other agendas.
    When I look at all the hearings that I have held across the 
country--and I have had, I probably have been at somewhere 
between 50 and 75 field hearings in different places around the 
country--and the one thing that I hear over and over and over 
again everywhere I go is not that we do not care about this 
endangered species, whether it is a squirrel or a spotted owl 
or what have you, it is, they are using this to accomplish 
another goal that has nothing to do with recovering that 
species. And that is what the people get mad about.
    You know, Dr. Warshall, in your testimony, you know, a lot 
of the things that you have in here, I have proposed. I mean, 
in terms of your recommendations, every time I have proposed 
them, I get accused of trying to gut the Act, because there is 
a huge disconnect between people who are out here on the ground 
trying to do something and the people back there.
    Because a lot of these national groups, they do not want a 
solution. They do not want to solve the problem. They thrive on 
the conflict. If they settle the conflict, then there is no 
more reason for them to exist, and that is a big part of the 
problem.
    You know, in a perfect world, I mean, if, legislatively, if 
we were able to just lay this out there and do what we all 
believe is the right thing to do, and that is to stop species 
from becoming extinct to the best of our ability and to have us 
be good stewards or better stewards of the environment of the 
ecosystem that we have, we could do that. We really could.
    I mean, if you look at Congressman Walden's bill, if you 
look at Congressman Cardoza's bill, that is an honest attempt 
at trying to fix what some of the problems are in the 
Endangered Species Act.
    If it is all about saving endangered species, we can reach 
a point of consensus where the scientific community, the 
private-property owners, the cities and counties across the 
country could reach a point where we could all survive, and we 
could do a better job of recovering species, have less conflict 
with property owners. We could do that.
    But in order to accomplish that, you have got to take those 
that profit from this conflict out of the equation. That is the 
problem that I have had for the last 12 years I have been in 
the House of Representatives is trying to take those who profit 
from this conflict out of it, because they have an incentive in 
keeping this going.
    You know, you talk about science, we could have better 
science. I do not care if you are coming from the environmental 
side or the property owners' side, nobody likes what Fish and 
Wildlife is doing, their decisions, they are basing on--the 
science they are basing their decisions on right now. Nobody 
likes that. I mean, it is a horrible way of trying to move 
forward. If we were able to sit down and work out a science 
bill that improves the level of science that decisions are 
being made on, we could get there.
    You talk about using the political process because of the 
Endangered Species Act. I will tell you why that happens, and 
it happens on both sides. It is because the Act has become the 
preeminent law of our country. There is not a single function 
of the Federal Government that takes precedence over the 
Endangered Species Act.
    I would challenge you to name any that take precedence over 
the Endangered Species Act. I do not care if it is national 
defense. I do not care if it is the survival of us as a nation. 
There is nothing that takes precedence over the Endangered 
Species Act.
    And because of that, people have turned to Congress and 
said, either grant us a special favor to get around this law, 
which the Department of Defense has had to do, or people will 
come and say we do not want growth outside of our community, we 
do not want any new dams built, we do not want any more timber 
harvests, we do not want any more mining, whatever their issue 
of the day is.
    The easiest thing in the world for them to do is find an 
endangered species that will stop it. I have seen it happen in 
my district. I have seen it happen all over the west, and we 
are beginning to see it happen on the East Coast now. The law 
has become that effective. It really has very little to do with 
recovering endangered species, and that is what drives me crazy 
with this thing.
    You know, if my ranch is so important as survival of an 
endangered species, then buy it from me. You know, take it. 
Either work out a deal with me so that I manage it to recover 
that species, or just buy it from me. But do not restrict my 
activities to the point where I cannot make a living on it 
anymore.
    I said I am fifth generation. I would love for my kids to 
have the opportunity to do what I am doing. But this is not 
happening under the way the law is being implemented. Yes, I am 
determined to change it. Because it is not about me and what is 
going to happen in the few years--whatever years I have got 
left on this earth--but it will affect my kids and my grand 
kids. I care about that, and I will continue to fight to change 
this.
    I yield back, Mr. Chairman.
    Mr. Walden. The Chair recognizes the gentleman from 
Arizona, Mr. Flake.
    Mr. Flake of Arizona. Thank you, Mr. Chairman.
    Before I ask a question, I just want all of those who are 
in attendance to know that the Chairman of the full Committee 
and the Chairman of the Subcommittee are working hard, as you 
can see now, to bring some kind of resolution to this and to 
move forward in a way that benefits both endangered species and 
the economic health of communities and people's way of life. 
And I am a new guy at this. I am going to be entering my third 
term, but I have seen it. I have been on the Resources 
Committee my entire time there, and it is a joy to watch these 
gentlemen lead these committees and do it in a way to make sure 
that everybody's goals are met.
    Just a question for Speaker Flake, with regard to the tax 
incentives at the State level, have we seen any activity from 
private companies that might benefit from those incentives?
    Mr. Flake. The first one right now is being worked out with 
biomass, and they are calling it a co-gen plant in Snowflake, 
Arizona, next to the Euro Fresh Tomato Plant where they will 
use biomass to fund the plant and to heat during the wintertime 
the tomato plant. That is in that stage right now. Now that the 
new stewardship contract that has been let out by the Forest 
Service, I think we will see a lot of tax incentives that the 
State has offered with that. That is in the infant stage right 
now, but I think we will see a lot from these stewardship 
contracts.
    Mr. Flake of Arizona. Dr. Warshall, with regard to--to take 
an example of what is being proposed by some of the 
environmentalists, diameter cap, is that something you support?
    Dr. Warshall. What I would like to see--I listened to that 
very carefully. There is a big difference in the Southwest--and 
I am going to speak as a Southwesterner--between ponderosa pine 
and spruce fir forests. And depending on the kind of the 
forests and its age structure--and that is what you are talking 
about--that the diameter is a reflection of age structure, it 
depends on the species that you are trying to protect.
    On the Mount Graham red squirrel, we are trying to get a 
canopy closure of 80 percent. If you can get that canopy 
closure to protect the squirrel because it is at its 
southernmost place and tends to be fried with global change, 
then do it with whatever diameters you need to get the 80 
percent.
    The goal is not a diameter cap. I agree with you there. But 
there is an ecological goal, and the goal is closed canopy 
forests. And it varies with the Mexican spotted owl, varies 
with all the fish to keep the temperatures of the rivers at a 
certain level. So there shouldn't be any one rule, because 
there are too many kinds of forests.
    Mr. Flake of Arizona. But you use as mechanisms to achieve 
you goal diameter caps?
    Dr. Warshall. Only in particular forests for particular 
reasons.
    Mr. Flake of Arizona. Doesn't that go completely against 
your call for sound science? Because I don't know of any 
science that says 21 inches, is it? That is more of a political 
statement than it is science.
    Dr. Warshall. The science should define the multi-stemmed 
diameters depending on the species and the kind of forest. And 
that--I mean, this is a long discussion, because it is forest 
by forest. And a forest down south here is different from a 
forest up in Flagstaff. So that is the difficulty of the 
Endangered Species Act, is that everything is so specific. It 
is true for ranching as you change grasses. It is true for 
forestry. And how to reconcile the specific habitats that 
endangered species live in, be it Southwest flycatchers, and 
how to reconcile that with a cookie-cutter kind of law is very 
difficult. And I am--it is a really long conversation, and I 
think it can be done. One of the problems has been interagency 
cooperation and the amount of time it takes to get good 
scientists involved.
    Mr. Flake of Arizona. Thank you. And I appreciate this 
hearing. I appreciate the testimony of Speaker Flake. I mean, 
that is something I have lived. And probably the worst thing 
about the Endangered Species Act is that it made ranchers like 
me into politicians, and that is probably unforgiving. But I 
really appreciate being here and hearing the testimony, and it 
has been a great group.
    And with that, I yield back.
    Mr. Walden. The Chair recognizes our host and the gentleman 
from Arizona, Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman. I appreciate your 
testimony, very intriguing, and the time you have spent with 
us.
    Dr. Warshall, you made a comment on the cotton prices and 
competition, and since this valley is vital to the Nation in 
producing cotton, I would offer to you this. In your statement, 
when you say that price competition is what has driven out the 
cotton farmer--
    Dr. Warshall. One of the things.
    Mr. Renzi.--I would offer to you that with China being 
subsidized and their cotton being subsidized by the government 
and that them being allowed to dump that cotton on the world 
market, that that is not real competition and that our cotton 
farmers and ranchers can compete with anybody in the world 
given fair and level playing fields. I think you would agree 
with that.
    Dr. Warshall. I agree with that.
    Mr. Renzi. In looking at your comments and listening to the 
testimony, I get the feeling that you actually favor thinning 
the forest in a healthy, holistic approach and you actually do 
favor thinning in the refugium?
    Dr. Warshall. I think most of the thinning has been done, 
but I haven't been up there since the last fire. So I would 
have to walk the forest to see what my feelings were at this 
point, because I haven't been there since the last big fire.
    Mr. Renzi. The thinning we have heard is 2,300 acres in and 
around the mountain, not so much in the refugium. The natural 
thinning process of beetle kill or the fire, which is what we 
are told in testimony by Mr. Powell, has destroyed almost 90 
percent, is that correct, Mr. Powell?
    Mr. Powell. That is correct.
    Mr. Renzi. Would you favor thinning in the refugium if the 
conditions were acceptable for thinning?
    Dr. Warshall. The recovery team needs to be reorganized 
because there is no outside biologists on it. So it is going to 
become a political football unnecessarily because the U.S. Fish 
and Wildlife Service has refused to allow outside viewing of 
the data.
    Second, I have no problem with thinning after I see what 
the proposal was and after I have walked it myself.
    Mr. Renzi. Do you have a problem thus thinning outside the 
refugium?
    Dr. Warshall. It is being done along Swift Trail in order 
to stop the upward mobility of fire.
    Mr. Renzi. It is being done in such a miniscule manner.
    Dr. Warshall. We don't disagree on that. I think it could 
be done better, but you have to include outside scientists, 
because the Mount Graham controversy is the most bitter 
controversy in all Arizona. The amount of distrust that has 
been thrown into that controversy needs extra special attention 
by the Forest Service and Fish and Wildlife Service.
    Mr. Renzi. More bitter than the wolf?
    Dr. Warshall. Up there. It is squirrels and wolves. I am no 
judge of that.
    Mr. Renzi. Mark, thank you for your testimony. Peter, thank 
you. And I needed to hear it. And I didn't realize that the 
school children had suffered as much. In the end, the kids in 
the communities are the ones who suffer when adults don't seem 
to get along.
    Since I am a Congressman here and we have a local office 
run by Keith, you mentioned the Spearhead Ranch. Mark, what is 
the current status of the Spearhead Ranch in the allotment that 
has been cut back? Do you have an update for us?
    Mr. Herrington. It is the Spear Ranch, Congressman. And 
shortly after the permit was cut in half, the Forest Service 
then told Mr. Bryce that he could only graze the upper reaches 
of that allotment in the winter, which further cut his permit 
in half. Ultimately now, the decision by the Forest Service 
based on the agave and the possibility that a bat would like to 
reside there, no longer can he graze cattle at all in the upper 
reaches of that permit, only horses. So that is the current 
situation.
    So, essentially, how the Endangered Species Act had no 
effect at all upon this man, upon his family, upon his 
livelihood is beyond me. Because, obviously, his son went to 
town and got a job because the ranch was no longer viable at 
all.
    Mr. Renzi. We are looking at introducing legislation called 
the Cattlemen Bill of Rights that will compensate cattlemen 
when the Federal Government cuts their allotment and uses the 
Endangered Species Act as a sword to do that or when the 
Federal Government comes in and does a land exchange and pulls 
our permittees off. And we are hopeful we can get comments from 
the panelists here.
    Mr. Chairman, I want to thank you for the time and thank 
all the panelists today.
    Mr. Walden. I want to thank you, too, for coming down here. 
There has been a lot of information we garnered from this panel 
and the prior panel, and hopefully we can provide some help. I 
want to thank Mayor Rivera and President Bryce; and I want to 
thank our staff as well, Doug Crandall and Ryan Yates, and 
their work in pulling together the hearing and thank the 
Committee members.
    Mr. Renzi, if you have any follow-up comments you would 
like to make.
    Mr. Renzi. I want to thank Chairman Walden, Chairman of our 
Forest Health Subcommittee. Chairman Pombo from California is a 
great leader and Congressman Flake who came down from Phoenix.
    The purpose here was not to gut the Endangered Species 
Act--I mean, even Dr. Warshall admits that it is flawed--and to 
find reform and to find ways to live in a holistic approach 
with species and particularly to preserve the fragile rural 
economies particularly of this district. And I want to thank 
the Mayor and Dr. Bryce and all the community for turning out. 
I want to thank over nine local and State law enforcement 
agencies who are involved today. This couldn't have been done 
without you, and I am thankful for your kindness and support.
    The motive, again, was to bring Washington to the district, 
to allow people firsthand to see an official congressional 
hearing and to participate in a great debate.
    And I want to make reference to some of the schools and 
classes who showed up today. Duncan High School came with their 
teacher, Paul Moore. Thatcher High School with Ramone Morales 
came. Thatcher Middle School with their teacher Dennis Martin. 
Pima High School came with Callem Norton. Bowie High School 
came with Mike Castillo. Triumph Learning Center came with 
Brian Lightner. Conchee Elementary School, hundreds of miles 
away, came down with their teacher Estella Sample. And 
Discovery Plus Academy came with their teacher Donna Bolinger.
    Here it is in the community, allowing you all to speak 
truth to the representatives in Washington, to allow us to hear 
firsthand the dramas and the needs of the land and the species. 
I want to thank everyone who came out today and spent the whole 
two-and-a-half hours with us. Each of you are true patriots.
    Thank you, Mr. Chairman.
    Mr. Walden. The Members may have additional questions for 
the witnesses. We ask that you please respond to these in 
writing.
    The hearing record will be open for 10 days for these 
responses as well as the members of the public who may be here 
today or may be viewing this in some manner. Our record does 
remain open. We do solicit your input as well, and there should 
be some paper and pencils in the back where you can provide 
written comment. Or if you want to do more than that, you can 
go to the Committee's Web site as well to do that.
    If there is no further business before the Subcommittee, I 
want to thank the members of the Subcommittee and our 
witnesses; and the Subcommittee stands adjourned.
    [Whereupon, the Subcommittee was adjourned.]

    [The following information was submitted for the record:]
        <bullet>  National Association of Conservation 
        Districts, Statement submitted for the record
        <bullet>  Parker, Dennis, Attorney at Law, Patagonia, 
        Arizona, on behalf of Eddie Johnson and the Johnson 
        Ranch, Letter submitted for the record
        <bullet>  Pope, Irwin, Peridot, Arizona, News release 
        submitted for the record
        <bullet>  Schneberger, Laura, Gila Livestock Growers, 
        Winston, New Mexico, Letter submitted for the record
        <bullet>  Zybach, Bob, Corvallis, Oregon, Letter 
        submitted for the record

    [A statement submitted for the record by the National 
Association of Conservation Districts, follows:]

               Statement submitted for the record by the 
             National Association of Conservation Districts

    The National Association of Conservation Districts (NACD) is the 
nongovernment organization that represents the nation's 3,000 
conservation districts and the more than 16,000 men and women--district 
officials--who serve on their governing boards. Conservation districts 
are local units of government established under state laws to carry out 
natural resource management programs at the local level. Conservation 
districts work with a number of federal, state and local agencies and 
organizations to provide technical, financial and other assistance to 
millions of landowners and operators to help them manage and protect 
the nation's land, water and related natural resources. Conservation 
districts provide the linkage for delivering many federal, state and 
other local natural resource programs at the local level.
    Nonindustrial private forests (NIPF) cover more than 350 million 
acres in the US-nearly 90 percent of our private forest land acreage 
and about 45 percent of all forest lands. These lands contribute 
significantly to the quality and quantity of our water, air, wildlife 
habitat, recreational resources and timber supplies.
    According to the U.S. Forest Service, approximately 75 percent of 
all listed species occur to some extent on privately owned lands-much 
of that being the nation's private forest lands. Thus, private 
landowner participation in endangered species conservation is critical 
to successful species recovery.
    While the original intent of the Endangered Species Act (Act) act 
was to provide a means to protect ecosystems that serve as habitat for 
threatened and endangered species with the ultimate goal of conserving 
those species, it is an extremely complex and often confusing law 
subject to broadly divergent interpretations. Even those charged with 
overseeing the law often find it confusing and difficult to administer-
permit application, critical habitat and recovery plan review involve 
cumbersome and time-consuming processes.
    In some cases, administration of the Act, we believe, has 
encroached on property rights to a far greater degree than Congress 
intended. In the case of agriculture, in some cases it can bring an 
operation virtually to a halt without considering management options 
that could bring a producer's activities into harmony with the needs of 
a species. We do not believe this was the intent of the framers of the 
Act.
    Several amendments to the Act have been made to offer relief to 
landowners such as exemptions under certain circumstances from altering 
habitat or allowing limited takings if the landowner carries out 
mitigation and enhancement activities. However, these exemptions are 
rarely granted; and, the mitigation and enhancement activities required 
are often so stringent as to effectively exclude smaller landowners 
from meeting the requirements to obtain an exemption.
    Conservation districts strongly support protecting and conserving 
the diversity of plant and animal species and believe that it is 
essential to do so to maintain a balanced and healthy ecosystem. 
However, we believe there are better ways to achieve this than through 
a strict and burdensome regulatory process. A comprehensive approach, 
emphasizing total resource management will help to ensure habitat 
protection for all species and minimize the need to list additional 
species. Protection measures for threatened and endangered species must 
consider not just the target species themselves but also the social and 
economic values of private enterprise and respect for private property 
rights.
    In several areas of the country voluntary conservation and 
management activities are underway that are resulting in increases in 
populations of endangered or threatened species or those potentially in 
jeopardy. In Washington State, for example, the Foster Creek 
Conservation District in Douglas County is spearheading an effort begun 
in 2000 to develop and implement a Habitat Conservation Plan (HCP) for 
the county. The goal of the plan is to help the Douglas County 
agricultural community into compliance with the Endangered Species Act. 
Conservation district leaders have been working with key federal 
agencies responsible for administering the Act-the U.S. Fish and 
Wildlife Service and NOAA Fisheries-to bring the plan into reality. As 
a result, the county has gained valuable information about its local 
wildlife resources, taken a leadership role in bringing stakeholders 
together and will have a draft plan in place early next year.
    With adequate financial and technical assistance made available to 
help landowners and operators undertake voluntary, comprehensive, 
ecosystem-based habitat management activities such as the efforts 
described above, much can be done to conserve species in a positive 
manner and not only preclude the need for listing of species, but also 
to help recover species that are already at risk.
    The Administration and Congress appear to be receptive to 
suggestions for changes in current policy and rule making 
responsibilities relative to the Endangered Species Act to emphasize 
and strengthen the positive aspects of America's forestry-based 
industries. Both the legislative and rule-making processes for the ESA 
need to take into consideration the economic impacts of its 
requirements. Conservation districts are ready and willing partners in 
such efforts.
    We appreciate the opportunity to provide our views on forestry and 
the Endangered Species Act.
                                 ______
                                 
    [A letter submitted for the record by Dennis Parker, 
Attorney at Law, Patagonia, Arizona, on behalf of Eddie Johnson 
and the Johnson Ranch, follows:]

                             Dennis Parker

                            Attorney at Law

                             P.O. Box 1100

                        Patagonia, Arizona 85624

                  Telephone/Facsimile: (520) 394-0286

                           September 20, 2004

Mr. Doug Crandall, Director
Subcommittee on Forests and Forest Health
U.S. House of Representatives
Committee on Resources
1337 Longworth House Office Building
Washington, D.C. 20515

Re:  Issues Affecting Rural Communities in the Southwest--National 
Forest Management and the Endangered Species Act: The Forest Service, 
Southwest Willow Flycatchers, and the Johnson Ranch--A Case Study of 
Endangered Species Act and Private Citizen Abuse

Dear Director Crandall,

    I am an attorney representing Mr. Eddie Johnson and the Johnson 
Ranch. However, the tragic story I am about to tell begins before I 
became an attorney. While this story actually begins with the 
fundamentally flawed listing of the Southwestern Willow Flycatcher 
under the Endangered Species Act a decade ago, for the purpose herein 
it begins when, as an independent biological consultant, I conducted 
surveys for these flycatchers on the Johnson Ranch for Mr. Johnson in 
2002.
    At that time, Mr. Johnson had been prevented from using two key 
pastures on his ranch--the Lower Chalk and Yearling pastures--by the 
Tonto National Forest for nearly five years because ``potential'' 
habitat for these flycatchers had already been identified within them. 
It apparently mattered not to the Tonto that the exclusion of livestock 
from these pastures on the mere basis of ``potential habitat'' 
identification was unlawful based on the 9th Circuit Court of Appeals' 
decision in Arizona Cattle Growers' Association (2001). Neither did it 
seem to matter to the Tonto that these flycatchers had not been known 
to inhabit any area within either of these pastures prior to 2002. 
Instead, the Forest Service used policy making in the attempt to get 
around the Court's decision altogether. The Forest Service did so by 
quietly developing a ``Grazing Guidance Criteria'' for its Southwest 
Region.
    Dated April 15, 2002, this ``criteria,'' among other things, 
excluded all livestock presence from potential, non-potential and 
occupied flycatcher habitat--within two miles of occupied flycatcher 
habitat if an ``agency approved'' cowbird trapping program was in 
place, and within five miles of occupied habitat if such wasn't. The 
reason given by the Forest Service for this draconian restriction on 
Mr. Johnson's and other National Forest livestock permittees' 
livelihoods was the Forest Service's baseless claim of increased threat 
of cowbird parasitism posed to these flycatchers by the mere presence 
of livestock within 2-5 miles of their occupied habitat.
    To facilitate this draconian restriction, the Forest Service 
intentionally omitted all studies regarding these flycatchers, cowbird 
parasitism, and livestock presence conducted after 1996 by its own 
Rocky Mountain Research Station. Those studies, conducted on the U Bar 
Ranch in New Mexico over the last 8 years, revealed that the largest 
known population of Southwestern Willow Flycatchers actually occurs 
smack dab in the midst of a working cattle ranch--where rates of 
reproductive success rates for these flycatchers are the highest known 
and rates of cowbird parasitism on these flycatcher are the lowest 
known for this species!
    Back in 2002, however, very few Forest Service livestock permittees 
even knew about Region 3's ``Grazing Guidance Criteria,'' let alone its 
institutionalized bias regarding livestock grazing and willow 
flycatchers. This is because the Forest Service had adopted this 
criteria as an agency policy--without any input whatsoever from the 
regulated public (National Forest livestock permittees) that would be 
substantially and negatively impacted by it--in direct violation of the 
Administrative Procedure Act. To make matters worse, by the Spring of 
2002, the U.S. Fish & Wildlife Service had adopted its own agency 
policy of actively restricting where private, permitted flycatcher 
surveyors could conduct surveys for the presence of these birds. This 
was the situation I walked into when, fresh out of law school and prior 
to taking the bar, I contracted with Mr. Johnson to survey for the 
presence of Southwestern Willow Flycatchers on his ranch.
    Located in the picturesque setting of central Arizona along the 
Verde River and Horseshoe Lake, the Johnson Ranch spans elevations from 
Saguaro forest at its headquarters to high, conifer clad peaks. High 
calf crops were the norm on the Johnson Ranch due to diligent 
management of the range, abundant water, and its long-acclimated core 
cow herd. By the spring of 2002, however, ongoing drought in Arizona 
was entering its sixth year and Horseshoe Lake had receded to nothing 
more than the narrow ribbon of the Verde River running through the 
middle of its huge but now totally dry lakebed.
    At the dry upper end of the now dry lake, young Goodding Willows 
and Fremont Cottonwoods had come in by the thousands in an area that 
before the drought would have been deeply submerged under what would 
normally have been part of the lake. These stands of cottonwood and 
willow were only able to colonize this area of Horseshoe Lake because 
of the drought, and by the spring of 2002, willow flycatchers began 
colonizing this area as well. As I was soon to learn, however, the 
presence of flycatchers in this area was of serious concern not only to 
the Johnson Ranch, but to other entities as well.
    In the spring of 2002, these other entities, particularly the Salt 
River Project, the Bureau of Reclamation, the Fish & Wildlife Service, 
the Forest Service and the Arizona Game and Fish Department were deeply 
concerned by the possibility of flycatchers colonizing Horseshoe Lake. 
These collaborative entities were also surveying this area of the 
Johnson Ranch's Lower Chalk pasture because if the flycatchers were 
actually occupying habitat that would normally be submerged under 
Horseshoe Lake, then Salt River Project's ability to operate Horseshoe 
Dam would be substantially and expensively affected because of the 
mitigation that the Project would have to provide as a result.
    While the flycatchers were in fact found to be occupying this area 
by both the Salt River Project et al. and myself, incredibly, the 
locations of these birds were mapped by the former as being upstream of 
the high water mark of the lake. My surveys, however, established that 
these mapped locations were inaccurate and that the flycatchers were in 
fact actually occupying habitat within what would normally be part of 
the upper end of Horseshoe Lake. Moreover, my surveys revealed that 
while there were no flycatchers upstream of this area on the Johnson 
Ranch, these flycatchers were in fact occupying habitat below Horseshoe 
Dam--at the Forest Service's Mesquite Campground--an area that the 
aforementioned collaborators had not even bothered to survey at all.
    As I was to eventually learn, this news was not well received by 
either the Salt River Project or its government agency collaborators. 
In short order, I was threatened with the possible loss of my ability 
to conduct future flycatcher surveys by the Fish & Wildlife Service for 
not coordinating my surveying efforts with that agency. Apparently, the 
Fish & Wildlife Service viewed my surveys as duplicative and in 
violation of its rules regarding the conducting of flycatcher surveys. 
Upon informing the Service that my surveys were subject to prior 
contractual arrangement and after promising to coordinate my surveys 
with this agency in the future, the Service apparently concluded that 
the official letter of admonishment it had already sent me in this 
matter was sufficient.
    My 2002 surveys had revealed, however, more than the locations of 
these birds. These surveys had also revealed that both areas of 
flycatcher presence at Horseshoe Lake were vulnerable to loss: at the 
upper end of Horseshoe Lake by inundation and the threat of stochastic 
wildfire posed by the tremendous build-up of fuels brought about by 
arbitrary, Forest Service imposed livestock exclusion for nearly five 
years, and below the dam by the threat of stochastic flooding should 
the drought end, the lake fill, and the Salt River Project be forced to 
release substantial amounts of water from the lake.
    To address these threats to the flycatchers, the Johnson Ranch 
proposed to create protected habitat for these flycatchers along its 
nearly 2 and one-half miles of irrigation ditches and returns on its 
private land. Additionally, the Johnson Ranch proposed the renovation 
of decadent habitat well upstream of the high water mark of Horseshoe 
Lake, at Eister Flat within the Lower Chalk pasture, for inhabitance by 
these flycatchers. Finally, the Johnson Ranch also proposed that 
currently occupied habitat below the Dam at the Mesquite Campground 
within the ranch's Davenport pasture be protected to withstand 
stochastic flooding. At all areas other than Eister Flat, livestock 
grazing was proposed as a tool to minimize the threat of habitat loss 
to stochastic wildfire. This proposal was flatly rejected by the Forest 
Service. Indeed, only one line officer in the Regional Forester's 
office, Mr. Dave Stewart, actually went on record in throwing his 
support behind this proposal.
    Instead, the Forest Service ordered the removal of all of Mr. 
Johnson's cattle from the Sears-Club / Chalk Mountain Allotment, 
allegedly because of the drought. Moreover, by early February of 2003, 
District Ranger Delvin Lopez of the Tonto National Forest's Cave Creek 
District was relying exclusively on the flycatcher/livestock/cowbird 
information contained in the Forest Service's April 15, 2002, ``Grazing 
Guidance Criteria'' for justification of his continuing, permanent 
exclusion of Mr. Johnson's livestock from the Lower Chalk and Yearling 
Pastures of Mr. Johnson's Sears-Club / Chalk Mountain Allotment. 
Concurrently, District Ranger Lopez was relying on this same 
information to prepare an Environmental Assessment of livestock grazing 
on the Sears-Club / Chalk Mountain Allotment for purposes of grazing 
permit renewal. In fact, Mr. Lopez was only days away from releasing 
his draft Environmental Assessment for public review under NEPA when 
Mr. Johnson put a halt to the process by filing a Data Quality Act 
Request for Correction of the information contained in the grazing 
guidance criteria on March 25, 2003. (see attachments)
    Over a year later, on April 20, 2004, the Forest Service ultimately 
rejected Mr. Johnson's DQA petition without ever addressing its merits! 
According to the Forest Service, it didn't have to do so because it 
never intended to, or actually did, ``disseminate'' the Grazing 
Guidance Criteria at issue to the public. In other words, the Forest 
Service's provision of this criteria to Mr. Johnson's agents did not 
count as ``dissemination'' to the ``public'' because we were ``an 
extremely limited number of individuals.'' Moreover, its provision of 
this same criteria to both the Arizona and New Mexico Cattlegrowers 
Associations didn't count as ``dissemination'' to the ``public'' either 
because the Forest Service does not view these associations as 
``related to a community or aggregate of people!'' Finally, the Forest 
Service refused to address the merits of Mr. Johnson's petition 
because, even though this information was relied on specifically by the 
District Ranger to exclude Mr. Johnson's livestock from substantial 
areas of his ranch, it was merely ``advisory'' information and ``not 
intended to,'' and did ``not provide, allotment management direction!'' 
(see attachment).
Epilogue
    In May of 2004, the Forest Service adopted a ``revised'' grazing 
guidance criteria for Region 3, thus rendering Mr. Johnson's further 
appeal of the 2002 grazing guidance criteria moot. No mention of the 
Forest Service's own studies regarding livestock, willow flycatchers 
and cowbirds is contained in this new criteria either, and the 
restrictions now ``recommended'' in regard to such remain draconian in 
nature.
    In 2003, none of the government entities associated with the Salt 
River Project, or the Salt River Project itself, willingly conducted 
surveys for willow flycatchers below Horseshoe Dam at the Forest 
Service's Mesquite Campground. Instead, these collaborators surveyed 
across the river from the campground--including Mr. Johnson's private 
land which they surveyed without his permission--despite the fact that 
the precise locations of these birds on the west side of the river were 
known to them based on my 2002 report to the Fish & Wildlife Service.
    When queried by Mr. Johnson as to why they hadn't surveyed the 
Mesquite Campground, Mr. Paul Cherrington of the Salt River Project 
replied that they didn't do so because my survey work was viewed as 
lacking credibility by the government agencies with whom the Project 
was associated. Mr. Johnson responded to this weak excuse by demanding 
that the Forest Service verify, on-the-ground, whether or not these 
flycatchers were present at the Mesquite Campground. Mr. Tod Willard, 
District Biologist for the Tonto National Forest's Cave Creek District, 
immediately met with me at the Mesquite Campground. Mr. Willard 
verified that the flycatchers were in fact there in 2003.
    My credibility, and by association, that of the Johnson Ranch, was 
thus vindicated. The same, however, cannot be said for either the Salt 
River Project or its government agency collaborators.
    In 2003, Salt River Project allowed Horseshoe Lake to fill, 
inundating occupied willow flycatcher habitat. Not so much as a squeak 
was heard from the Project's government agency collaborators. In 2004, 
with the lake once again dry, it was found to the amazement of many 
that the trees which comprise this habitat were, nevertheless, still 
alive.
    Currently, livestock remain unlawfully excluded from the Lower 
Chalk and Yearling pastures by the Tonto National Forest for over seven 
years now. Occupied flycatcher habitat remains unprotected and as 
vulnerable as ever to destruction, while Mr. Johnson's ranch continues 
to remain totally de-stocked. This is but one of many sad and tragic 
examples of the current nature of National Forest management and the 
federal Endangered Species Act.

Sincerely,

Dennis Parker,
Attorney Representing
Mr. Eddie Johnson and
the Johnson Ranch
                                 ______
                                 
    [A news release submitted for the record by Irwin Pope, 
Peridot, Arizona, follows:]

     Apache Survival Coalition, P.O. Box 1237, San Carlos, AZ 85550

                          www.MountGraham.org

News Release, Sept. 20, 2004
   apaches hit congressman renzi for spurring desecration of sacred 
                                mountain
    Safford, Sept. 20, 2004. Apache Survival Coalition Chairperson Ola 
Cassadore Davis declared that Congressman Renzi's anti-endangered 
species Congressional Field Hearing showed his support of unprincipled 
developers like the University of Arizona astronomers-at the expense of 
Apache religious life and Apache family values. Cassadore Davis 
condemned Renzi's efforts to remove endangered species protections from 
the Mt. Graham Red Squirrel and to thin and clear-cut the summit forest 
surrounding UA's observatory. She said: ``How would Congressman Renzi 
like to have the hair on the top of his head thinned and parts of his 
hair chopped out. That's a pretty sacred place to him, I would guess. 
But he disrespects places that are sacred to us. Renzi should see the 
fire on top of Mt. Graham in July as a warning from God.''
    Cassadore Davis continued: ``Congressmen like Renzi would sacrifice 
sacred places in order that developers can destroy the forests, rivers, 
mountains and special places of this country. The reason our endangered 
fish and wildlife animals are now endangered is because unscrupulous 
developers backed by people like Renzi. Renzi and the astronomers on 
Mt. Graham look up at the stars but they don't look down at their feet 
to see what they have destroyed on the earth beneath them.''
    The Apache elder continued: ``Mt. Graham is an example of that sort 
of uncaring destruction. White biologists tell us our sacred mountain 
is unique. It has more vegetation life zones than any other mountain in 
North America, and that its forest at the summit is the southernmost 
spruce-fir forest in North America. We Apache also know this place is 
unique. It has been spiritually a part of us for centuries. But people 
like Renzi don't care about anything except the money that can be made 
from those places.''
    ``Look at the severely endangered animal like the Mt. Graham Red 
Squirrel, now down to just a few hundred individuals before the recent 
fire. Congressman Renzi and Congressman Kolbe and others want to make 
them go extinct so UA build a city of telescopes on the mountain. If it 
hadn't been for the squirrel, UA would have by now built a city of 
telescopes all over the summit of this sacred mountain.''
    Raleigh Thompson, retired San Carlos Apache Tribal Council member 
said: ``This disregard for people and animals is the way the White Man 
has treated Indians since the 19th century. Dzil NCAA Si An (Mt. 
Graham) has been part of our tribal homeland for centuries. It was also 
part of the original reservation land given to us in 1871. But when 
early settlers and squatters came into our rich lands, they convinced 
the federal government to take Dzil NCAA Si An away from us. They 
wanted it for its water, lumber and other resources. They took our 
fertile Gila River valley from us too, a place where the reports of the 
early federal Indian Agents said we grew corn and other crops for as 
far ``as the eye could see.'' Congressmen just like Renzi have since 
1871, on five separate occasions, dismembered about two thirds of our 
original Apache reservation's acreage.''
    ``No wonder we are poor. They stole the best parts of our land. 
Congressmen like Renzi don't care if we go extinct any more. than they 
care if the Mt. Graham Red Squirrel goes extinct. As long as 
Congressmen like Renzi are around to serve rich and powerful developers 
by attacking the country's cultural and environmental protection laws, 
endangered species problems will continue. How would Renzi like us to 
go to his Church and set up a rodeo or casino beside it or put an 
Indian crafts shop on top of his Church's high altar? What he is doing 
to our mountain and its endangered red squirrel is no different.''
    San Carlos Apache elder Erwin Rope observed: ``While the 
$200,000,000 taxpayer financed telescope project creates some temporary 
jobs, it creates very few permanent jobs. According to the official 
Forest Service/Arizona Department of Transportation studies, it will 
only create 33 Tucson jobs and 30 Safford jobs at most. That is an 
extremely inefficient and wasteful way for anybody to help local 
communities.''
    Mike Davis, Apache Survival Coalition member and Native American 
stated: ``We Indians respect and honor the intent of our Great 
Spirit,--for animals to live on this planet. It is wrong to abandon 
endangered animals that need our help as desperately as the Mt. Graham 
Red Squirrel.''
    For info: Ola Cassadore-Davis, tel. (928) 475-2543, fax (928) 475-
2074; Raleigh Thompson (928) 475-2595, Erwin Rope 928 475-5680, Mike 
Davis 928 475-2543.
    For more info see: www.MountGraham.org
    For the ``Record of Apache Opposition 1989 to 2001'' see: http://
www.mountgraham.org/pdf/
RecordofApacheOpnositiontoMtGrahamobservatory,l989to2O01.pdf
                                 ______
                                 
    [A letter submitted for the record by Laura Schneberger, 
Gila Livestock Growers, Winston, New Mexico, follows:]

        Statement of Laura Schneberger, Gila Livestock Growers, 
                          Winston, New Mexico

    Hybridism is a problem in reintroduction of predator species 
especially so in canine species. Yet the Agencies pretend the problem 
is non-existent or worse that it will have no bearing on pure species 
or critical habitat.
    While FWS claims that ranchers have no standing over claims that 
hybridism will harm them and that we will not suffer injury, the truth 
is far different. For example, if male Mexican wolves are breeding with 
female coyotes as is scientifically documented and happening now in the 
red wolf program and Adirondack wolf populations, and confirmed in the 
studies of biologists and geneticists in violation of the ESA. That in 
writing reintroduction and recovery plans the agencies simply ignore or 
downplay this wide spread documented problem everyone from every walk 
of life suffers injury. Seldom is any scientific analysis or planning 
developed to deal with a hybrid swarm issue since the agencies simply 
will not admit it happens more regularly than their current thinking 
permits. People aren't the only species affected by this arbitrary 
discounting of facts, a predator reintroduction carried out with no or 
poor planning causes irreparable harm to and loss of the habitat 
allocated to the endangered animal. This action or non-action on the 
part of federal agencies is fraudulent implementation of the ESA.
    The FWS does not agree with (rancher and citizen groups) that the 
Mexican wolf/coyote hybrids that potentially exist in the wilds of the 
BRWRA will inflict lasting damage to the original gene pool of the 
Mexican wolves that exist in the wild and create a super coyote species 
that will breed with any future released Mexican wolves thereby 
destroying the habitat for pure Mexican wolves. However, proof exists 
in the red wolf program and the agency has no plan for hybrid free 
zones as they do in the red wolf reintroduction. Hybrids potentially 
have the capacity to inflict much higher wildlife and livestock 
depredation than FWS has previously estimated or ranchers can now count 
and attribute to pure Mexican Wolves.
    While normally, wolves chase coyotes away from their territory or 
attack and kill them. Dispersing males that are seeking mates will 
actively breed and create hybrid pups with female coyotes. FWS have 
consistently ignored this well documented concern in their EIS and EA. 
Nor have they made any genuine attempt to address these concerns in 
light of recent hybridization of the Pipestem litter of 2002. FWS has 
made no attempts to determine the extent of hybridization of wolves 
with coyotes in the BRWRA especially in areas not saturated with pure 
wolves where numerous wolf-like animals have been sited and documented 
but not investigated by USFWS.
    Robert K. Wayne, biology professor, University of California at Los 
Angeles elaborates. When the picking's poor, a male wolf will mate with 
a female coyote. Their offspring live and reproduce. Apparently, male 
coyotes don't mate with female wolves. At least, their offspring don't 
survive.
    However, the existing documentation on the Pipestem hybrid litter 
proves that female wolves can and will breed with other canines and 
produce surviving litters. The Pipestem female was firmly mated with a 
male Mexican wolf at the time of the hybrid conception. However, the, 
male wolf was apparently not with her when she was in heat instead, 
cavorting some 5 miles away from the female during breeding season. FWS 
has made no move to capture coyotes in this area and DNA test them for 
Mexican Wolf genes. There is no other reason that a male wolf would 
leave its mate during breeding season unless;
    A.  She was already pregnant.
    B.  It was attracted by other females (dogs, coyotes or wolf 
hybrids) in heat.
    Brian Kelly USFWS Mexican wolf recovery coordinator has stated in a 
public meeting in Catron County that he believed there to be hybrid 
wolves in the area frequented by the Pipestem wolves. Ranchers in the 
area reported sighting feral dogs at the time breeding season was 
occurring. FWS never fully investigated the hybrids, feral dogs or the 
offspring of coyotes in the range of the Pipestem male. They made no 
attempt to determine if the male wolf was creating hybrid coyotes at 
the same time the female was creating a hybrid litter of pups.
    FWS is notified when wolves are sighted in areas out of the BRWRA 
and to the far east of the Blue Range Wolf Recovery area and they do 
little to investigate the sightings of wolf-like creatures.
    FWS has not verified the existence of these animals as pure Mexican 
wolves, even when there is photographic evidence that show they are not 
coyotes or dogs and have wolf-like characteristics, never seen in the 
wild before the reintroduction program began. FWS has been known to fly 
over the area and then state that no collar signal was picked up. There 
is nothing more done about these sightings than an occasional flight 
and or a phone call. These mystery animals are usually seen in mid to 
late winter but not as much in summer months. About the time period 
when young wolves would disperse and hunt for mates. Whether these are 
purebred juvenile Mexican wolves dispersing from the Arizona 
population; individual animals from the 16 missing but documented and 
collared wolves; or are hybrid wolves is still not verified. FWS seems 
to not want to know what they are. There have been sightings of both 
collared wolves and uncollared wolves in the mid and eastern Sierra 
County area. I can only imagine the extent of the mystery wolf syndrome 
west of the reintroduction area.
    Mystery wolf sightings in my area include Roberts ranch Winston NM 
Sept 2004, Animas Creek July 2004 Scales canyon Black Range July 2004, 
Datil area Catron County late winter 2004; Percha Creek in Sierra 
County winter 2002, Datil Area of Catron County 2001, Winston area of 
Sierra County 2002; Magdalena area of Soccorro County and the Winston 
area of Sierra County. Zuni mountains fall 2002; FWS did very little to 
confirm or deny the sightings.
    Of all the current wild-conceived and wild-born pups trapped and 
DNA tested, NONE, have been trapped east of the AZ line. FWS claims 9 
have been trapped and tested, in reality, very little effort is made to 
comply with the EIS and trap young wolves for collaring and 
vaccination. Including the Pipestem litter, 14 pups have been DNA 
tested since the hybrid litter was discovered. Of those 14, 5 were 
hybrids. Of those 14, the 5 hybrid pups were not in an area already 
saturated with Mexican Wolves.
    The 9 non-hybrids were trapped in a Mexican Wolf saturated area of 
Eastern AZ in the Blue Mountains. FWS no longer make a real effort to 
trap and identify young wolves and have not done so for at least 3 
years. Trapping of the 9 supposedly pure young wolves was the result of 
FWS trying to stop depredation on cattle not to trap young wolves for 
vaccination testing and collaring that the EIS states will happen. 
Wolves and wolf like creatures are not investigated, or trapped east of 
the Arizona line.
    In fact, if ranchers had not insisted on the removal of the 
Pipestem wolves for livestock depredations, the hybrid pups would still 
be in the wild. Very little is being done to determine if pure Mexican 
wolves are expanding across the BRWRA even though many wolf sightings 
have been reported to the agency.
    Interaction between solitary wolves and coyotes is becoming 
prevalent. Prior to her death, MW 592 was caught sharing a calf carcass 
with a group of coyotes. Though it was not breeding season she was once 
again a lone wolf and apparently ought out companionship. There have 
been sightings on the San Carlos reservation of coyotes and wolf like 
animals running together.
    In New Mexico, the Gapiwii pups from 2003 have yet to be confirmed 
as Mexican wolves. They had a set of firmly bonded Mexican wolf parents 
but were living in the vicinity of other canines including ranch dogs 
and frequented the ranch to harass the dogs. The Alpha male of the 
Gapiwii pack was recently killed and the female as well as her 02 
offspring have been seen running with a large dog-like animal that is 
not a wolf. Jan and Feb 03 brought about breeding season. The Gapiwii 
female has since found a new mate and has a litter of 2004 pups, 
however, no one really knows what they are and the male she is now 
running with was not with her during mating season, but the dog was.
    There are 16 missing purebred wolves. Collared and uncollared that 
FWS cannot find. There are at least 8 2003 litters that have not been 
trapped and identified as pure wolves. There are at least 6 litters 
from 02 that have yet to be tested and identified as pure Mexican 
wolves. The FWS is allowing lost wolves to colonize the BRWRA and 
beyond with no confirmation that they have mated with pure wolves. The 
program has very nearly or already reached the reintroduction goal of 
100 animals and yet will not count or investigate.
    After removal from the wild in early 03, Francisco alpha female F 
511 was confirmed to be pregnant with wild-conceived pups. The pups 
were confirmed as having been born in a den at Ladder Ranch wolf pens 
however all signs of life disappeared from the den early. FWS claims 
not to know what happened to the pups. When questioned as to whether 
the adults in the den and pen had their scat analyzed to determine if 
the pups were consumed FWS said no, the scat was not analyzed. Still no 
pups, they mysteriously disappeared. (Were they hybrids?) FWS, Wildlife 
services and NMDG&F all seem to have visually confirmed that Francisco 
F 11 was running with a larger wolf-like animal before recapture of the 
pack in the winter of 02&03. This large animal is still being seen in 
and around the San Carlos Reservation and the 4 Drag ranch.
Private Property and Economic Losses
    Where in the law is it written that the party that caused economic 
loss is the sole determining factor that can quantify what economic 
loss is?
    Rancher's livestock depredation statements have been collected 
since the beginning of the Mexican wolf reintroduction. Losses are 
based on years of depredation numbers, pre-wolf compared to current 
depredation and losses after wolf reintroduction. The declarations 
represent decades of professional experiences with livestock 
depredation and compared to their more recent experiences with wolves 
interfering in livestock operations. These are professional assessments 
not layperson opinion. Many of the declarants have college degrees in 
such subjects as animal husbandry, range conservation, pre-veterinary 
medicine. Darcy Ely, one of the declarants, is getting her masters by 
implementing a livestock depredation tagging study.
    FWS employees are not experts in the field of livestock attacks or 
depredation and cannot even legally confirm a depredation, yet; FWS has 
the final word on determining whether property losses are within the 
numbers they set in their EIS.
    FWS employee, John Oakleaf, Mexican wolf coordinator did a 
depredation study from 2001 confirms that rancher #s are more accurate 
than FWS published EIS predictions of losses based on 100 wolves. But 
even though it is the best available science it isn't being looked at 
as far as incorporating new information into the current rule.
    While Defenders of Wildlife have come no where near compensating 
for all Mexican wolf depredations they have, at times, compensated for 
unconfirmed cases of livestock depredation when the evidence was clear 
and irrefutable but still did not meet confirm standards of FWS. Yet 
now it is becoming apparent that the depredation compensation program 
was merely a front to convince the public that ranchers would have some 
protection. See letter A from DOW as evidence that DOW does not intend 
to follow through on obligations to property owners to compensate for 
endangered predator losses beyond a certain time period.
    Wildlife Services the only government entity that is allowed to 
confirm property losses, have testified publicly that smaller calves 
are seldom found or if found are seldom confirmable even though they 
are often killed. FWS does not recognize this inconsistency in their 
current depredation tally. Small calves will only meet rigid 
confirmation standards if found immediately with a wolf pack eating it. 
Even then it is difficult to get a confirmation.
    Gary Ely of the 4 Drag ranch in eastern AZ tallied livestock losses 
from 2002 that were astronomical compared to the 01 losses. In late 02 
and early 03 the wolf pack responsible for depredating on his ranch 
were removed from the 4 Drag area for (management purposes) After their 
removal, Gary's 03 calf crop increased dramatically and was once more 
near the pre wolf numbers. The only factor attributable to the severe 
losses was the fact that the Francisco pack frequented the ranch for 
the duration of 02. Gary and his wife have implemented a tagging study 
to confirm their livestock kills beyond USFWS methods they are being 
assisted by Wildlife Services.
Setting standards and regulations that force other agencies to comply 
        with FWS goals at their expense:
    USFWS have implemented the standards necessary to confirm a 
livestock kill. However, only APHIS, Wildlife services employees are 
allowed to investigate and confirm a livestock kill. They are forced to 
use USFWS standards. Where in law is it written that the USFWS can 
implement standards to determine a livestock kill and then step away 
from the responsibility of investigating and confirming kills within 
those stringent standards thereby sanitizing themselves and staying 
free of criticism.
    There is a conflict of interest in allowing FWS to promulgate 
regulations that force another agency to implement stringent 
depredation standards when FWS have no professional interest or 
expertise in livestock related mortality due to predation. This 
inconsistency is the reason that most wolf caused livestock mortality 
is not confirmed and compensation is not granted to the owner of the 
private property and FWS livestock depredation figures remain so low.
    <bullet>  The ESA needs private property protection provisions 
added to the act.
    <bullet>  The ESA needs compensation provisions incorporated into 
the act. Leaving third party's to contribute to the general fund and 
disallow any further solicitation of funds from the public for 
compensation of losses by predators.
Undue financial Influence on federal programs:
    The new and improved Mexican wolf recovery team is made up of at 
least 60% lifetime wolf scientists and activists, about 35% government 
employees and representatives and 5% sportsmen and agriculture and 
affected interest. Many of the scientists and activists are funded 
privately and many of them are funded by the same private entity. In 
this case, several of the scientists that make up the Technical team 
for the new recovery plan receive paychecks or grant money from the 
Turner endangered species fund. The USFWS lists the Turner Endangered 
Species Fund as a primary contributor to the program; the leader of the 
tech team is the Turner fund executive director. The public and 
agricultural interests are far and away outnumbered by special interest 
and have virtually no input. At this point, economics is a factor that 
has not been brought into the plan at all even though the recovery is 
expanding to include other reintroduction areas. The activists on the 
team, that file USFWS friendly lawsuits also receive grants from the 
Turner Endangered species fund. This is a clear conflict of interest 
and far from the intent of congress when this law was enacted. With a 
private entity using a checkbook to steer a federal program, private 
affected citizens have little input and recourse for poor and biased 
decision-making that only results in social upheaval not the recovery 
of legitimately endangered species.
    Defenders of Wildlife is another example of steering a program 
through checkbook, DOW is a huge corporate Environmental organization. 
If they do not like the way you manage your cattle or the way you feel 
about the wolf program they will withhold reimbursement for dead 
livestock. If they get tired of offering payment for property loss they 
simply send you a letter telling you to sell out and move that cattle 
are no longer a feasible business in a predator filled area. See letter 
A.
    The ESA should be altered to put all private funding into the 
general budget of the interior department and allow the interior 
secretary to decide which programs need funding first and how to 
implement compensation for property losses without strings attached.
    To allow wealthy individuals and powerful non government 
organizations to fund federal programs allows them undue influence on 
how those programs are carried out and allow them to prescribe a plan 
for how best to economically affect a community with a listing, a 
lawsuit, a predator reintroduction, even a public comment. When a Non 
Government organization makes endangered species comments on a private 
businessman operating on private or federal land the agencies have 
gotten used to giving into their demands simply because of the funding 
they provide or the lawsuit they might file. Many of my Livestock 
owners have seen their herds drastically cut or their operating ability 
severely curtailed. They have had to fence off water rights they own 
and should have access to in this dry period. Many landowners have had 
property devalued simply due to a letter over a potential species 
affect. So many times these actions are simply due to one letter from a 
Non Government organization, or worse, a plan authored by a consensus 
group made up of people all funded in one way or another by the same 
checkbook.
    To recap my ESA issues, since I get a bit long-winded at times 
providing examples, they are as follows.
    1.  ESA does not apply to hybrids Agency personnel should not be 
allowed to ignore or protect hybrids or subspecies that they themselves 
have created through faulty application of planning.
    2.  Agency personnel shall not be allowed to implement rulemaking 
that sets standards other agencies must bear the entire cost and 
responsibility for carrying out.
    3.  ESA recovery plans shall not be allowed to accept funding 
directly from private or non government sources such contributions 
should be put into the primary FWS or better yet interior department 
budget, not allowing private entities to earmark funding for individual 
plans this smacks of corruption and helps no legitimate ESA program.
    4.  Special interest groups should not be allowed to control 
planning.
    5.  ESA needs comprehensive private property protection language.
    6.  ESA needs comprehensive compensation program.
    7.  ESA needs requirement that Personnel follow their own 
regulations plans and analysis or risk funding losses.
    I apologize for basing all of my comments on one species, however, 
when faced with a major predator reintroduction and then recovery, the 
implications of bad law become very obvious. I believe my comments can 
also be applied to any other species and still be just as accurate and 
meaningful.
    Thank you for the opportunity to present this testimony.
                                 ______
                                 
    [A letter submitted for the record by Bob Zybach, 
Corvallis, Oregon, follows:]

           Statement submitted for the record by Bob Zybach, 
                           Corvallis, Oregon

    Congressman Walden:
    During the public hearing in Sisters you requested ideas and 
suggestions for a national policy to address the management of federal 
resources during the aftermath of catastrophic events, such as the 2003 
B&B Complex wildfire. Although my background is in reforestation and 
fire history, rather than policy, I think this combination of 
attributes can provide both a theoretical and practical perspective to 
my suggestions, listed below. Also, I believe the timeliness, high 
visibility, political history, and homogenous land ownership patterns 
(mostly federal) of the B&B Complex provides an ideal opportunity for 
testing such suggestions.
    The need for a national ``aftermath policy'' can be readily 
illustrated with the inertia surrounding management of snags that 
resulted from catastrophic forest fires that have occurred on federal 
lands in western Oregon since 1987. Despite the expenditures of 
hundreds of millions of dollars and lessons that should have been 
learned from the Silver Complex before it, more spotted owl and old-
growth habitat was lost in a matter of days, and more snags have 
remained unharvested for years, as a result of the 2002 Biscuit Fire. 
Contrast these results with those obtained by the State of Oregon in 
the management of snags that resulted from the catastrophic Tillamook 
Fires of the 1930s and 1940s, where we now have the beautiful and 
productive Tillamook State Forest.
    From the time of the Tillamook Fires until federal forest 
management policies began to shift from proactive management to passive 
guardianship in the late 1980s, there were no catastrophic forest fires 
in western Oregon. From the time of the Silver Complex until the 
present, numerous resource managers and forest scientists have 
predicted an increased likelihood of greater numbers, area, and 
severity of catastrophic wildfires in western Oregon caused by this 
shift in management policies; and their predictions have come true. Yet 
no detailed plans have been made for the occurrence of these events. 
When the Kalmiopsis Wilderness and much of the Siskiyou Forest was 
transformed in a matter of weeks to a sea of smoking snags in 1987, 
planning started from square one: new environment; new plan. When the 
Biscuit Fire burned through the same areas 15 years later, the process 
was the same: a new planning process was once again initiated for the 
``new'' environment, and activity proceeded at a crawl, hampered at 
every turn by regulated process or litigation. Contrast this with the 
Warm Springs' approach to the management of this year's Log Springs 
Fire, as described by Mr. Brunoe at the hearing.
    Wildfire is not prescribed fire, and is not--by comparison--a 
particularly safe, efficient, economical, beneficial, or aesthetically 
pleasing method of ``returning fire to the environment.'' If we are not 
going to log or use prescribed fire to reduce woody fuels, we must do 
something else with the surplus materials that continue to build in our 
forests, or continue to face the adverse effects of future wildfire 
events. Whether the effects of these events are moderated or not, 
however, they will continue to occur--and the need for some form of 
national policy to deal with them will continue to exist. The 
hurricanes currently affecting Florida provide additional evidence of 
the need for a federal aftermath policy for other types of catastrophic 
events, not just wildfires, and in other areas of the country, not just 
Oregon.
    I think the establishment of a national ``aftermath policy'' along 
the lines described in the following paragraphs would help to resolve 
several of these problems, whether measured socially or ecologically. 
Some of these suggestions incorporate the general process described by 
Mr. Brunoe; where public outreach is constant and near consensus is 
achieved before events occur, so that resource managers can proceed 
quickly and with confidence when they do occur, as illustrated by the 
Log Springs example. Others are more dependent on emerging technologies 
that just now are making it possible to share vast amounts of 
information quickly and cheaply with the general public, resource 
managers, scientists, teachers, and students. All are based on a 
certain amount of practical experience and common sense.
    A national aftermath policy should be implemented immediately at 
the presidential declaration of catastrophic event or other national 
emergency occurring in the US, particularly an event or emergency 
affecting federal lands or resources. The purpose of the policy would 
be to protect lives, protect national security, and protect the 
environment. Actions during and immediately following the onset of 
declared catastrophes or other emergencies would be prioritized 
according to the following options:
    1.  The highest priority would be given to actions intended to help 
maintain human health and safety.
    2.  The next priority would be given to actions that maintain open 
communication and transportation networks, particularly those related 
to national security and humanitarian relief.
    3.  Third priority would be given to immediate actions intended to 
maintain and restore desired environmental conditions. Local resource 
managers, under guidelines established by a continuing public review 
process, would initiate actions as needed. Management objectives could 
reasonably be described in the form of ``desired future conditions'' 
and listed in 10 and 20-year increments for a projected period of 50 or 
100 years. Such desired conditions could be continuously determined and 
updated through the findings of established long-term learning 
experiments, comprehensive public outreach, and meaningful discussions 
involving the interested public, scientists, resource managers, and 
others with a vested interest in local environmental resources. Scales 
of desired conditions would vary from stand-level (acres) to landscape-
level (tens of thousands of acres). This process is very similar in 
concept, but different in scale and methodology, than the process 
described by Mr. Brunoe at the hearing.
    4.  When needed, the NEPA process would be initiated as quickly as 
possible with the issuance of a scoping letter that included a current 
listing and description of issues and long-term objectives. These would 
continue to be identified and updated during the course of ongoing 
learning, outreach, and communication processes just described.
    5.  Digital photo-grids would be systematically established and 
photographically recorded immediately and over a period of years on all 
public lands affected by the events, and in other affected locations 
where they were not an intrusion on privacy. The principal purposes of 
the photo documentation would be to efficiently establish baseline 
information regarding environmental changes attributed to the event, 
and to monitor the results of actions taken in response to those 
changes. The documentation would also serve many forms of long-term 
learning studies as well as be easily distributed to interested 
individuals and organizations.
    6.  Lessons learned via this process would be formally assimilated 
at periodic intervals and used to adjust existing plans and address 
following events of similar magnitude or consequence.
    I am hopeful that some portion of these suggestions may prove 
helpful in expediting and otherwise improving the current methods we 
are using to deal with catastrophic events on federal lands. I believe 
that better learning and communication processes, coupled with more 
efficient and better defined management options, should lead to 
healthier, more aesthetically pleasing, and more productive forests for 
future generations.

                                 <all>

</pre></body></html>
